<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2009</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]






        DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2009

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS
                             SECOND SESSION
                                ________
                    SUBCOMMITTEE ON HOMELAND SECURITY
                DAVID E. PRICE, North Carolina, Chairman
 JOSE E. SERRANO, New York
 CAROLYN C. KILPATRICK, Michigan
 CIRO RODRIGUEZ, Texas
 NITA M. LOWEY, New York
 CHET EDWARDS, Texas
 LUCILLE ROYBAL-ALLARD, California
 SAM FARR, California
 CHAKA FATTAH, Pennsylvania         HAROLD ROGERS, Kentucky
                                    JOHN R. CARTER, Texas
                                    ROBERT B. ADERHOLT, Alabama
                                    KAY GRANGER, Texas
                                    JOHN E. PETERSON, Pennsylvania
                                    JOHN ABNEY CULBERSON, Texas

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
      Beverly Pheto, Stephanie Gupta, Jeff Ashford, Shalanda Young,
                       Jim Holm, and Adam Wilson,
                            Staff Assistants
                                ________
                                 PART 4
                     DEPARTMENT OF HOMELAND SECURITY
                                                                   Page
 Office of Health Affairs--Department of Homeland Security........    1
 Federal Emergency Management Agency: Is the Agency on the Right 
Track?............................................................   53
 Homeland Security Grants: Supporting a National Preparedness and 
Response System...................................................  501

                                   S

                                ________

         Printed for the use of the Committee on Appropriations
    PART 4--DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2009
                                                                      ?
?
                                                                      ?

        DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2009

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS
                             SECOND SESSION
                                ________
                    SUBCOMMITTEE ON HOMELAND SECURITY
                DAVID E. PRICE, North Carolina, Chairman
 JOSE E. SERRANO, New York
 CAROLYN C. KILPATRICK, Michigan
 CIRO RODRIGUEZ, Texas
 NITA M. LOWEY, New York
 CHET EDWARDS, Texas
 LUCILLE ROYBAL-ALLARD, California
 SAM FARR, California
 CHAKA FATTAH, Pennsylvania         HAROLD ROGERS, Kentucky
                                    JOHN R. CARTER, Texas
                                    ROBERT B. ADERHOLT, Alabama
                                    KAY GRANGER, Texas
                                    JOHN E. PETERSON, Pennsylvania
                                    JOHN ABNEY CULBERSON, Texas

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
      Beverly Pheto, Stephanie Gupta, Jeff Ashford, Shalanda Young,
                       Jim Holm, and Adam Wilson,
                            Staff Assistants
                                ________
                                 PART 4
                     DEPARTMENT OF HOMELAND SECURITY
                                                                   Page
 Office of Health Affairs--Department of Homeland Security........    1
 Federal Emergency Management Agency: Is the Agency on the Right 
Track?............................................................   53
 Homeland Security Grants: Supporting a National Preparedness and 
Response System...................................................  501

                                   S

                                ________

         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 43-384                     WASHINGTON : 2008

                                  COMMITTEE ON APPROPRIATIONS

                   DAVID R. OBEY, Wisconsin, Chairman

 JOHN P. MURTHA, Pennsylvania
 NORMAN D. DICKS, Washington
 ALAN B. MOLLOHAN, West Virginia
 MARCY KAPTUR, Ohio
 PETER J. VISCLOSKY, Indiana
 NITA M. LOWEY, New York
 JOSE E. SERRANO, New York
 ROSA L. DeLAURO, Connecticut
 JAMES P. MORAN, Virginia
 JOHN W. OLVER, Massachusetts
 ED PASTOR, Arizona
 DAVID E. PRICE, North Carolina
 CHET EDWARDS, Texas
 ROBERT E. ``BUD'' CRAMER, Jr., 
Alabama
 PATRICK J. KENNEDY, Rhode Island
 MAURICE D. HINCHEY, New York
 LUCILLE ROYBAL-ALLARD, California
 SAM FARR, California
 JESSE L. JACKSON, Jr., Illinois
 CAROLYN C. KILPATRICK, Michigan
 ALLEN BOYD, Florida
 CHAKA FATTAH, Pennsylvania
 STEVEN R. ROTHMAN, New Jersey
 SANFORD D. BISHOP, Jr., Georgia
 MARION BERRY, Arkansas
 BARBARA LEE, California
 TOM UDALL, New Mexico
 ADAM SCHIFF, California
 MICHAEL HONDA, California
 BETTY McCOLLUM, Minnesota
 STEVE ISRAEL, New York
 TIM RYAN, Ohio
 C.A. ``DUTCH'' RUPPERSBERGER, 
Maryland
 BEN CHANDLER, Kentucky
 DEBBIE WASSERMAN SCHULTZ, Florida
 CIRO RODRIGUEZ, Texas              JERRY LEWIS, California
                                    C.W. BILL YOUNG, Florida
                                    RALPH REGULA, Ohio
                                    HAROLD ROGERS, Kentucky
                                    FRANK R. WOLF, Virginia
                                    JAMES T. WALSH, New York
                                    DAVID L. HOBSON, Ohio
                                    JOE KNOLLENBERG, Michigan
                                    JACK KINGSTON, Georgia
                                    RODNEY P. FRELINGHUYSEN, New Jersey
                                    TODD TIAHRT, Kansas
                                    ZACH WAMP, Tennessee
                                    TOM LATHAM, Iowa
                                    ROBERT B. ADERHOLT, Alabama
                                    JO ANN EMERSON, Missouri
                                    KAY GRANGER, Texas
                                    JOHN E. PETERSON, Pennsylvania
                                    VIRGIL H. GOODE, Jr., Virginia
                                    RAY LaHOOD, Illinois
                                    DAVE WELDON, Florida
                                    MICHAEL K. SIMPSON, Idaho
                                    JOHN ABNEY CULBERSON, Texas
                                    MARK STEVEN KIRK, Illinois
                                    ANDER CRENSHAW, Florida
                                    DENNIS R. REHBERG, Montana
                                    JOHN R. CARTER, Texas
                                    RODNEY ALEXANDER, Louisiana
                                    KEN CALVERT, California
                                    JO BONNER, Alabama

                  Rob Nabors, Clerk and Staff Director

                                  (ii)

 
        DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2009

                              ----------                              

                                            Tuesday, April 1, 2008.

       OFFICE OF HEALTH AFFAIRS DEPARTMENT OF HOMELAND SECURITY 

                                WITNESS

JEFFREY W. RUNGE, M.D., ASSISTANT SECRETARY FOR HEALTH AFFAIRS AND 
    CHIEF MEDICAL OFFICER, UNITED STATES DEPARTMENT OF HOMELAND 
    SECURITY

                  Opening Statement of Chairman Price

    Mr. Price. Good morning. Today we have Dr. Jeff Runge, the 
Department of Homeland Security's Assistant Secretary for 
Health Affairs and the Chief Medical Officer.
    Dr. Runge, welcome again to the subcommittee. We appreciate 
your service to the country, and we appreciate the challenging 
and important role you are playing. This is the first hearing 
when we have only one witness, so we hope that is going to give 
us time to engage in extensive discussions of the work of your 
office.
    Today we will cover the Office of Health Affairs fiscal 
year 2009 budget request, which includes the BioWatch program, 
the Office of Health Affairs coordination with other federal 
agencies on Project BioShield and the office's overall role 
within the Department.
    The fiscal 2009 budget request for the Office of Health 
Affairs is $161 million, an increase of $44.8 million or 38 
percent above the fiscal year 2008 level. The majority of this 
increase is for BioWatch, which would receive $111.6 million or 
$34.5 million above the fiscal year 2008 level of $77 million.
    While part of that increase would be used to expand the 
field testing of Generation 3 technology, the bulk of the 
increase, $20 million, would be used to procure and deploy 150 
automated pathogen detection systems. These systems are also 
known as BioWatch Generation 2.5.
    Dr. Runge, I would like to hear more from you about the 
rationale for investing tens of millions of dollars in these 
Generation 2.5 systems when OHA is in the process of field 
testing Generation 3 technologies and before the National 
Academies of Science assessment of BioWatch that Congress 
directed is complete. In answering, our ability to detect 
biological attacks is a high priority, and for that very reason 
it is important not only to do it quickly, but to do it right.
    During last year's bioterrorism hearing I expressed concern 
that the federal government's bioterrorism strategy is spread 
across a multitude of agencies. In August of last year the 
Government Accountability Office expressed a similar concern 
regarding the clarity of federal roles and responsibilities for 
pandemic flu preparedness, so I am pleased to see that the 
request for planning and coordination is almost $10 million, an 
increase of $5.4 million from the fiscal year 2008 level of 
$4.4 million.
    I do not have a good sense, however, about the extent to 
which your office has improved the coordination of the federal 
government's bioterrorism strategy over the last year or how 
you plan to further improvement in the coming years.
    Do you have specific goals and timelines against which to 
measure your progress in this area? I look forward to hearing 
your frank assessment about what it will take to overcome the 
many jurisdictional obstacles that you face.
    One of the more important coordinating roles that you play 
is associated with Project BioShield. We understand you have no 
direct authority over this Health and Human Services program, 
but it was funded through Homeland Security and you are the 
lead for the Department's biodefense interactions with other 
departments and agencies, so we look to you for opinions and 
solutions on how DHS and other agencies can ensure that the 
nation's medical system is capable of managing national 
biological emergencies.
    Since last year, unfortunately, there has been only minor 
progress in this program. Smallpox and anthrax countermeasures 
have been purchased, but the program has not lived up to the 
President's assertion that it would ensure that ``our drug 
stockpile remain safe, effective and advanced.''
    Of the $3.4 billion available under the program, only $1.9 
billion has been obligated. An additional $2.175 billion is set 
to become available in fiscal year 2009. Dr. Runge, we want 
your frank assessment of whether the threat assumptions that 
led us to appropriate these funds in the first place to make 
these advance appropriations still hold, and if they still hold 
I would like your assessment of why Project BioShield has 
failed to live up to expectations.
    Is there some flaw in the structure that we could fix? What 
can this committee do to ensure that this $2.2 billion in 
fiscal 2009 funding does not sit unused, but is applied to its 
intended purposes?
    In a moment I will ask you to summarize your written 
statement and ask that you limit your oral statement to five 
minutes. The full statement will of course be put in the 
record.
    Let me first yield to Mr. Rogers for any statement he wants 
to make.

               Opening Statement of Ranking Member Rogers

    Mr. Rogers. Thank you, Mr. Chairman, and welcome, Dr. 
Runge.
    The Office of Health Affairs and the Chief Medical Officer 
are functions that seem to be continuously evolving. Just three 
years ago the Office of the Chief Medical Officer started with 
only 10 FTEs and $2 million. When compared to your 2009 request 
for the Office of Health Affairs of more than $161 million 
supporting 80 FTEs, I would say you have come a long way in a 
short period of time.
    With this sizeable increase comes considerably more 
responsibility. What started out as a medical advisor role 
appears to be growing into DHS's principal agent for all 
medical and health matters charged with several vital tasks, 
including leadership of DHS's biodefense responsibilities, 
including early threat detection and biosurveillance 
integration, development of a coordinated and unified national 
architecture for medical preparedness, WMD planning and 
catastrophic consequence management and ensuring DHS employees 
are supported by an effective occupational health and safety 
program.
    I do not need to tell you or anyone else that these are 
important missions, missions that not only involve multiple DHS 
components, but other cabinet agencies such as HHS and 
Agriculture, so your job as I believe you are defining it is 
not just to support the internal workings of DHS, but also to 
support medical preparedness across the federal government, and 
that is certainly no small chore.
    Which leads us to the very question posed by today's 
hearing, the role of the Office of Health Affairs. In some ways 
I see your office as an expanded technical resource for the 
Secretary, but on the other hand I see it as an emerging office 
with an expansive mission across multiple agencies and 
departments.
    In either case, I am not sure if you are properly equipped 
with sufficient staff or authority to fulfill the mission 
requirements you are being assigned. This is something I hope 
we can discuss in greater detail in your testimony today 
because as I read down the list of program areas that are 
maturing under your watch, a list that includes BioShield, 
BioWatch, biosurveillance, biodefense, chemical defense and a 
whole host of medical readiness programs, I am somewhat 
concerned that an office, an emerging office that is but a few 
years old and located within a Department, whether it can 
effectively coordinate such tasks across jurisdictional 
boundaries and inherent bureaucratic obstacles.
    These are tough problems that do not have easy solutions. 
Despite that fact, Dr. Runge, we are looking to you for 
answers. We are looking to understand the role you and your 
office plays in the larger picture of homeland security and how 
the 2009 budget request moves you toward fulfilling that role.
    Thank you, Mr. Chairman.
    Mr. Price. Thank you.
    Dr. Runge, please proceed.

   Statement of Mr. Jeffrey W. Runge, Assistant Secretary for Health 
Affairs and Chief Medical Officer, U.S. Department of Homeland Security

    Dr. Runge. Thank you, Mr. Chairman, Ranking Member Rogers, 
for your incredibly insightful comments. I think you seem to 
know a tremendous amount about us already. I will try and fill 
in the gaps as best I can.
    First of all, I would like to express my appreciation for 
your support of our new office and its mission. Yesterday, 
March 31, marked our first anniversary of the Office of Health 
Affairs. We became official exactly one year ago. I am really 
gratified by the support we have received to get the program 
off the ground, but I also recognize that we are still in the 
early stage of development. We are evolving. We have a great 
deal of work to do.
    As of December 26, when the President signed the fiscal 
year 2008 appropriation, which was our first budget, we set 
about putting that first budget to good use. We have already 
hired nearly all of the slots for which we were funded for 
federal employees. The NBIS 2.0 software is now operational as 
of yesterday and powering the Biological Common Operating 
Picture, which I promised you last year.
    We have executed a contract to purchase the first cache of 
automated biodetection equipment for our biodefense arsenal, 
and now we have a critical mass of employees. We are doing a 
much better job of discharging the duties for which we were 
authorized in the Post-Katrina Act, and I believe we are on 
track to meet the goals that I discussed with you last year at 
my hearing.
    As you said, Mr. Rogers, the Office of Health Affairs has 
grown very quickly during our first year. We actually came in 
as the CMO with two people and a budget of $2 million; 
authorized for 10 but not funded for 10. We were able to get 10 
on board by about a year ago, and we are now at 41 federal 
employees plus 26 officers the Public Health Service detailed 
to us and a bunch of support contractors that are standing up 
our various BioWatch and the National BioSurveillance 
Integration Center. Seven of those 41 were hired in the last 
few weeks and will be on board as soon as they get through 
security clearance.
    This fast, and I would say, efficient growth was possible 
because this subcommittee supported our mission and provided 
the funding to hire people to get the job done. So again, I 
would like to thank you all for the support that you have given 
us in this past year.
    This year we are going to focus on our strategy to protect 
our nation from the threat of bioterrorist attacks or a 
pandemic, as well as our efforts to enhance our medical 
readiness and to protect the health and safety of the 
Department's workforce.
    We recognize also that there will be the unexpected, and we 
will handle it as we did last year, whether it was formaldehyde 
in temporary housing in the Gulf region, whether it was 
tuberculosis coming over the border, threats to the food 
supply, which we can do only with critical expert manpower.
    Prior to the office standing up, there was no principal 
agent for the Department's biodefense responsibilities, 
including our obligations under HSPDs (Homeland Security 
Presidential Directives) for biodefense and agriculture and 
food. This year we are closer to having this covered. We are 
deploying automated biodetection technology, providing an 
integrated biosurveillance capability, and we are working to 
secure the nation's food, agriculture and veterinary defenses.
    We are fulfilling our responsibility to the Secretary to 
manage DHS's role in Project BioShield, and we are also able to 
manage the Department's role in the President's Import Safety 
Working Group, which was issued up with an Executive Order last 
August, recognizing that managing this issue is not the job of 
any single federal agency, but requires an integrated response 
approach just like any other major incident.
    Before the creation of the Office of Health Affairs, the 
Department had no element responsible for subject matter driven 
end-to-end planning for bioterrorism and other catastrophic 
scenarios involving threats to the health of the population. 
This year we have brought aboard some highly qualified and 
trained staff of professionals who work across the interagency 
with states, local governments and the private sector to devise 
plans that span the entire continuum from threat awareness 
through surveillance and detection, prevention and protection 
and finally response and recovery.
    Before OHA was established the Department had no consistent 
policy standards or metrics for occupational safety and health 
or for tactical operational medicine. Today, we work very 
closely with the Under Secretary for Management to develop 
departmentwide best practices for occupational health and 
tactical and operational medical support for our folks in the 
field.
    In the next couple of weeks we are to be joined by a 
physician specialist in occupational medicine who will guide 
that program as soon as she clears security clearances. We 
think this is a core element in employee satisfaction which, as 
you know, we have had some difficulty in the past, which the 
Secretary very much wishes to enhance.
    The President has requested $161.3 million for fiscal year 
2009, an increase of $44.8 million over fiscal year 2008. This 
increase will allow for our current level of services to 
continue plus the necessary enhancements for automated 
biological detection and biodefense planning, as well as a very 
modest increase for a few people to improve our financial 
management.
    Mr. Chairman, I want to emphasize the importance of the 
program that is the bulk of the President's requested increase. 
I have come to you and briefed you on what I believe the 
urgency of reducing the ``time-to-warning'' of our BioWatch 
detectors and the vulnerability we face to certain agents of 
bioterrorism as a result of our current manual processes.
    At my hearing last year Ranking Member Rogers raised some 
serious concerns about the pace of the development of 
Generation 3 or the automated BioWatch systems. Since then we 
have identified a bridging technology that is out there that 
will enable us to deploy automated detection in certain high-
threat locations appropriate to these devices while we await 
the development of Generation 3 technology from S&T.
    We are collaborating with S&T to ensure that this bridging 
technology ready for deployment will reach an improved state of 
advanced commercialization so that it might actually meet the 
same Generation 3 requirements that the S&T program does so 
that the government will have a choice in 2009 as to which 
systems to buy, rather than putting all our eggs in one basket. 
We think it is important to have a choice of performers when it 
is time to spend more money on this particular problem.
    So as you both alluded to, we are small in size, but our 
mission is widespread across DHS and the interagency. The 
program dollars we receive are essential, and every dollar we 
have is put to good use.
    I want to thank you again for your support of us in 
Homeland Security, and I would be happy to answer all the 
questions that you have.
    Mr. Price. Thank you very much for that statement, and we 
will proceed now to questions.
    I will start where you left off with the BioWatch effort. 
It is an important part of your budget and your budget's 
requested increases, so it is appropriate that we focus on 
this.
    In my opening statement I questioned the current BioWatch 
strategy of operating BioWatch Generation 2.5 in addition to 
the current system when your goal is to have a BioWatch 
Generation 3 system in place in the near future. One of our 
problems perhaps is that we do not fully understand how similar 
or dissimilar these systems may be and how easily or how with 
great difficulty perhaps one system could be replaced by the 
other.
    In any case, this is not a new concern. In the context of 
the 2008 appropriations we expressed concern that OHA is not 
field testing and piloting similar technologies together and 
urged you to incorporate all systems into the field testing and 
pilot program. It seems that instead of doing that these 
Generation 2.5 systems have become fully operational in at 
least one city.
    So my initial question is, where does this fit into your 
overall strategy, this Generation 2.5 system? $20 million of 
the $34.5 million increase is to procure and deploy Generation 
2.5 or BioWatch 2.5 systems. Are we investing all of this money 
to have to turn around perhaps and purchase Generation 3 
systems next year or the year after to replace them?
    What would you say about the kind of transition you 
envision and particularly for what seems to be a sizeable 
investment in a system that will at some point be superseded?

                        BIOWATCH GENERATION 2.5

    Dr. Runge. This is worth spending some time on, and I hope 
I can fully develop this discussion.
    First of all, you should know, Mr. Chairman, and it has 
been testified to before; however, we will not get into the 
details of the classified stratification of the biothreats. It 
has been testified to before, and it is well known, that 
anthrax is our number one biological threat by an order of 
magnitude above the others.
    It is not difficult to procure, and the methods of 
spreading anthrax in a major city are fairly well known. This 
puts us at a tremendous vulnerability. To save people's lives 
from anthrax, we have to deliver antibiotics to them before 
they get sick, so after exposure but before they get sick, and 
that period of time is about 72 hours.
    Without post-exposure prophylaxis in that 72-hour window we 
will have tens of thousands of cases of untreatable pneumonia, 
an overwhelmed health care system, and I dare say, a problem of 
civil order of a magnitude we have not seen before.
    I think Dr. O'Toole testified last year at this hearing 
that this would have as significant an impact as a nuclear 
detonation on the numbers of people killed, particularly since 
it is easy to acquire, lends itself to a multiple city attack 
rather than just one 10 pounds of highly enriched uranium, 
which would make one bomb. This can be grown and disseminated 
simultaneously. This is a very serious issue.
    Without an environmental warning, the first notification 
that we have been attacked will be when those tens of thousands 
of people start getting sick and go to the emergency 
departments and their doctor offices. By then, the game is up. 
Too late. We will have lost that war.
    We are hanging a tremendous amount of our national security 
on environmental detection. As you well know, BioWatch stood up 
in 32 days under order of the President five years ago, and the 
technology is fairly primitive.
    At that point, when I was still happily over at the 
National Highway Traffic & Safety Administration, the folks at 
Homeland Security were busy figuring out the technology that 
would take that potentially 30-hour delay and drive that 
decisionmaking down to a few hours so that the time left in 
that 72 hours could be used to get antibiotics into the bodies 
of people. Without that, we are dead, literally.
    I heard your frustration last year. The Ranking Member took 
us to task for the slow pace of this development. Dr. Vitko, 
who was here, made the case that no one has ever done this 
before. Well, we left that hearing, and I think I talked to you 
later about this, about our pace.
    There is a system that has been developed by Lawrence 
Livermore National Laboratories that is actually using the same 
technology that the post offices have used since the anthrax 
attacks. This is the same assay approved by the CDC. It is 
public health actionable, but the box is big. It is not 
weatherproof.
    It really is not appropriate for outdoor use, but there are 
certain applications in certain cities of tremendous 
vulnerability where it would be appropriate in an indoor 
location where the machines, and they are not as sensitive as 
the Generation 3 machines will be, but it does not matter in an 
indoor location such as transportation hubs in some major 
cities.
    So we procured six of these, what we call Block 0. They are 
not fully commercialized, but they are sufficiently 
commercialized, so that we were able to deploy them in New York 
City, and they have been running now since December. The people 
in New York City are very happy with them. The public health 
folks who will make the call on whether the signal is real are 
also happy because the assays are the same CDC assays that they 
use in the laboratory.
    To get to the next commercialization phase, the vendor that 
Livermore is working with went into a joint venture with them 
to make a Block 1 unit, which has a greater sensitivity, is 
more weatherproof. The box is a bit smaller. The reagents are 
used more efficiently. That Block 1 unit is what we intend to--
well, we are purchasing 24 of those this year in fiscal year 
2008 to deploy in operational field tests in Chicago and one 
other city that is not yet disclosed.

                        BIOWATCH GEN 2.5 CONT'D

    Before we will deploy those we will have a thorough 
technology readiness assessment done by an independent third 
party. S&T has an ex-DOD acquisitions expert on board that 
already has been engaged here that will tell us when this 
technology is ready.
    Now, the other thing you should know is that I stole away a 
fabulous professional from S&T who was the director of their 
Technology Transition Office, Mr. Bob Hooks, who is now the 
Deputy Secretary for WMD Biodefense, who is responsible for 
this program. He understands the technology. I think we have 
the management in place to get this done.
    The fiscal year 2009 request is to procure more of those 
Block 1 units to deploy in appropriate locations, which may be 
indoors if they are not weatherproof, but there are transit 
systems around and airports that are clearly at risk, and we 
believe we would have significant benefit by deploying these 
systems there. We will also gain a tremendous amount of 
knowledge about how they work.
    What we have not solved yet is whether their Block 2 unit 
will meet all of the requirements that the Generation 3 
machines are contracted to meet, and we are hoping that in 2009 
we can actually have a fly-off between a more advanced version 
of this bridging technology and whatever Generation 3 
contractors are able to field a Generation 3 box.
    Our target is April of 2009 to do that head-to-head fly-off 
with whoever is ready because we need to get technology ready 
tested, thoroughly evaluated boxes into the field in a larger 
volume in 2010 and 2011. We cannot do that without a good head-
to-head operational test in environments that are appropriate 
in cold climates and hot climates, to make sure that whatever 
you all authorize for us to purchase next year will in fact be 
ready for that deployment.
    So this is a bridging technology to meet the Ranking 
Member's concern and clearly my concern, given the anthrax con 
ops problem that we are up against with a 72 hour window, and 
right now we are eating up almost half of that with our rather 
primitive technology.
    I do not look at this as discretionary, Mr. Chairman. I 
think given what we know about the threat, we owe it to our 
highest threat cities to get something out there that will meet 
the requirement until this Generation 3 is ready, whenever it 
is ready.
    Mr. Price. Well, your sense of urgency comes across very 
clearly. I want to make sure I understand though the 
relationship of the 2.5 systems and the 3.0 systems. You say 
that the 2.5 systems will be mainly in indoor locations. Is 
that true?
    Dr. Runge. We think so right now. Now, the developer knows 
how to make the box weatherproof, and it may be that they could 
get to a stage of development that will allow for some testing 
in an outdoor location, but they will be in the same cities 
where we currently have the Generation 1 and 2 technologies so 
that we will be able to test them against each other.
    Mr. Price. So what you are saying is that the 2.5 
technologies are suitable for certain kinds of environments and 
would not be immediately replaced when the better technology 
comes along? I want to make sure I understand.
    Dr. Runge. That is correct. You know, we do not know the 
longevity of these things, but there is no reason to suggest 
that, and this manufacturer also makes all the post office 
machines that have been in operation now for seven years or six 
years, six and a half years, and doing very well.
    So we do have confidence that they will last long enough 
until the next generation and some smart guy in Silicon Valley 
or in Osaka figures out how to make it this big and so forth, 
but those things are not meant to be thrown away if we put them 
in the locations appropriate for the application.
    Mr. Price. For these locations that are being covered with 
these Block 1 machines, will the later machines offer enhanced 
capabilities or is it mainly a matter of the 3.0 machines 
letting you go into outdoor environments and more challenging 
situations?

                         BIOWATCH GENERATION 3

    Dr. Runge. Well, that is clearly one, but also the cost of 
operations and maintenance is too high on these Block 0 and 
Block 1 machines, so that has to be made more efficient. The 
target that S&T has set for the band contractors--band is their 
name for the S&T Gen 3 program--is much, much lower than what 
the bridging technology can meet right now.
    So that is a problem for us. It is a problem for 
appropriators too. We cannot spend money on operations and 
maintenance when there is a more efficient operations and 
maintenance technology that is down the road. We have to 
balance our need for urgency with a more efficient and 
potentially less expensive Generation 3 machine.
    By the way, also the Generation 3 ones will be more 
sensitive so if you think about the spread of anthrax, if you 
do it in an indoor location you will have a more concentrated 
spread of spores. Sensitivity is not that big of an issue.
    If it is spread outdoors clearly we want the machines to 
signal when there are any spores. Obviously you cannot get down 
to zero, but we can get down to in the hundreds. What this does 
is that it will allow us to geographically map, hopefully to 
pinpoint a point source for the spread, which the folks at the 
FBI and in law enforcement are very interested in. If it 
happens in New York and if we have the point source there is an 
excellent source that they can figure out where it came from, 
and that is very important in preventing second attacks and 
third attacks.
    This is not a scenario where we can bring all the planes 
out of the sky at once to keep them from flying into buildings. 
Solving this issue of second and subsequent attacks is a much 
more complex thing, and it requires everything from good 
intelligence to the use of these BioWatch assays to figure out, 
``where did this come from?'', so the sensitivity is very 
important in an outdoor environment not only for public health, 
but for law enforcement.
    Mr. Price. Well, let me ask you a big question and ask you 
for a brief answer, and we can maybe elaborate later.
    Dr. Runge. I am not very good at those.
    Mr. Price. I am sensitive to our time situation here, but 
this budget request and your discussion just now does raise 
questions about where we are headed with this.
    Are we going to be do you think in the Congress confronted 
now for years to come with research budgets that go to 
Generation 4, Generation 5? I mean, what is the trajectory here 
that you would envision in terms of continuing needs to update 
this technology, and then what about deployment?
    I mean, clearly there are physical limitations as to where 
you can deploy these machines no matter how large our budget 
is. How much funding is it going to take? Are there natural 
limits to this strategy of choice, or is the need just endless?

                     LONG TERM OUTLOOK ON BIOWATCH

    Dr. Runge. Well, not to segue prematurely into BioShield, 
but this is why it is so important to have a vaccine. This 
stuff always is tied up together.
    As long as there is a threat from Al-Qaeda, and we know 
that they are very interested in this particular organism, and 
as long as we have to rely on post-exposure prophylaxis after 
exposure to save people's lives, we are going to have a problem 
with environmental detection.
    When we have a universal vaccine--and I say when because I 
do think that it is possible to have a universal vaccine that 
does not require six doses or four doses and does not hurt like 
crazy when you put it under your skin and people will actually 
comply--we can take this problem off the table, so the job that 
HHS has in developing a vaccine is a key adjunct to this long-
term strategy.
    If that does not happen we are going to have a long-term 
problem in covering areas, some cities that are very near to 
you and me, that are currently not covered. The states and 
local folks are going to start asking the question, ``Gee, how 
do we protect ourselves?''
    Eventually, Mr. Chairman, and this is my opinion, and I do 
not think we have policy on this, but the federal government is 
responsible for an architecture. We should be designing the 
architecture for states and local or private sector owners to 
plug into. If they wish to purchase biodetection, we should 
furnish a place for them to plug into so that when the signal 
goes off we are assured that that signal means something and we 
will be coming.
    I do not know how long we are going to be able to sustain 
buying gizmos and deploying them across the country. You know, 
you all have appropriated billions in grant funds. I think 
scrutiny would have to admit that perhaps the priorities of how 
those grant funds are spent maybe are not consistent with what 
we know about our national security needs, and we may be able 
to steer states and locals into taking responsibility for their 
own equipment. That is one point of view.
    Another point of view is wait a minute. This is a national 
security issue, and we would not give Mayor Bloomberg missile 
radar and antiballistic missile technology and tell him to 
shoot down the incoming, which is what we are essentially doing 
with BioWatch. We have centralized this and pushed it out into 
the community and said this is a local security issue.
    I am not sure that I agree with that. I am sort of walking 
on both sides of this fence here. This is, as you suggested, 
not a sustainable model. We have to get the vaccine done or we 
are going to be buying these things for a long time either 
through grant funds or in a budget like mine.
    Mr. Price. Thank you. I am sure we will return to this.
    Mr. Rogers.
    Mr. Rogers. Briefly to follow up on that. In last year's 
bill we provided $2 million for you to enter into a grant or 
contract with the National Academy of Sciences to evaluate the 
effectiveness of BioWatch, and I am reading from the report, 
including the reliability of monitoring data and the ability of 
hospitals and public health officials to respond based on 
information received from those systems.
    As part of the analysis, NAS should compare the benefits of 
cost of Generation 2 BioWatch technology with Generation 3 
technology. They should also assess the cost and benefits of an 
enhanced national surveillance system that relies on U.S. 
hospitals and the U.S. public health system and compare the 
effectiveness of such a system with the current BioWatch 
approach.
    A final report, it says, should be completed before the end 
of fiscal 2008 and provided to the committee. Do you know 
anything about where they are with that?

                         NAS STUDY ON BIOWATCH

    Dr. Runge. We have been negotiating with them about the 
statement of work. It is in Contracts, I believe. I think we 
are on track to do that. We have met with them. We also came 
over and briefed the Chairman on the language. I think I have 
done that for you for free. It did not cost $2 million.
    We have briefed them on the issue. You know, they do not 
have a lot of people in-house that understand this completely 
and so they are putting together a committee of people who are 
familiar with technologies like this, with assays, with 
environmental detection, with biosurveillance and the pathology 
of anthrax, so they are on track.
    Mr. Rogers. Well, we are six months away or less.
    Dr. Runge. That is right.
    Mr. Rogers. It sounds to me like you are just sort of 
beginning the conversation.
    Dr. Runge. We started the conversation with them on 
December 27 I think, the day after the bill was signed. We met 
with them in February. Dr. Pope, who is the staff person in 
charge of this for the Institute of Medicine, and I have been 
on the phone constantly.
    I have to tell you, sir. I have serious doubts that they 
are going to be able to do any kind of a full evaluation in six 
months. I have talked to the folks that I know who do cost 
benefit work, and they have come in and they have said, first 
of all, it is an incalculable benefit. You know, the numbers, 
the sheer numbers of an attack would dwarf any cost that you 
could think of.
    The NAS has said we are not going to do a cost/benefit 
analysis. We are going to look at the cost and we are going to 
look at the benefit, but we are not going to do a cost benefit 
analysis.
    Mr. Rogers. Well, we are interested to hear what they have 
to say, but I sort of am absorbing that this is not a critical 
matter with you, the NAS report.
    Dr. Runge. I think that it will add additional fire to our 
zeal on this. It will provide a third party credibility to what 
we are shouting right now.
    Mr. Rogers. We both alluded in our opening statements to 
the question of who is in charge of health for the federal 
government. I subscribe to the theory that two people in charge 
means nobody is in charge.
    One of the Department of Health and Human Service's 
strategic goals is, and I am quoting, ``Public health promotion 
and protection, disease prevention and emergency response,'' 
which according to HHS includes protection of the public from 
infectious and terrorist threats and preparedness for natural 
and manmade disasters. I thought that was what you were doing.

                         ROLE OF NAS VERSUS HHS

    Dr. Runge. My view of this, sir, and this is also a long 
and somewhat protracted policy discussion about the nature of 
Homeland Security.
    I view our Department as the architects and building 
managers for the building. With respect to human health, HHS is 
one of the contractors. That is their job. It is not my job to 
provide human health. My job is to make sure, as part of the 
Secretary of Homeland Security's Office, that that is being 
done; that the wiring and the HVAC and the plumbing all have to 
be done by people who are specialists in that field.
    HHS has been given authority through PAHPA to develop 
countermeasures, to do advanced development and to acquire 
medical countermeasures through Project BioShield as long as 
the Secretary of Homeland Security signs off on use of the 
special reserve fund.
    They control the stockpile. We do not control the 
stockpile. They control the national disaster medical system. 
We do not. They are responsible for ESF-8, which is the 
emergency support function for public health and medical 
services. We do not do that. That is their job.
    As best I can explain it, HHS is not a shadow DHS for 
health care. They have a role to perform in the great 
architecture of homeland security, and I think they do that. 
They are working very, very hard on doing that well.
    Mr. Rogers. Well, I am confused, and I suspect others are, 
about the respective authority and responsibility of each of 
these agencies. You have not allayed my concerns.
    Dr. Runge. Okay. I mean, I can go on. You know, we have 
three buckets of activity. WMD and biodefense is pretty 
straightforward. We are responsible for BioWatch. We are 
responsible for setting up the National Biosurveillance 
Integration Center. DHS has responsibilities under HSPD-9 now 
for food and ag, so we have a Food, Agriculture and Veterinary 
Defense Office.
    We have a role in Project BioShield, a very narrow role. I 
have one person who is devoted to making sure that the threats 
and countermeasures are delivered to HHS and then to make the 
decisions about what countermeasures to buy. That is a very 
clear role.
    Another bucket of activity in our office is the 
occupational safety and health. Right now, I have four or five 
people who are focused on the development of policy 
requirements and metrics for occupational safety and health and 
tactical and medical support. It has nothing to do with HHS.
    The place where there is a tremendous amount of interaction 
is in the medical readiness area. I can divide that up into two 
lanes. One is end-to-end planning, and this is everything from 
intelligence and biosecurity all the way through environmental, 
physical and psychological recovery.
    HHS has a piece of that plan: The delivery of medical care 
to people in the wake of a disaster and the development of 
countermeasures in order to fulfill that task. They do not do 
intelligence. They do human biosurveillance, but they do not 
integrate biosurveillance across the spectrum. They have 
prevention activities through the CDC's grants to states to do 
public education.
    We do not do that. We try to coordinate what we do. We have 
another grants officer in our Office of Medical Readiness who 
then sits down every week with HHS to discuss the grants that 
they have and the grants that DHS has to make sure that there 
is synergy in how they are used. It is not an easy task to 
coordinate, but we have to do that.
    Now, I would say that I am probably not the only person in 
DHS that has that issue with respective agencies, whether it is 
Justice or Transportation or another department. The Secretary 
of Homeland Security, if something fails, if something goes 
wrong and we lose thousands of people, he is going to be held 
accountable.
    We saw this in Katrina where it was not just Secretary 
Chertoff's problem, and yet the focus of the problem seemed to 
be on him for some reason. There were other cabinet secretaries 
that had an equal share of responsibility, but somehow it came 
back to Homeland Security.
    I have taken that to heart, and we are doing everything we 
can to make sure that they are successful in that mission of 
health care delivery on behalf of my boss who wants that role 
to be done well, who wants that contractor to fulfill that 
function with aplomb.
    We do not supplant HHS. We do not duplicate anything that 
they do. We are very much in support of their operation and 
very hopeful of their success.
    Mr. Rogers. Well, compared to HHS your agency with 42 
FTEs----
    Dr. Runge. Precisely.
    Mr. Rogers [continuing]. Is a fly on their windshield.
    Dr. Runge. Right.
    Mr. Rogers. I mean, they are a huge bureaucracy. I wonder 
whether or not we need to clarify legislatively even more so 
the precise roles of each of these agencies because we cannot 
afford to have confusion and nothing happening because of that 
divided authority.
    Dr. Runge. That is very insightful, sir. I would support 
that, and I will be happy to help you any way I can.
    Mr. Rogers. BioShield. Are we making progress?

                           BIOSHIELD PROGRESS

    Dr. Runge. This is also worthy of a discussion. I believe 
that some progress is being made. However, we have a long ways 
to go, and it is no secret to you. The numbers are out there. 
It is important to understand what DHS's role is in Project 
BioShield, and just so there is no mistake about this, this has 
been clarified over a series of MOUs and meetings and so forth 
that have gone on over the last year and a half that my office 
has been very much a part of, as well as our counsel and 
others.
    We are responsible for determining what constitutes a 
material threat to national security with respect to biological 
agents. We have issued 13 material threat determinations signed 
by the Secretary of DHS, and the second piece is to then use 
the best possible science and economical scenario to estimate 
the threat to a population so that gives it a size, gives a 
magnitude of the problem.
    So we give them the what and the how much. That information 
is given to HHS, and then, from there, they say, ``Okay, what 
have we got on the shelf that we can put in the Stockpile that 
did not have to be part of BioShield? What do we have to go 
through basic development with the NIH? What do we need 
advanced development for that BARDA should handle? And, 
finally, what can we acquire out there?''
    BioShield, as I understand it, was thought of as an 
acquisition program, but that presupposed that there were 
things to acquire, and some of the needs that we have for some 
of these agents do not have a countermeasure and, therefore, 
require countermeasure development. The NIH is well funded to 
do the basic development, I think. Others might dispute that, 
but they have been very productive in doing so, but the problem 
is, is that once they do the basic development of a molecule, 
there really is no advanced development that is operable right 
now to get it to a point where it can be acquired by BioShield 
funds.
    So the so-called ``valley of death'' that the drug 
companies talk about is still unaddressed. BARDA was authorized 
by Congress, I think, around a billion dollars to do this. A 
science board was created to bring in people who know how to do 
advanced development. They have put that together.
    There is money for acquisition, and there is money for 
basic development, but it still lacks the wherewithal to do 
advanced development, whether that is partnering with the right 
companies or whether that is somebody else doing it, partnering 
with the DoD and their advanced development process, that 
really is BARDA's problem, an HHS issue.
    We are rooting for them, but we do not have authority over 
that, and sometimes it is a bit frustrating, and it is 
frustrating, frankly, to Assistant Secretary Vanderwagen and 
Deputy Assistant Secretary Parker. They want to get this job 
done, but it is very difficult.
    Mr. Rogers. Well, there is another example of two agencies 
of the government with ill-defined responsibilities both 
telling us it is the other guy's fault, and this is something 
we cannot afford.
    Dr. Runge. I would be curious to know how they characterize 
that because we have issued material threat determinations, we 
have issued population risk assessments, and we are 
participating in their governance process as an ex-officio, 
nonvoting member, by the way. That is our responsibility, and 
we are fulfilling that.
    Mr. Rogers. Thank you, Mr. Chairman.
    Mr. Price. Thank you. Mr. Rodriguez.
    Mr. Rodriguez. Thank you, Mr. Chairman. I have some 
military installations in my community, through the Federal 
Partners program. How are we coordinating those efforts? How 
are we making sure that we get some results in those efforts? I 
know one of the main difficulties is the coordination with 
other agencies and localities, and how do we make sure that, as 
we have that Federal Partners program, how do we coordinate 
with the other federal agencies?

                        FEDERAL PARTNERS PROGRAM

    Dr. Runge. Mr. Rodriguez, I am not sure what Federal 
Partners program you are referring to.
    Mr. Rodriguez. In the process of doing what you need to do 
in securing this nation, I gather that you have some efforts, 
in terms of reaching out and coordinating.
    Dr. Runge. Certainly.
    Mr. Rodriguez. And my understanding is that there is some 
Federal Partners program to help in that process of getting 
data and information.

                     BIOWATCH COORDINATION WITH DOD

    Dr. Runge. Within the scope of my responsibility, I can 
tell you that, for environmental detection, the Defense 
Department's counterpart to BioWatch is called Guardian, and 
this year we have made an agreement with the DoD on assays so 
that whatever signal they produce will be public health 
actionable by the civilian sector, whatever signals BioWatch 
produces will be public health actionable by the defense 
sector.
    So we have put the two programs on equal footing, and they 
are collaborating very closely. That is one area.
    Another area is in response, and, as you know, NORTHCOM is 
the combatant command that has been made responsible for 
response for disasters in North America. Captain Jim Terbush, 
who is the command surgeon there, is on my speed dial. We talk 
to each other all of the time. We actually are concocting a 
scheme to do some joint training, or finding a place to do 
joint training, so that civilian folks can know what the inside 
of a C-130 looks like, and defense folks know what a civilian 
federal medical station looks like that the CDC deploys.
    Mr. Rodriguez. How do we tie it in? For example, you 
mentioned initialing your discussions with the anthrax 
situation. How do we tie into the community to be able to pick 
that up as quickly as possible?

                            BIOSURVEILLANCE

    Dr. Runge. Well, again, the DoD system, they do have an 
environmental detection system of their own. We are in constant 
communication.
    Now, another way that we are cooperating, and I left this 
out, is in biosurveillance. The Armed Forces Medical 
Intelligence Center at Fort Detrick does intelligence. They do 
the classified side of biosurveillance, but they are a direct 
input into our National Biosurveillance Integration Center that 
we are setting up that the common operating picture, that 
became live yesterday.
    So the data feeds that will come from AFMIC will go into 
the common operating picture in a sensitive but unclassified 
setting so that every decision-maker will be able to know what 
AFMIC knows about outbreaks around the world, and they will 
know what we know domestically, which comes from the CDC and 
from the USDA and the Department of the Interior.
    Mr. Rodriguez. The president requested, I think, about 700 
or less than $800,000 for the food and agriculture, and 
veterinarian. What are we expected to do with those seven or 
$800,000? What are the implications?

             FOOD, AGRICULTURE AND VETERINARY COORDINATION

    Dr. Runge. Our job there, again, USDA has authority over 
meat and eggs. FDA has food authority over everything else, and 
we have some problems. We have had an import-safety issue that 
we have dealt with. HSPD-9 is the President's Homeland Security 
Presidential Directive on food and agricultural security, and 
this is a list of all of the items that have to be done under 
HSPD-9. The first column is homeland security, and the things 
in red are the things that we are in the lead for.
    So, yes, it is a daunting challenge for this small band of 
passionate veterinarians and food experts to tackle this issue, 
but that is their primary goal, and it is one of coordination 
and, again, cooperating with the National Biosurveillance 
Integration Center to make sure that food and agriculture 
information is part of the common operating picture, working 
with the FDA on their issues, whether it was the melamine 
incident or----
    Mr. Rodriguez. Excuse me. Is this $700,000 supposed to do 
that for the country?
    Dr. Runge. It is challenging, but we have a set of 
objectives that, we believe, will considerably advance where we 
are right now.
    Mr. Rodriguez. I know I had an incident some time back, in 
terms of some cattle that had some kind of tuberculosis or 
something, and I think, you know, I had the hardest time just 
trying to find out if anybody knew about it. It was a little 
article that I had run into about that issue. I know that, on 
the border down there, we have a series of things, items such 
as rabies and ticks and other items that occur, that impact the 
livestock as well as the animals in the area.
    Dr. Runge. Yes, sir. We will be one-stop shopping for you. 
If you want to just call us, have your staff call over, we will 
get you all of the information that is available on anything 
going on with food, ag., and vet. in the country.
    Mr. Rodriguez. So what are the other agencies? Is it the 
Department of Agriculture that is overseeing some of that?
    Dr. Runge. Well, certainly, they have responsibility for 
veterinary health, for maintaining the health of the U.S. food 
supply when it comes to meat and eggs. They work very closely 
with their state agriculture departments on implementing 
regulations at the state level. That is their issue.
    Ours is more to be the eyes and ears of the Secretary when 
it comes to threats to the nation's food supply, which is the 
same issue that we had with FDA, which is why our little 
ambassadorial office here spends all of its time coordinating 
and collaborating with primarily those two agencies, as well as 
the private sector.
    I should point out that my eyes were opened. I went to 
North Carolina, and I went to visit Goldsboro Milling, which is 
one of the largest pork producers in the country. The amount of 
information that they have on diseases, viruses that are in 
their hog houses and in their chicken houses far exceeds what 
we know in the public sector.
    So we have to figure out a way to collaborate and get the 
information, in a proprietary, sensitive way, from the private 
sector so that we can have a better picture of what is going on 
in the country with potential outbreaks that are out there.
    Mr. Price. Thank you. Ms. Roybal-Allard.
    Ms. Roybal-Allard. Dr. Runge, as you know, early 
recognition of bioterrorism is an inherently complicated matter 
because the health and medical information on a situation could 
be delayed, or perhaps it could be presented in a manner that 
looks like a regular disease pattern.
    One critical way to help sort through this challenge is to 
ensure that the information that law enforcement may have on a 
particular case or situation is shared in a timely manner with 
public health officials. However, it is my understanding that 
DHS guidelines for labeling and sharing documents that are 
marked ``law enforcement sensitive'' can result in excluding 
public health officials from receiving information that is 
critical to determining whether there is an emerging health 
threat.
    It is also my understanding that the decision to share 
information labeled as ``law enforcement sensitive'' is often 
made by law enforcement personnel who lack the knowledge needed 
to determine what information should be useful to public health 
officials in determining the existence of a health threat.
    So my question is, being that your office is charged with 
leading the response to bioterror incidents, what is being done 
to ensure that law enforcement officers share relevant 
information with public health agencies in a timely manner so 
that they can effectively assess and respond to a bioterrorism 
threat?

             SHARING LAW ENFORCEMENT SENSITIVE INFORMATION

    Dr. Runge. That is an eloquent statement of the problem. 
There is a solution. As a matter of fact, three weeks ago, I 
was talking with Secretary Chertoff about this exact problem, 
and he looked over at the Deputy Under Secretary for 
Intelligence and Analysis and said, ``you know, where are we 
with getting public health people into the fusion centers?''
    This has been a goal of ours that we have been working on 
not hard enough. We have been raising this on the radar screen 
of the I&A folks, and they actually, as of a few weeks ago, now 
have a program to begin to incorporate public health into the 
fusion centers. This is useful for us in a couple of ways.
    Number one, it is great to have those eyes and ears out 
there that can let us know what they are seeing at the local 
level in a coordinated fashion with law enforcement. It is also 
an advantage to us to have them there to push information out 
when the time comes. They have typically not had security 
clearances. Public health folks, for a myriad of reasons, have 
a difficult time designating somebody who will be around for 
years who will go through all of the necessary security 
clearances and information analysis training to be able to be 
an effective fusion center participant over a period of time. 
So those issues are worked on.
    HSPD-21, which was signed by the President a few months 
ago, actually has a mandate in there for our I&A office to go 
out and, with our help, do briefings for local public health on 
the threats. Now, a one-time thing is going to be okay, but it 
is not ideal. What they need is a constant presence in those 
fusion centers so that when new information comes down the 
pike, they will be privy to it, and they can apply their 
knowledge to it. So we are on this case.
    Ms. Roybal-Allard. Am I understanding that you are saying 
you cannot find qualified public health people to be a part of 
that?

                PARTICIPATION OF PUBLIC HEALTH OFFICIALS

    Dr. Runge. No. That is not what I said. It is difficult to 
find someone who a public health system can designate for three 
or four years, who will go through the security clearance 
process, who will get the analytical training, and then will be 
part of the system for a period of years. It is hard for them 
to commit to that, and we have heard this from NACHHO folks 
with whom we have talked to about this.
    They will solve that problem, but, you know, there has been 
an issue with security clearances for police officers, for 
instance, that Charlie Allen has solved. We will set about 
solving the problem for public health people as well, but we 
cannot have people coming in for six months and then being 
reassigned to do some other public health chore. We have to 
have a commitment at the local level that they will actually be 
part of this fusion cell for the long haul.
    Ms. Roybal-Allard. Do you have any sense of how long or how 
close you are to solving the problem so that we do have these 
public health people in place?
    Dr. Runge. It is a high priority. Let me get back to you on 
that. We will actually come in and brief you on the plan that 
we have. I appreciate your support for that.
    Ms. Roybal-Allard. Okay.
    Dr. Runge. It is one more thing that we need to do, but we 
need to do it.
    Mr. Price. Thank you. Let me return, Dr. Runge, to the 
BioShield discussion. Congressman Rogers was focusing on some 
of the interagency divisions of responsibility, which, as he 
said, sometimes amounts to the buck stopping nowhere, but I 
know you watch this closely. I know you are concerned about it. 
You have certainly left no doubt about that.
    So I do have some questions about this intergovernmental 
aspect, the kind of coordination that is required, but then we 
also have this matter of a budget, a sizable budget, item to 
deal with.
    As I mentioned in my opening statement, an additional $2.2 
billion is coming available in Fiscal Year 2009 for Project 
BioShield. That decision was made back in 2004, and those 
assumptions that govern that decision may or may not still be 
operative. We have had close to four years to assess the 
viability of this program. We know that right today almost two 
billion has not been obligated.
    We know some of the reasons for that money not being 
obligated. There have been shortfalls in acquiring advanced 
countermeasures, as you indicated, for most of the threats, 
really, that have been identified by DHS, and there is a debate 
under way, which you have alluded to. Is this just a matter of 
failures of management and coordination, or is it just not 
properly designed? Have we somehow failed to put the incentives 
in place to bring this development process along?
    The bottom line is that BioShield has not been able to 
develop the countermeasures, as originally intended. This 
raises obvious questions about the present money available and 
the money coming online.
    So I would welcome any comments that you have about this, 
but I want to ask you how we should direct these funds when 
they do come online. Are we talking here about putting money 
into BARDA, for example? Would that be a better strategy, as 
opposed to having this unused money out there for drug 
acquisition? Can you help us with the obvious budgetary issues 
that we are facing?

                           PROJECT BIOSHIELD

    Dr. Runge. Mr. Chairman, you have asked a bunch of 
questions there. I certainly have opinions on most of them.
    Your understanding of the budget issue is accurate, I 
think. The fact that it is in the coffers of the Office of 
Health Affairs is just a function of where the money was 
appropriated, to begin with. Right now, I have one financial 
person, Rich Aaronson, a fabulous guy, sitting back there, but 
he is one guy. He has another one in the pipeline who will be 
coming at the end of April, and there is a third one being 
advertised. So that cadre of three financial people will be who 
we have.
    The President has proposed four more in our budget. That 
will be the delta in our FTEs for this year, which we 
desperately need. But there is no way that we can exert any 
sort of financial management or any credible financial control 
over $2.8 billion and how it is spent.
    The accountability of DHS for how this is spent is 
illusory. It is a figment of our imagination. The fact is, is 
that when we issue a material threat, and the Secretary of HHS 
determines that they are going to spend money from the special 
reserve fund on that material threat, a letter comes to 
Secretary Chertoff and asks for his concurrence to use the 
special reserve fund to deal with that threat, and that is the 
co-signature that then goes to the head of OMB, who has the 
President's delegation for the use of the special reserve fund. 
At that point, that is pretty much it, as far as our co-
management of those funds.
    When HHS does a procurement and--countermeasure, they send 
over a note that says, ``Pay the bill,'' and that is what we 
do.
    So the way it is set up is not ideal, and I am not sure 
what the crafters of the legislation initially had in mind. 
When I opened up the budget in brief and saw that I had $2.8 
billion in my budget line, I was slightly taken aback because 
it is illusory, and we cannot exert financial control over this 
in any reasonable way.
    So this is also a fund that does not allow an 
administrative take-down. Whatever you do with BioShield funds, 
you do it out of hide, so that is a bit of a problem for us, 
unlike other grant funds that allow administrative overhead. 
This is not one that does that. Did that answer your question?
    Mr. Price. It answers part of my question having to do with 
how this coordination takes place and what your role is. You 
did not really address my question, and I would appreciate your 
trying to do so, about whether these funds are misplaced in the 
first place, whether these assumptions still hold, whether, for 
example, the annual appropriation for BARDA is $102 million, 
way, way below the kind of sums we are talking about. You 
cited, in your answer to Mr. Rogers, the ``valley of death'' 
problem as a major component of this. It apparently is. 
Obviously, these drugs have not been developed. The program has 
not moved forward.
    Are we dealing here with a misallocation of funds that we 
need to correct?
    Dr. Runge. I think that part of it is where we are in the 
phase of things. Initially, there was some low-hanging fruit 
that BioShield actually was able to acquire. For instance, 
botulinum is one of the things on the threat list, and there 
was actually a technology for making botulinum antitoxin that 
did not require a lot of advanced development, so they were 
able to pick that fruit.
    Smallpox vaccine; they were able to deal with that.
    Anthrax antitoxin was already somewhat through the advanced 
development process. They were able to buy a couple of hundred 
thousand doses of that.
    So, initially, it seemed to be working okay, but we plucked 
that fruit. The higher hanging fruit is dependent on advanced 
development, so now it looks like it may be a little bit out of 
sequence, where we funded the acquisition and did not fund the 
advanced development.
    You know, the big cop-out that I used to use on Chairman 
Rogers when he was the chairman of my oversight committee at 
NHTSA was, ``You all make the law; we just administer it.''
    This is a tough one. I hesitate to suggest that we diminish 
the acquisition money because it needs to be there. On the 
other hand, there is a need for some creative advanced 
development that HHS has to do, whether it is through joint 
ventures or whether it is funding their own advanced 
development, like DoD does in some ways. I do not know much 
about the DoD model, but they do advanced development a little 
bit differently, and it may be wise to look at best practices.
    Mr. Price. Thank you. Mrs. Lowey, you came in just as the 
first round was ending, and having been in your situation, I 
think we should turn to you because we are now into the second 
round, but with Mr. Rogers's concurrence, we would like to turn 
to you for your questions.
    Mrs. Lowey. I really appreciate it, Mr. Chairman. 
Unfortunately, we are pulled in many directions with many 
hearings, and I thank you for understanding.
    I also appreciate, Mr. Chairman, Mr. Rogers's focus on 
coordination, as well as yours, so I will not continue on that 
issue. But I would like to talk about the hospital surge 
capacity.
    This is an issue I have been interested in for quite a 
while because, in the case of a public health emergency, such 
as bioterrorism or a pandemic, one of the critical elements 
necessary for an effective response is adequate surge capacity 
at hospitals or other medical facilities.
    We all know, certainly in my district and many of the other 
surrounding districts, many hospitals are currently having 
difficulty dealing with the emergencies coming through their 
doors on an average Saturday night, let alone what would happen 
in a bioterrorism or pandemic scenario.
    So before I get to specific questions, Mr. Chairman, I do 
not know whether Mr. Rogers or you ever visited that command 
center that Tommy Thompson put together. Now, I have checked 
with several staff people, and no one knows anything about it. 
Mega-millions was spent on that command center. Perhaps you can 
tell us if you know something about that command center. 
Whatever happened to that command center?

                   HHS SECRETARY'S OPERATIONS CENTER

    Dr. Runge. Would this be the Secretary's operations center 
at HHS?
    Mrs. Lowey. Yes. It was an incredible thing. A lot of money 
was spent on all of the TV screens, and he could pinpoint 
exactly where my hospital is or your hospital is, and, 
supposedly, in an emergency, they would absolutely know what 
was happening. Are you aware of this?
    Dr. Runge. Yes, ma'am.
    Mrs. Lowey. Are you using it?
    Dr. Runge. Well, the Secretary's operations center gives us 
daily situation reports that go both to us in our office as 
well as the National Operations Center. Secretary Leavitt, this 
past year, at our request, filled the chair of the National 
Operations Center with one of his Secretary's operations center 
people so that there is a real-time, common operating picture 
with the National Operations Center and the Secretary's 
operations center at HHS.
    So, yes, there is definitely connectivity, and they have 
been working very, very hard since they stood up the 
Secretary's Preparedness and Response Office in increasing 
their operational efficiency.
    Mrs. Lowey. I think it just might be helpful if someone 
came down and briefed people on that center because no one 
seemed to be able to follow up on it, but I am glad that all of 
those millions of dollars are currently being used effectively 
to keep, God forbid, there is an emergency.
    Now, the President, in the budget, proposed to cut the HRSA 
Hospital Preparedness program, which is designed to increase 
hospital surge capacity, by more than $61 million for Fiscal 
Year 2009. From your position at DHS, does this mean that the 
administration believes that states and hospitals are 
adequately prepared for bioterrorism or another medical 
catastrophe?

                   HHS HOSPITAL PREPAREDNESS PROGRAM

    Dr. Runge. I really cannot comment on the decisions that 
were made around the HHS budget, so I will pass on that.
    Mrs. Lowey. You just have to accept it.
    Dr. Runge. That would be a question that you would more 
appropriately pose to them. However, I do not think anybody who 
has looked at the news, looked at the IOM report on the state 
of emergency care in the country, would be under the mistaken 
notion that we are adequately prepared for a hospital surge. We 
have squeezed all of the capacity out of hospitals' budgets, 
and it is just not there.
    Mrs. Lowey. Has the federal government estimated the cost 
of creating a minimum level of surge capacity?

                        HOSPITAL SURGE CAPACITY

    Dr. Runge. Well, any time we create surge capacity, it gets 
filled up with patients that would be boarding in the emergency 
department. So it is a fallacy to suggest that we can actually 
create surge capacity any more than any business can afford to 
have a bunch of people that are sitting around not working.
    By the way, way up in the 90 percent of health care in this 
country is delivered by the private sector, so we have not 
asked the private sector to make an investment in unused beds 
or unused people or unused equipment. It is not a very 
practical solution. I do not have a practical solution for you, 
but this is the state that we are in.
    Mrs. Lowey. But it would seem to me that the Chief Medical 
Officer at DHS should have an estimate of what is needed to 
achieve a minimum level of surge capacity. How do you make us 
feel secure on health matters if we do not have those figures? 
I know that is a difficult position to put you in.
    Dr. Runge. It is, and, as a matter of fact----
    Mrs. Lowey. But you are in that position.
    Dr. Runge. As a matter of fact, HHS would say, and I would 
agree with them, that that is their issue, that is their 
problem. You sort of missed my analogy of where Homeland 
Security is in the great scheme of things. If we are the 
building manager and the prime contractor, HHS is a 
subcontractor for the health care piece. They do ESF-8. They 
are responsible for the emergency-support function for public 
health and medical care in the event of a disaster.
    I know that this is very much on their radar screen. This 
is a problem that we talk about, but we, frankly, do not have a 
lot of solutions for it, other than surging federal assets when 
it comes time to answer a call with field hospitals and 
volunteer national disaster medical system of people, medical 
reserve corps. The Uniform Public Health Service is available, 
with 6,000 people.
    So there is some surge capacity through federal resources, 
but surge capacity does not exist in the world of private or 
quasi-public hospitals.
    Mrs. Lowey. Well, let me just say, because the Chairman is 
looking at me, which must mean my time is up, but I know Mr. 
Rogers was talking before about coordination. One of the main 
problems, as you know, in Louisiana was the lack of 
coordination, and we heard that from everybody, after you, 
after you, after you.
    Dr. Runge. Absolutely.
    Mrs. Lowey. So I would hope that, as the Chief Medical 
Officer at the Department of Homeland Security, that there is 
adequate coordination and that there is some planning, and 
there is some estimate on what is an appropriate surge capacity 
number and that you ask for it because we certainly have to be 
ready, and it seems to me, this is an important part of your 
responsibility. Thank you, Mr. Chairman.
    Mr. Price. Thank you. Mr. Rogers.
    Mr. Rogers. Pandemic influenza: A formidable challenge, not 
to mention the devastation to the country, but a real challenge 
to the continuity of critical government operations, as well as 
the public health.
    To date, over $6 billion has been provided to support the 
National Strategy on Pandemic Influenza, most of that to 
stockpiling vaccines out of our Office of Medical Equipment by 
the federal government and the states, as well as to support 
response plans. What I want to ask you about is how do we 
protect the essential governmental services during that kind of 
an attack?
    DoD has reportedly stockpiled over six million courses of 
antiviral treatments for essential military personnel, and the 
State Department has bought 100,000 courses of antiviral 
treatments to protect its employees worldwide. What are we 
doing to protect what a lot of us consider to be one of the 
most important government agencies, yours, DHS, from that kind 
of pandemic attack? Not just influenza perhaps but----

              PANDEMIC INFLUENZA CONTINUITY OF GOVERNMENT

    Dr. Runge. Your question is a very potent one. I will deal 
first with the issue of a pandemic.
    By the way, of the $6 billion, DHS's share was about $47 
million. About a third of that we spend on stuff, on buying and 
stockpiling things. We bought $6 million in respirators, $10 
million in pairs of gloves, hand gels, goggles, disposable 
suits. They are stockpiled with the operating components in 52 
locations throughout the U.S.
    We are in the process of purchasing 135,000 courses of 
antivirals, which would be used for treatment and not 
prophylaxis under current guidelines. The funding for that was 
about $2.7 million. There is a contract in OPO for execution 
that falls within that amount for some more tens of thousands, 
or perhaps hundreds of thousands, of doses. I will get you the 
exact number, if you are interested.
    It is clearly a concern of ours. Continuity of government 
is extremely important, and we took that very, very seriously 
and put a significant amount of the money that we were allotted 
into a provision for that purpose.
    We are also buying surgical masks that provide a little 
lower level of protection, but CDC has given us some guidance 
that they will be useful in some applications.
    So we are on the case. Now, with respect to the larger 
issue, our workforce-protection issue is a huge deal for us, 
and Dr. Bill Lang, who has been a detailee from DoD that I have 
had in that slot because I have not had an FTE for it, has done 
a fabulous job in scoping out what these requirements are. We 
have put in a travel medicine system so that our deployed 
forces will know what diseases are present in the places that 
they are going to, what sort of immunizations and antibiotics 
they need to take with them.
    For other biological events, we are behind the curve. If we 
were attacked by anthrax, our workforce does not have 
medication kits with the necessary antibiotics in them. We are 
trying to identify a cadre of people who have had previous 
anthrax vaccine that we could give a booster to so that we 
could have a cadre of people who would be willing to respond 
who are vaccinated in an anthrax emergency. But as you might 
imagine, it is a very complex issue. There is a funding issue, 
and there is also an operational issue that we are tackling.
    Mr. Rogers. Tell me how this works. We have got a pandemic 
influenza outbreak across the country. What do you do? What 
does DHS do? What does FEMA perhaps do, and what does HHS or 
anyone else do? Who does this work, and what kind of work is 
it?
    Dr. Runge. To the extent that there is an outbreak across 
the country, Secretary Chertoff has a predesignated Principal 
Federal Official, Vice Admiral Vivian Crea, the Deputy 
Commandant of the Coast Guard, who is the predesignated PFO for 
a pandemic.
    We have also identified five regional PFOs and 10 deputy 
PFOs, all of whom now are trained in the management of this 
particular incident. We have had communications exercises where 
we have been present at an assistant secretary level, 
governmentwide exercise.
    So we believe that our response capacity is how we would 
handle any other major event, with the exception that this 
event would occur across the entire country, so we need a bunch 
of PFOs for----
    Mr. Rogers. What I am trying to get at is what is the role 
of HHS, what is DHS, and what is FEMA's role, or anybody else?
    Dr. Runge. HHS's role is to take care of the people. Their 
role is to take care of sick people. So, in preparation for 
that, they have invested three-plus billion dollars in vaccine 
technology, and they are working very, very hard at that. The 
have given $500 million in a couple of tranches out to states 
to do state and local planning, to public health. The issue of 
public health and health care is their responsibility. That is 
not DHS's responsibility. They are the contractor for that 
element.
    However, we recognize that it is not just a health problem, 
as you well know. This is an issue of critical infrastructures, 
it is an issue of continuity of government, and it is an issue 
of potential civil unrest. There are issues of quarantine 
enforcement and so forth, all of which will be dealt with by 
DHS through its HSPD-5 authorities.
    Mr. Rogers. That includes protecting essential personnel--
--
    Dr. Runge. Yes, sir.
    Mr. Rogers [continuing]. Not only in DHS but in other 
departments.
    Dr. Runge. That is correct.
    Mr. Rogers. Are you the sole agency for that kind of 
effort?
    Dr. Runge. The pandemic planning lives with us, and so our 
Medical Readiness Office has been working diligently with HHS, 
and the CDC which is part of the HHS, on things like community 
mitigation strategies. What will people do before they have the 
vaccine in order to minimize their risk of exposure?
    We have developed a set of priorities for vaccine usage, 
when vaccine is available, by critical infrastructure sector, 
with the help of our sector coordinating councils at DHS, to 
identify how many critical people are in the 17 critical 
infrastructures key resources. So we have been building a 
matrix around that to help HHS prioritize who will get the 
vaccine first.
    There have been public meetings on the subject, so our 
office is very much involved with that coordinating role with 
them and the VA and DoD with respect to how this sort of care 
is delivered.
    Mr. Rogers. Does your responsibility go toward the White 
House as well, to protect their personnel?
    Dr. Runge. The White House has its own ability to maintain 
its workforce.
    Mr. Rogers. Does FEMA have a role in this?
    Dr. Runge. Absolutely.
    Mr. Rogers. What role?

                        FEMA ROLE IN A PANDEMIC

    Dr. Runge. Well, insofar as when there is a national event, 
and Homeland Security will surge its forces, FEMA then stands 
up the National Resource Coordination Center, and all of the 
various ESFs then are discharging their responsibilities. 
Whether it is transportation or law enforcement or public 
health and medical care or communications, they are the hub for 
response.
    Mr. Rogers. Who distributes the vaccines and that type of 
thing around the countryside?

                          VACCINE DISTRIBUTION

    Dr. Runge. That is a stockpile issue. HHS is responsible 
for the Strategic National Stockpile.
    Mr. Rogers. And they deliver it?
    Dr. Runge. Yes, sir. We are in the process of purchasing 
our own for our workforce, as do many private companies, but 
they and the states are responsible for that distribution.
    Mr. Rogers. For the public distribution.
    Dr. Runge. Yes, sir.
    Mr. Rogers. Thank you.
    Mr. Price. Mrs. Lowey.
    Mrs. Lowey. One of the issues I would like to follow up on 
from Mr. Rogers's comments is regarding the state stockpiles. 
Many of us have been talking about this for quite a few years, 
not only on this Committee but on Labor-HHS, and we know that, 
to date, the federal government has purchased the 50 million 
courses of treatment, as recommended under the NSPI. States, on 
the other hand, have still only stockpiled approximately 19 
million of the 31 million courses of antivirals called for in 
the NSPI, leaving us 12 million courses short of the National 
Preparedness Plan.
    As you are aware, some states have completed their 
stockpiles, some states are partially done, and others have yet 
to act. My own state of New York has purchased about 1.27 
million courses of treatment as of November 2007, which is 
about 63 percent of the state's allocation. It should reach 80 
percent of its allocation by the end of 2008.
    What are you doing to encourage more states to purchase 
enough antivirals to cover their populations, and if you could 
provide the Committee with an update on progress by each state 
to complete their purchases, it would be very helpful to us. So 
what are you doing about that?

                           VACCINE STOCKPILES

    Dr. Runge. Well, first of all, we will be happy to get the 
data from HHS and pass it on to you. We will take care of you 
there. Under a program that they administer, states were able 
to purchase and stockpile antivirals at a favorable price and 
with a subsidy. They are encouraged to come to the full $30 
million. All we have is the bully pulpit on this issue. We do 
not control that program. That is an HHS-CDC issue. We can 
cheerlead and hoop and holler, but that is HHS's 
responsibility.
    Mrs. Lowey. So, from the Department of Homeland Security, 
and I know Mr. Rogers was trying to clarify that, in the event 
of a pandemic influenza outbreak, you have no responsibility in 
ensuring that states who do not make preparations are going to 
be in a difficult situation versus those that have failed to 
act. That is all HHS?
    Dr. Runge. That is. Unfortunately, we understand that that 
puts us at risk, and it is just like, you know, this is the 
contractor analogy. We are dependent on their success, so we 
encourage, we can issue requirements, we can discuss with them 
relative merits of encouragement or bully pulpit or strong-arm 
techniques. We have had this discussion around community-
mitigation strategies.
    If you look back at the 1918 pandemic, St. Louis, which 
employed very effective community-mitigation strategies, had a 
very low mortality curve, whereas Philadelphia, that did not, 
had a very high mortality curve. So I look at this, and I am 
saying, well, it is pretty darned important to make sure we 
have more St. Louises than Philadelphias in a 2011 pandemic, 
and yet there is a hesitancy to tell states what to do. I, 
frankly, do not have that problem, but there are people who are 
responsible for these sovereign entities that do have that 
problem, and they are not going to do what you tell them to do, 
no matter what, because they are sovereign entities.
    So we have the bully pulpit. We can issue, this is the 
standard, this is what the CDC has said is best practice, and 
we encourage you to comply. But that is where we are stuck, and 
we also know that if they do not, they become our problem, just 
like any community that does not prepare, does not have a good 
evacuation plan, does not have a communications plan, does not 
have interoperable communications, et cetera, et cetera, et 
cetera. They become our problem.
    So it is in our interest to do what we can to make sure 
that they do have 30 million courses of antivirals, but we do 
not control that. It is a tough spot to be in.
    Mrs. Lowey. It is because the plan calls for 25 percent of 
the population, if I am correct, to be covered, so I would 
think that the Department of Homeland Security that has the 
overall primary responsibility, working with HHS, would be able 
to use some extraordinary persuasiveness.
    Dr. Runge. Unfortunately, we do not have that authority, 
and we will use the bully pulpit, and we will encourage them, 
and, again, working with HHS, we will do whatever we can do 
to----
    Mrs. Lowey. Should you have more authority?
    Dr. Runge. That is perhaps a much longer, protracted 
discussion. The Secretary of Homeland Security, as I said 
before you came into the room, really is on the hook for making 
sure that everyone else fulfills their responsibility and is 
successful. It is a tough spot to be in when you do not have 
authority over that.
    I think there are some similarities to what you all did 
with the DNI, for instance, with budgetary authority over 
intelligence. As I leave government next year, I will write 
about that. I think that we have seen the deficiencies that we 
have in trying to coordinate and collaborate with various 
entities that are reticent, and that is where we are.
    Mrs. Lowey. Well, Mr. Chairman, I think this would be very 
helpful. I understand there are certain things you may not be 
able to give us for the record until you leave the government, 
but we would not want to wait until, God forbid, there is a 
real emergency to get your advice, and I think that would be 
very helpful.
    Dr. Runge. I think the Congress is understanding that there 
are some tweaks that need to be made to the Homeland Security 
Act at some point, and, certainly, from your point of view as a 
subcommittee Appropriations Committee for Homeland Security, I 
think you probably sense some of the issues that we have. We 
simply are totally dependent on other people's success, and yet 
we have no authority over ensuring that that happens.
    Mrs. Lowey. That is the problem, and I think that is 
something that Mr. Rogers and the Chair have been trying to get 
to. Thank you, Mr. Chairman.
    Mr. Price. Thank you. Mr. Serrano.
    Mr. Serrano. Thank you, Mr. Chairman. I apologize for being 
late. I was chairing my own subcommittee.
    It is a combined issue here. I spent quite a bit of time 
speaking about fairness to the territories--Puerto Rico, Guam, 
the Virgin Islands, Samoa--and I have noticed throughout the 
years that there seems to be an indifference to how the federal 
government deals with the territories: Not including them in 
legislation, making assignment of dollars as sort of an add-on.
    But now, under the issue of homeland security and the War 
on Terror, that indifference could be very dangerous to the 50 
states, as it is to the folks that are there in the 
territories.
    So my question to you is, especially when it comes to food 
safety, items coming into the territories and items leaving 
that originate in the territories; are we doing what we should 
be doing? Do we have the manpower and womanpower to deal with 
this issue?
    Secondly, if you might slightly or wholly agree with me 
that there has been an indifference to the territories, is 
there an indifference also when it comes to homeland security 
in terms of securing them and, therefore, securing ourselves 
from, in this case, items coming through the territories?

                    INDIFFERENCE TO THE TERRITORIES

    Dr. Runge. Mr. Serrano, I am probably guilty as charged 
with respect to my area. We say, you know, the politically 
correct term ``states, territories, and tribal governments'' 
all of the time, and yet I have not visited a territory to sit 
down with the officials to find out what their concerns are. 
This is just a part of the slow evolution of our office.
    So I would not say ``indifference'' as much as an issue of 
prioritization, in general. Now, that is not true of DHS in 
general. FEMA is very involved with the territories, 
particularly in the Caribbean region. They very much watch 
very, very closely what goes on with Puerto Rico and the U.S. 
Virgin Islands, obviously, because of their role in hurricane 
relief.
    When I was at the Department of Transportation, I had a 
regional office that actually had responsibility for traffic 
safety in Puerto Rico, and we had a very close relationship on 
that issue. We have not had a regional presence. We do not have 
anybody in the regional office to support the FEMA 
administrator, which I hope to correct in the out years.

            OHA SUPPORT TO THE SECRETARY, FEMA, FDA AND USDA

    It is very important. Our authority, under PKEMRA, said 
that we are to support the Secretary and the FEMA Administrator 
in public health and medical matters. Well, in order to do 
that, we actually, by extension, need to support the regional 
FEMA administrators, and they all have different, very unique 
needs. Since NDMS was pulled out, they have no health people 
advising them on VX nerve gas or anthrax or their kid's ear 
infection. So we would like to do that in the out years, and I 
think that is part and parcel of the requirement that you are 
setting.
    With respect to food safety, that is a huge issue, and Dr. 
Tom McGrinn, who is the head of our Food, Ag. and Veterinary 
Defense Office, I am sure he would love to come brief you on 
what we are doing in that area in coordination with FDA and 
USDA.
    The Secretary made the observation to me, the other day, 
that this is a difficult problem to enforce our way out of, and 
Secretary Leavitt has said the same thing as the head of the 
President's Import Safety Working Group. CBP cannot stop what 
it does not know is coming in, and the solutions to food safety 
have to occur on the other side of the oceans, whether it is 
adulterated chondroitin and pork heparin or whether it is lead 
in toys or if it is bad tires or drugs and devices. This is an 
issue that CBP cannot stop at our border, and there is a lot of 
anxiety about that.
    So we have to have a more systemic, global solution to 
this. It has to involve the private sector. It has to involve 
the food importers and the grocers. When there is a recall, FDA 
has to have the authority to actually enforce a recall, which 
they do not have right now. If you have a VIC card from Harris 
Teeter or a favorite customer card from any grocer, they know 
if you bought Castleberry chile, and yet we do not have the 
institutions in place to be able to contact people to say, ``Do 
not eat that chile. It is contaminated.''
    So we have a long way to go in this area, and it does 
involve the interagency, and it involves authorities for them, 
not necessarily for us. We would love to come talk to you about 
this at great length. It is a vulnerability. The President 
recognized it when he signed HSPD-9, and we have a long way to 
go.
    Mr. Serrano. Well, I appreciate that, and I would like to 
continue our conversation.
    Mr. Chairman, I have discussed this, throughout the years, 
with Mr. Rogers also, and it is the lack of thinking globally 
under the American flag. In other words, we think 50 states, 
and then there are the territories. So it is not just the issue 
of protecting the territories from items coming and people, in 
the case of Homeland Security and the War on Terror, people 
coming into the territories, but then how easy it is for those 
items and those people to just, in the case of people, get on a 
plane in San Juan and be in New York in three hours.
    We do not seem to look at it as one global network. We seem 
to say, we will protect the 50 states, and then maybe we will 
protect the territories. At the expense of being self-serving 
here, if you do not protect the territories, you are not 
protecting yourself because those items and those folks travel 
here freely.
    Mr. Price. I think, if I may interject, the concept is 
deficient, if we are simply looking at this as a kind of 
distributional problem among the states in terms of available 
protection. You are right. The territories are a point of entry 
into this country, and we should be concerned about them but 
also about the ease of transition then.
    Mr. Serrano. Absolutely. When you enter a territory, you 
know you are entering the United States. A study is being done 
now, for instance, of how many people become American citizens, 
never stepping into a state, whereas they applied for that 
citizenship in the territories, and they get it, and they 
become American citizen foreigners. You sometimes wonder just 
how tight do we handle all of this stuff, so this is a concern, 
and I am glad that, at least, we have brought it up, and maybe 
some people will think about it.

                     COORDINATION WITH TERRITORIES

    Dr. Runge. Thank you very much. I would also point out that 
we learned a lot by including Guam in the TOPOFF 4 exercise 
where there was a radiological dispersion device notionally 
detonated there. Our Coast Guard is all over the place, and 
they have a huge presence in the territories because most of 
them are maritime. But we learned a tremendous amount with how 
they respond and what they do, and I think it would be a model 
for future exercises.
    Mr. Serrano. Very briefly, to close, Mr. Chairman, it 
happens at every level. It is not just us. The well-renowned 
Wolf Blitzer was reporting on the primaries in Samoa, and his 
comment was, ``Why are they voting?'' So I called up and said 
something about citizenship and the fact that they are fighting 
in Iraq at this very moment. Thank you.
    Mr. Price. It looks like, on the Democratic side of the 
equation, the Puerto Rican primary might yet be more important 
than anyone assumed. I have been attentive of that because 
North Carolina happens to be in the same category as is 
Kentucky. That is right. You never know.
    Mr. Serrano. They had better listen to this Committee.
    Mr. Price. Well, as we undertake a final round here, Dr. 
Runge, let me ask you one brief question, back on this 
organizational theme and in the pandemic flu area that Mr. 
Rogers raised. Then I would ask you about environmental 
exposure and what kind of responsibility you and the Department 
are taking on for that.
    You know about the GAO report last year that did recommend 
further clarification of leadership roles and responsibilities 
across agencies for pandemic flu. GAO recommended that the 
secretaries of Homeland Security and Health and Human Services 
work together to develop and conduct rigorous testing, 
training, exercises for pandemic flu to ensure that the roles 
are clearly defined.
    Now, the Homeland Security Department agreed with that 
recommendation and stated that its Incident Management Planning 
Teams were addressing the shortfalls identified by GAO. Now, 
these teams are part of the DHS Operations Directorate.
    I would think, as principal medical adviser, you would be 
responsible for this kind of coordination with HHS and other 
DHS components, so I just wonder what explanation you would 
have as to why the Operations Directorate is taking the lead, 
and then I would appreciate any clarification you could offer 
as to your role in this overall strategy.

            INCIDENT MANAGEMENT PLANNING TEAMS COORDINATION

    Dr. Runge. Thank you, Mr. Chairman. We are very, very 
involved with this. We have spent countless hours. Dr. Til 
Jolly, my Assistant Chief Medical Officer for Medical 
Readiness, and his team have worked arm in arm with the Ops 
Coordination folks, the IMPT--the Incident Management Planning 
Team--as part of that, and they developed a plan, an 
operational plan, submitted it to the White House Homeland 
Security Council. There are some unresolved policy issues that 
they are continuing to work on before that plan is actually 
blessed. So we are way into this.
    I would also point out that the planning system at DHS is 
still a bit unsettled right now because of the various levels 
of planning. Under the National Response Framework, Annex 1 
talks about a Strategic Planning Guidance Statement, which is a 
short document that basically says what the desired end-state 
is and who the players are. It is issued by the Secretary of 
Homeland Security.
    Then a strategic plan is done, which basically defines the 
actions to be taken, the ends, ways, and means; the actions to 
be taken, the roles and responsibilities of the various 
departments, agencies, state and local governments, and then 
gaps that need to be addressed.
    From that, FEMA takes and works with the states and locals 
on developing operational planning at the state and local level 
in order to do that. So it is a pyramid, kind of a cascade of 
plans that need to emanate from the Strategic Planning Guidance 
Statement.
    We are finished with the one for anthrax, for instance, 
that needs to be blessed by the appropriate parties. We have a 
draft Strategic Plan for anthrax. That is our number-one deal.
    We, as subject matter experts, believe that we own the 
assurance that these plans get done for the biological 
scenarios and for the ones that really nobody else owns, like 
nerve agents, for instance.
    So we cannot do everything at one time. We have got two 
feds, FTEs that are devoted to this and a couple of hundred 
thousand dollars in contract support for this fiscal year to be 
able to generate these plans.
    We then give them to the Ops Coordination Directorate and 
work closely with them. We pull in subject matter experts from 
the Interagency to make sure that their concerns are addressed 
during the process, so it is quite iterative when this is done.
    We believe that we do own that responsibility to get these 
things out for animal diseases--foot-and-mouth disease is our 
next one. Anthrax, as I said; endemic food-borne illness; and 
plague are the ones that are on our radar screen.
    Mr. Price. So you portray a collaborative process, an 
``iterative process,'' as you call it, but the office in charge 
is the Operations Directorate. Is that right?
    Dr. Runge. Yes. The Director of the Operations Coordination 
Directorate is our representative to the Domestic Readiness 
Group at the White House. That is where the plans are 
delivered. His Incident Management Planning Team is the one 
that actually takes the plan and gets it into the shape, the 
format, for being taken to the White House and blessed by the 
appropriate authorities.
    Mr. Price. All right. Well, it does raise a question, where 
your place in this is or should be, given the fact that the 
subject matter expertise resides in your office. So we need to, 
I would say, monitor that pretty carefully and would appreciate 
any further information you wish to furnish.
    Let me briefly raise an additional issue. You and I have 
discussed this briefly. My thinking about it was stimulated by 
a panel discussion I participated in last year, hosted by the 
International Society of Exposure Analysis, and 
interdisciplinary, interagency group.
    It is worth noting that while we focus on biological and 
chemical attacks, and properly so, that the 9/11 attacks were 
neither biological nor chemical, but they had huge public 
health effects. There were long-term public health effects as a 
result of the toxic cloud of dust that was inhaled by New 
Yorkers, first by the first responders, then by civilians. I 
doubt that the terrorists intended this to be a major impact, 
but that is the way it has turned out.
    Now, the problem in 2001 was that we were not prepared to 
quickly characterize the content of that dust cloud to 
determine its impact on public health and to respond 
accordingly, and, from what I can tell, this has not been an 
area of much progress since then.
    Hurricane Katrina was another example. We were 
insufficiently prepared to quickly characterize and react to 
environmental contaminants that threatened public health.
    Now, GAO has addressed this. They have identified some 
flaws in the characterization or risks following Katrina, and 
they have noted that the three key reports on EPA sampling in 
New Orleans were limited by a lack of timeliness and 
insufficient disclosures about the EPA sampling program.
    So this is an area where several federal agencies have a 
role to play, another one of these challenges to coordination 
and collaboration. EPA would certainly be on the list, NIEHS, 
ATSDR, OSHA. It seems like an area that is ripe for the kind of 
coordination role for which your office was designed, and that 
is why I ask you the question, what role do you think you can 
play in bringing coherence to the federal government's exposure 
characterization preparedness and response efforts?

                   EXPOSURE PREPAREDNESS AND RESPONSE

    Dr. Runge. Mr. Chairman, I did read the executive summary 
of that meeting that occurred. I had to read it a couple of 
times, but I think I got it.
    Exposure science really is a basic underpinning of 
epidemiology. To understand the population effects of anything, 
you have to have an understanding of how people are exposed.
    Dr. Til Jolly has asked for a meeting with those people to 
bring them in and try to better understand how they think the 
federal government should be using this discipline. We will 
engage our Science and Technology Directorate and the folks who 
do this sort of work in the University Centers and others to 
help understand this better.
    This clearly is an issue that is not surprising. Clearly, 
when you are determining how a population is affected of any 
disease, we need to understand the exposure. So whether it is a 
cloud of anthrax spores, or whether it is human-to-human 
transmission of smallpox, it is a basic underpinning. So we 
will talk with them and see how they can contribute to the 
dialogue.
    Mr. Price. Thank you. Mr. Rogers.
    Mr. Rogers. Mr. Chairman, I have nothing further. We could 
go on all day. Some people think we have. You cover such a huge 
spectrum of issues, and it is a challenge to you, and you are 
so dependent upon what other agencies do, not to mention 
individuals, and I know it is frustrating. We appreciate your 
service to the country.
    Dr. Runge. Thank you, sir. I should point out that we 
talked a lot about HHS. As we do this end-to-end plan, and if 
you read the strategy, you will see how dependent we are on 
everybody, whether it is EPA for environmental cleanup, or 
whether it is the IC for overseas biosecurity. Whoever it is, 
there is this interdependence that we have to figure out how to 
make this work, if this homeland security concept is actually 
going to work.
    Mr. Rogers. Well, we have had six years at it. We have not 
figured it out yet?
    Dr. Runge. I think I have got it figured out, but 
implementing it is another matter.
    Mr. Rogers. It is a matter of execution, not policy.
    Dr. Runge. Yes, sir, I think so.
    Mr. Price. Mr. Serrano.
    Mr. Serrano. Mr. Chairman, I have nothing further, now that 
I have put the territories back on the map.
    Mr. Price. You consider that a day's work.
    Mr. Serrano. Yes, sir.
    Mr. Price. Well, with that, we will adjourn, with thanks to 
you, Dr. Runge, for your testimony and for your work.


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                          Thursday, March 13, 2008.

 FEDERAL EMERGENCY MANAGEMENT AGENCY: IS THE AGENCY ON THE RIGHT TRACK?

                               WITNESSES

DAVID PAULISON, DIRECTOR, FEDERAL EMERGENCY MANAGEMENT AGENCY
DAVID MILLER, LEGISLATIVE CHAIR, NATIONAL EMERGENCY MANAGEMENT 
    ASSOCIATION
LARRY J. GISPERT, PRESIDENT, INTERNATIONAL ASSOCIATION OF EMERGENCY 
    MANAGERS
MATT JADACKI, DEPUTY INSPECTOR GENERAL, DEPARTMENT OF HOMELAND SECURITY

                  OPENING STATEMENT OF CHAIRMAN PRICE

    Mr. Price. The Subcommittee will come to order. Good 
morning, everyone. I would like to welcome our witnesses: FEMA 
Administrator David Paulison, back for a second appearance this 
week, along with Mr. Matt Jadacki, DHS Deputy Inspector 
General; David Miller, the Legislative Committee Chairman of 
the National Emergency Management Association; and Larry 
Gispert, the president of the International Association of 
Emergency Managers.
    We are glad to have you here this morning, and we are going 
to focus on the other part of FEMA's portfolio, having 
discussed the grants budget earlier this week. We are now going 
to look at other FEMA programs, including the Disaster Housing 
program and the Flood Insurance program, the implementation of 
the Post-Katrina Reform Act, Gulf Coast recovery, and FEMA 
management challenges.
    However, I am sure that some of our witnesses may want to 
provide their position on grant programs, such as the Emergency 
Management Performance Grants, and we will welcome those 
comments as well.
    The Fiscal Year 2008 appropriation increased FEMA's 
management and operations budget by $175 million, an increase 
of 24 percent. That increase was aimed at strengthening FEMA's 
core competencies, including logistics, financial management, 
operational planning, and service to disaster victims. With 
that funding comes expectations.
    FEMA has made progress in some areas. It still has work to 
do, however, to reassure state and local governments that it is 
a reliable partner when their capabilities are overwhelmed by a 
disaster.
    FEMA must step up its game, and this additional operations 
funding should help the agency do that. We want to hear from 
you about how those funds are being productively used, and we 
will want to know how you are measuring the agency's 
performance in these core areas. We cannot want until a major 
disaster strikes to find out whether FEMA's investments in core 
competencies are paying off.
    FEMA's Fiscal Year 2009 budget seeks an additional $46 
million to modernize the agency's information technology and 
strengthen its disaster workforce. I have no doubt that this 
funding is needed, but, again, I am concerned about how you 
plan to evaluate whether those funds are productively used.
    FEMA must have a strategic vision that is communicated to 
its own personnel and to its many stakeholders. It must have 
clear goals and way of measuring progress toward reaching them.
    At the hearing two days ago, we wanted some method of 
showing how our investment in grant funding is helping to 
prepare state and local governments. We need the same 
information and the same performance-and-evaluation tools for 
FEMA itself.
    Our Subcommittee has tried to push FEMA in this sort of 
planning-and-goal-setting direction in the past by requiring 
reports to the Committee on particular program activities. 
Unfortunately, FEMA has not always been responsive in meeting 
the planning requirements we set.
    FEMA was supposed to deliver a plan to improve its 
workforce to this Committee 11 months ago. Why do not we have 
that?
    There have been improvements in personnel. We know that. 
Last year, you were able to have 95 percent of positions 
filled. However, you have, or will soon have, big holes in 
senior leadership. The chief financial officer is leaving. 
There are already vacancies at the heads of the Offices of 
Acquisition and Information Technology.
    Another example is the Comprehensive Housing Plan that was 
due seven months ago. Where is that plan, and how is it going 
to address the Centers for Disease Control finding of elevated 
levels of formaldehyde in occupied trailers in the Gulf Coast? 
How is it going to address the still-nagging problem of people 
without housing alternatives? We know FEMA is not supposed to 
be in the housing business, but the handoff to HUD and to other 
housing alternatives continues to lag.
    Last year, you said, ``We are actively engaging federal, 
state, and local partners and are establishing a working group 
to develop the strategy.''
    If those steps were taken in April of last year, I am not 
sure why there is still no strategy for FEMA to provide to us.
    Another critical element for FEMA operations that needs 
urgent attention is the agency's financial system, which is one 
of the worst performing in the Department. In the DHS inspector 
general's testimony on financial audits, he concluded that 
conditions at FEMA actually deteriorated in Fiscal Year 2007, 
with FEMA now contributing to six material weaknesses to the 
overall DHS evaluation. This is compared to Fiscal Year 2006, 
when FEMA contributed to only two material witnesses.
    Administrator, I know you are working hard, and I know FEMA 
is working hard, to address the many challenges it faces, but 
without aggressive and proactive planning and evaluation, I am 
not confident that you can be successful. So we want to work 
with you to address these concerns.
    We will begin in just a moment with Mr. Paulison first, 
following by Mr. Gispert, Mr. Miller, and then Mr. Jadacki. In 
the interest of time, we are going to ask all of you to limit 
your oral statements to five minutes. Your prepared testimony 
will be entered into the record, but, that way, we can move on 
to, I hope, a productive discussion.
    Let me, first, yield to Mr. Rogers for any statement that 
he would like to make.

               Opening Statement of Ranking Member Rogers

    Mr. Rogers. Thank you, Mr. Chairman, and welcome, Chief 
Paulison, and our other distinguished guests.
    It was a little over two and a half years ago that FEMA was 
literally on life support. In the wake of Hurricanes Katrina 
and Rita, words like ``broken,'' ``failure,'' 
``dysfunctional,'' ``mismanaged''; those words were used to 
describe what is supposed to be our nation's preeminent 
preparedness and emergency-management agency.
    But now FEMA is in the midst of a major recapitalization in 
terms of both personnel and capabilities. The Congress has 
given you the direction, through the Post-Katrina Emergency 
Management Reform Act. It has also given you the means by way 
of a significant influx of both annual and supplemental 
appropriations.
    Now, it is up to the men and women of FEMA to make this 
resurrection a reality, and we are seeing hints of progress, 
Mr. Chief, evidenced by FEMA's largely positive response to the 
recent southern California wildfires and the tornadoes that 
devastated Arkansas, Tennessee, western Kentucky; positive 
signs for sure but also a sobering reminder that our nation is 
constantly under the threat of natural disasters, as well as 
acts of terrorism, which brings us to today's hearing, which is 
posing the question of whether FEMA is on the right track.
    A fair question perhaps, but a wise man named Will Rogers, 
no kin, once cautioned such an approach when he said, ``Even if 
you are on the right track, you will get run over if you just 
sit there.''
    So, today, Chief Paulison, I find myself asking you a 
question that I asked just two days ago: What is your plan? 
What is your plan for moving forward and turning what you 
described as the ``FEMA Vision'' into real capabilities? What 
is your plan for connecting the millions of dollars' worth of 
infrastructure and information technology improvements, as well 
as hundreds of additional employees, into a more functional 
preparedness and emergency-management organization?
    Difficult questions to answer, of course, but answers that 
should link funding to results, and that is the touchstone of 
this Subcommittee. That is what we are supposed to do.
    Now, I fully recognize, and truly value, the important 
mission of FEMA and its vital role in our homeland security, 
but we could literally throw billions at the FEMA Vision 
Initiative and not necessarily be more prepared.
    So, today, I am interested in understanding your progress 
at rebuilding FEMA and what the enhanced operating capability 
will look like in terms of staffing and capital investments.
    Today, I am interested in understanding how far the 2009 
budget request moves FEMA towards the post-Katrina vision that 
we all supported.
    No one ever said that the rejuvenation of FEMA would be 
easy, but that does not relieve you of the responsibility to 
provide this Subcommittee a plan that clearly demonstrates how 
the funding you are requesting will materialize into real 
improvements for what has been a beleaguered agency.
    We are your partners in this endeavor. We are here to 
support, and I can assure you that no one wants to see you 
succeed more than this Member, as well as the other Members of 
this Subcommittee.
    So, Mr. Chief and all of you, we welcome you here, and we 
look forward to hearing from you. Mr. Chairman, thank you.
    Mr. Price. Thank you. Mr. Paulison, please proceed.

   Statement of R. David Paulison, Administrator, Federal Emergency 
                           Management Agency

    Mr. Paulison. Thank you, Chairman Price and Ranking Member 
Rogers and other Members of the Committee.
    When I was asked to lead FEMA, my mission was very clear: 
Rebuild and strengthen FEMA's ability to plan, prepare, and 
respond to disasters in light of natural and man-made disasters 
that have struck our country. The new leadership at FEMA 
brought in experts to discuss assessments and incorporated 
these lessons learned into a new vision for this agency.
    The President, Secretary Chertoff, and you in Congress 
supported this effort and have provided resources and other 
tools to make these improvements.
    In my first appearance before this Committee, together, and 
I say that, ``together,'' we began repairing the damage to what 
was, quite frankly, a very challenged agency.
    Last year, we implemented our new FEMA with this vision 
initiative, and you, this Committee, and Congress provided the 
tools that we needed to get back on our feet, use lessons 
learned to set a new course, and begin that journey.
    Today, I am here with a budget that will build on our work 
for these last two years and will definitely put FEMA on track 
for a brighter and stronger future. Today, I am here to tell 
you that, with the President's and the Secretary's backing and 
your continued support, we are laying the groundwork for a 
better tomorrow. Our goal is to leave FEMA stronger than we 
found it. It is for this reason that my testimony today is 
entitled ``The Way Forward.''
    Let me take a moment to say something that we do not often 
hear in Washington. I want to say, ``Thank you.'' You have done 
more than just note the challenges facing us. You have provided 
the resources and the tools necessary to overcome these 
challenges. So I want to thank you for your support and in 
working with us jointly to build this new FEMA.
    This is not the FEMA of two years ago, as our responses to 
recent disasters have demonstrated. We have made major changes 
over the year as we have integrated the National Preparedness 
and Grants Program Directorates into the FEMA fold. We have 
added capabilities and strength through our existing 
Preparedness and Assistance program.
    We have built out our capabilities. We have brought in new 
leaders and expanded our professional staff with experienced 
professionals.
    I want to stress that these improvements and reforms are 
only as effective as the men and women at FEMA that we have to 
execute them. Our existing staff provided a firm foundation as 
we expanded. I am very proud of the people at FEMA, both those 
new to the organization and its veterans, for the great work 
they have done in moving this organization forward, and they 
have supported me every step of the way.
    When disaster strikes today, FEMA moves early and often. 
Our response to events ranging from last year's California 
fires to the floods and storms that struck this winter to this 
year's tornadoes across the Mississippi Valley, I think we have 
demonstrated the abilities of this new FEMA.
    In each case, we saw the potential for disaster. We began 
planning and moving even before it struck. When a disaster was 
declared, resources were already there, and FEMA was ready to 
support them.
    The American people, like you, deserve to have high 
expectations of FEMA, and we have to continue this progress.
    We have a way forward that uses tools and resources that 
you have previously provided and those proposed this year so we 
can continue this transformation. We will continue to 
strengthen our nation's abilities.
    This budget adds $25.7 million to strengthen core 
capabilities, planning competencies and capacities, our 
regional operations, our partnerships with states, and our 
National Emergency Management System. We will continue to build 
our capabilities and integrate our efforts with all of our 
partners, public and private, in a holistic approach that will 
strengthen the National Emergency Management System and improve 
this nation's abilities to address disasters, emergencies, and 
even terrorist events.
    This budget includes resources to improve our ability to 
deliver assistance, with additional funding and new staff for 
our Disaster Assistance and Logistics Management Directorates.
    FEMA is focused on providing assistance, both before and 
after events, in an easily accessible, coordinated manner 
through simple and effective delivery mechanisms while also 
minimizing the possibility of waste, fraud, and abuse that we 
saw in the past.
    To be able to accomplish this on the ground, we also need 
to strengthen FEMA as an organization by investing in our 
people, developing a capable, motivated workforce who will 
ensure mission success, and building a culture that rewards 
performance through personal stewardship, innovation, and 
accountability.
    The budget includes added resources for training: $10 
million for basic infrastructure needs that will give us the 
space and equipment we need to expand the workforce to do its 
job. It also includes $20 million to bring FEMA into the 21st 
Century in terms of information technology and financial 
management, as both of you all have pointed out.
    When Congress passed the Post-Katrina Emergency Reform Act, 
together we set a vision for what FEMA could become, but, as 
the author and innovator, Joe Barker said, ``Vision without 
action is merely a dream, action without vision just passes the 
time, and vision with action can change the world.''
    The budget shows that President Bush, Secretary Chertoff, 
and I are committed to this vision with action, and I know, by 
your actions, that you are committed also. I look forward to 
working with you as we make the vision for the new FEMA a 
reality. Thank you very much, and I would be happy to answer 
any questions that you have.
    [The information follows:] 




[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Mr. Price. Thank you. Mr. Gispert.

Statement of Larry J. Gispert, President, International Association of 
                           Emergency Managers

    Mr. Gispert. Good morning. Let me apologize. I usually have 
a very strong speaking voice, but I have got some sinus 
problems, but we will get through it.
    Chairman Price, Ranking Member Rogers, and distinguished 
Members of the Subcommittee, thank you for allowing me the 
opportunity to provide testimony on this critically important 
topic.
    I am Larry Gispert, and I serve Hillsborough County on the 
west coast of Florida as director of emergency management, a 
position I have held for 14 of my 27 years in the career field. 
I have the privilege of serving nearly 1.2 million folks who 
call Hillsborough County and the City of Tampa home. I am 
currently serving as the president of the International 
Association of Emergency Managers.
    I want to express my sincerest gratitude to this 
Subcommittee for your support for increasing the funding for 
the Emergency Management Performance Grant program, the major 
source for building state and local emergency-management 
capabilities, and for your support for reforming the Federal 
Emergency Management Agency.
    We urge you to continue that support by increasing EMPG 
funding to $487 million for Fiscal Year 2009 and maintaining 
its status as a separate account within FEMA.
    We urge you to continue your funding limitation on the 
principal federal official position.
    We strongly support the Emergency Management Institute, 
once the crown jewel of emergency management. A lack of funding 
and a loss of focus on the primary objectives of the Integrated 
Emergency Management System have left EMI adrift, without an 
up-to-date, cohesive, professional, EM curriculum.
    We respectfully request that you establish a separate line 
item for EMI in the FEMA budget and provide $2.2 million 
annually for developing and revising courses.
    The EMI Higher Education Project is an investment in the 
future. This underfunded project has reached over 130 colleges 
and universities. We urge the Committee to provide additional 
funding to this project for two additional positions and, at 
least, an additional $400,000 annually for course development 
and related activities.
    The stated purpose of this hearing is to determine whether 
FEMA is on the right track. We think FEMA wants to be on the 
right track, but it is still not clear that they have the full 
authority to drive the train.
    IAEM wants to see a revitalized FEMA, and we are seeing 
improvements. The leadership is working with us more closely. 
However, we remain concerned about the role of FEMA within DHS, 
whether FEMA truly has been given all of the responsibilities 
for preparedness in managing disaster response, as the law 
requires, and whether DHS has truly bought into the all-hazards 
doctrine, which is so vital to us.
    With these caveats in mind, I think it is possible to say 
that improvements have been made, but many more are needed.
    I would like to extend our appreciation to our colleagues 
at FEMA for increasing the level of involvement and 
communication with IAEM on key initiatives. Documents impacting 
how we plan, exercise, train, respond, and recover should not 
be written without the involvement of state and local 
government emergency managers.
    If you expect us there during the crash landing, please 
make sure we are part of the take-off.
    We urge FEMA to include key stakeholders in an open 
discussion of the Integrated Planning System, IPS, which you 
will hear lots about. While it is being developed, IAEM and 
FEMA share the same goal: To develop the best product, which is 
only possible when state and local emergency managers are 
included.
    The failures manifested during Hurricane Katrina were not 
entirely rooted in the lack of planning. Many would say the 
failure was due to the lack of execution of existing plans.
    IAEM realizes that there are differences in the way we 
approach things, based on our perspectives. DHS and OMB are at 
the 50,000-foot level, and the local governments, down where 
the boots meet the ground. The view is different.
    An example is the EMPG program. The guidance for Fiscal 
Year 2008 appears to be overly restrictive, by requiring 25 
percent be devoted to planning. EMPG is authorized by the 
Stafford Act, and the authorization is broad for a reason: It 
recognizes that one size does not fit all.
    Another troubling element is the explanatory language in 
the president's budget that EMPG is for state and urban areas. 
That is, in fact, not correct and needs to be retracted.
    We are concerned about the national planning scenarios, 
which are narrowly focused, primarily on terrorism. They do not 
reflect the full range of threats to which we are subject. The 
solution to the situation is not to develop more scenarios but 
to use the scenarios properly in the development of a single 
emergency operations plan identifying the functions and 
capabilities common to all emergencies, as well as the roles 
and responsibilities of government.
    Utilizing a multiplan, military-style approach is great if 
you are the military and funded and equipped with the resources 
of the military. State and local governments do not have the 
luxury, nor ever will they.
    Congress made it clear, in the Post-Katrina Reform Act, 
that they wanted a strong FEMA with an administrator with clear 
authority for managing all aspects of disasters and 
emergencies. We believe that parts of this act are not being 
followed and have specific examples in our written testimony.
    We are concerned about the Office of Operations and 
Coordination, which was created after the Post-Katrina Reform 
Act and was signed into law and whether the role that this 
office will perform is consistent with the implementation of 
the act.
    The Post-Katrina Act clearly assigned the FEMA 
administrator responsibility for the National Preparedness 
System.
    Emergency management is the broader, overarching, and 
system-of-systems approach to the issue of dealing with all 
disasters and emergencies, whether natural, technology, or 
homeland security. Incident management is a narrowly focused, 
subelement of response, one of the four phases of emergency 
management.
    To insist otherwise, as DHS is currently doing, shows a 
lack of understanding of the overall Emergency Management 
System.
    In summary, we urge the Committee to increase the EMPG to 
$487 million for Fiscal Year 2009, to insist on the full 
implementation of the Post-Katrina Act, increase support to EMI 
and its Higher Education Project.
    Finally, we would remind our colleagues at DHS and FEMA 
that success is an equal-opportunity vendor. There will be 
enough for reason, as long as we coordinate and cooperate in 
our joint responsibility to our citizens. Thank you.
    [The information follows:]




[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Price. Thank you very much, Mr. Gispert. Mr. Miller, we 
will now turn to you.

   Statement of David Miller, Legislative Chair, National Emergency 
                         Management Association

    Mr. Miller. Thank you, Chairman Price, Ranking Member 
Rogers, and distinguished Members of the Committee. Thank you 
for allowing me the opportunity to appear before you today. In 
my statement, I am representing the National Emergency 
Management Association, whose members are the state emergency 
association directors of the U.S. territories and the District 
of Columbia.
    As we discussed the Department of Homeland Security and the 
role of FEMA, I would like to briefly discuss three issues with 
you today.
    First is the need to address the shortfall and the total 
need for funding of the emergency management programs through 
the Emergency Management Performance Grant.
    Second is the needed federal support of the Emergency 
Management Assistance Compact.
    Third is the need to address significant deficiencies for 
improving state and local emergency operations centers.
    EMPG grants are primarily used to support the emergency-
management activities of state and local governments to include 
planning, training, and exercise activities, as well as 
assisting in covering the costs for equipment and 
administration.
    EMPG is the only DHS FEMA grant dedicated to emergency 
management. Activities achieved under this grant represent the 
backbone of an all-hazards emergency-management system. EMPG 
requires a matching contribution by state and local 
governments. Every federal dollar received must be matched by a 
nonfederal dollar. In fact, a recent survey shows that state 
and local contributions exceed the federal commitment by a 
ratio of 80 percent state and local to a 20-percent federal 
contribution.
    According to the NEMA 2006 Biannual Report, there is a 
significant shortfall in the funding provided to state and 
local governments. The current total need is $487 million. The 
9/11 Implementation Act authorized EMPG at $535 million for 
Fiscal Year 2009.
    In addition, we feel that EMPG must be maintained as a 
separate line item account and not be subsumed into other 
grants. Congress has affirmed this position since 2003. EMPG 
funding must retain its flexibility, and the method of 
distribution should be similar to the language provided in the 
Fiscal Year 2006 appropriation.
    The Emergency Management Assistance Compact, ratified by 
Congress in 1996, continues to be one of the success stories 
for emergency management. This compact, which provides for a 
system of mutual aid between states and territories and has 
proved its worth repeatedly in disasters, including the 
terrorist attacks of September 11th and Hurricanes Katrina and 
Rita, has demonstrated the need and provided the model for a 
unified mutual aid system, intrastate to interstate.
    We continue to examine the lessons learned from our prior 
applications of EMAC and have established a strategic plan to 
put those lessons learned into practice.
    In 2006, under the Post-Katrina Reform Act, Congress 
authorized FEMA to appropriate up to $4 million annually in 
support of EMAC operations and coordination activities. NEMA is 
seeking the reauthorization at $4 million annually to 2009 and 
beyond, and we are seeking an annual $2 million line item for 
building EMAC capabilities and growing our nation's mutual aid 
system.
    During emergencies and disasters, EOCs, Emergency 
Operations Centers, serve as the nerve centers for state, 
local, and, at times, federal coordination. After the 2001 
terrorist attacks, Congress provided some funding to support 
the update of state EOCs.
    In 2008, Congress recognized the continued need for EOC 
improvements and appropriated $15 million towards those 
efforts. While we appreciate these actions, the 2006 NEMA 
Biannual Report estimated that almost $393 million would be 
needed to sufficiently build, retrofit, and upgrade EOC 
facilities. We urge Congress to make a $160 million commitment 
as a separate line item to begin to address this significant 
shortfall.
    In closing, I want to mention two further issues of major 
concern to NEMA. First, NEMA remains concerned about the 
language that is included in the FEMA Reform Bill that allows 
for, but limits the role of, the principal federal official in 
times of emergency or disaster.
    NEMA continues to urge that Congress abolish the position 
and role of the PFO and reaffirm the role of the federal 
coordinating officer, as it is clearly established and defined 
in the Robert T. Stafford Disaster Relief and Emergency Relief 
Act.
    Second, the Predisaster Mitigation Act, as authorized by 
the Disaster Mitigation Act of 2000, is scheduled to sunset on 
September 30, 2008. Mitigation continues to be a vital function 
in the cycle of emergency management, and reauthorization of 
the Predisaster Mitigation Act would help to ensure that 
resources are provided to lessen the effects, impacts, and 
consequences of future disasters.
    We thank Congress and the Members of this Committee for 
their continued commitment to emergency management and for 
supporting our efforts to ensure we are prepared to respond to, 
and recover from, any disaster, regardless of whether caused by 
man or nature. Thank you.
    [The information follows:]




[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Price. Thank you, Mr. Miller. Mr. Jadacki.

 Opening Statement of Mr. Matt Jadacki, Deputy Inspector General, U.S. 
                    Department of Homeland Security

    Mr. Jadacki. Thank you. Good morning, Chairman Price, 
Ranking Member Rogers, and Members of the Subcommittee. Thank 
you for the opportunity to be here today to answer the 
question: Is FEMA on the right track?
    To answer, I will focus my remarks on FEMA's progress to 
prepare for the next catastrophic incident.
    FEMA is in the process of addressing many of the areas 
identified in Katrina reports issued to date and is in various 
stages of implementing the requirements of the Post-Katrina 
Reform Act.
    The work we have conducted shows that FEMA is making some 
progress in preparedness areas. However, since much of the work 
has not been completed, and many statutory deadlines have been 
missed, overall progress is limited.
    There are a number of critical preparedness areas that FEMA 
is currently addressing. By remaining focused on these areas, 
FEMA will be able to improve its overall preparedness posture.
    To begin on a positive note, the development and issuance 
of the National Response Framework is an important milestone, 
but is also important to keep in mind that the framework is 
only a single component in the national preparedness 
architecture, and much more needs to be done, particularly with 
respect to developing operational plans that describe specific 
federal department and agency resources, personnel, and asset 
allocations. It should also be noted that the framework has yet 
to be tested or exercised.
    Communication among those responding to a disaster is an 
essential element of a successful response-and-recovery effort, 
yet it is generally recognized that the inability to 
communicate effectively was one of the major impediments to the 
Hurricane Katrina response efforts.
    The 9/11 Commission had previously identified interoperable 
communications between emergency responders as a major 
challenge. Multiple components within DHA and FEMA are taking 
an active role and responsibility for improving interoperable 
communications.
    That takes us to evacuation planning, which is complex and 
must consider a number of scenarios. Local and state officials 
are in the best position to develop evacuation plans based on 
local demographics. However, it is critical that the federal 
government can coordinate with state and local governments 
because, in a catastrophic event, it is likely that the federal 
government will play a major role in evacuation.
    FEMA is now working with state and local officials to 
identify shortcomings in existing evacuation plans and looking 
to find ways to address those shortcomings prior to a disaster.
    After a presidential disaster declaration, FEMA leads the 
federal response by coordinating federal resources and 
providing houses to those displaced by disaster. One of the 
major criticisms of FEMA after Hurricane Katrina focused on 
FEMA's inability to provide immediate, short-term housing 
assistance to evacuees and then transitioning to more permanent 
forms of housing.
    FEMA is nearing completion of the National Disaster Housing 
Strategy. This long-overdue strategy needs to focus on 
sheltering, interim or permanent housing, as well as addressing 
the needs of the various populations to be served. The strategy 
should not only guide FEMA and other federal agencies during 
disasters but help identify operational gaps and additional 
authorities needed to improve sheltering and housing 
operations. The strategy should be flexible and scalable to 
meet the unique needs of individual disasters.
    FEMA needs to improve communications with state and local 
governments and other agencies with respect to disaster housing 
assistance, as well as to improve program guidance for state 
and local governments. These efforts should improve housing 
coordination but, again, remain untested.
    The need for a trained, effective disaster workforce is one 
issue mentioned consistently in reports regarding FEMA's 
response to Hurricane Katrina. FEMA's disaster workforce 
consists mainly of reservists who serve temporarily during the 
disaster. The shortage of qualified staff for key positions 
responding to Hurricane Katrina negatively impacted the 
effectiveness of FEMA's response-and-recovery operation. FEMA 
is in the process of developing a strategic human capital plan, 
but it is not yet final.
    FEMA uses mission assignments to coordinate the urgent, 
short-term emergency deployment of federal resources to address 
disaster needs. Past audits and reviews have concluded that 
FEMA's management controls were generally not adequate. FEMA 
put into place a working group to try to address these 
shortcomings and has developed a number of prescripted mission 
assignments.
    Acquisition is another important area in disaster response. 
In the wake of Hurricane Katrina, we focused substantial work 
on FEMA acquisitions. FEMA was not well prepared to provide the 
kind of acquisition support needed for a catastrophic disaster. 
FEMA's contract actions went from about $1 billion in Fiscal 
Year 2004 to over $4.6 billion in 2005, the year Katrina 
struck.
    In Fiscal Year 2006, FEMA's contract actions grew to $7 
billion. This growth occurred without a commensurate increase 
in contracting personnel and resources, which increased FEMA's 
vulnerability to waste, fraud, and abuse.
    Post-Katrina, FEMA management has focused on developing the 
acquisition workforce to a level that can better respond to 
another catastrophic disaster. When Hurricane Katrina struck, 
FEMA had 35 contracting staff. There are now 136 contracting 
staff on board. Additionally, the contract-writing system is 
being upgraded. The Emergency Acquisition Field Guide, which 
helps disaster team members follow proper acquisition 
procedures, has been updated, and more than 700 program 
officials have been trained and certified as COTRs.
    FEMA has also developed the Contract Administration Plan, 
which provides guidance for post-award contract execution.
    In conclusion, we are currently working on a more in-depth 
review and evaluation of FEMA's preparedness efforts for 
effective disaster response, particularly for a catastrophic 
event.
    The project stems from a July 31, 2007, hearing before the 
Committee on Oversight and Government Reform. The hearing 
objective was to review FEMA's preparedness to handle a future 
catastrophic event. During that hearing, I testified that the 
new FEMA has made progress in many areas related to disaster 
preparedness but that, generally, FEMA was not prepared for a 
catastrophic disaster.
    The Committee, in turn, requested that we provide a high-
level assessment of FEMA's preparedness for the next 
catastrophic disaster. Our plan is to issue a report in April. 
We hope the report will provide additional insight on what can 
be done.
    In closing, the title of this hearing asks: Is the agency 
on the right track? We believe the answer is yes. However, I 
would like to mention three broad concerns that merit attention 
and the interest of this Committee.
    One is strategic planning. As FEMA engaged in a 
comprehensive planning effort that spans directorates, 
prioritizes needs and actions, and maximizes federal resources, 
does FEMA require more full-time personnel and a larger budget 
so that it can plan, mitigate, and respond all at the same 
time?
    If planners and responders are one and the same, when a 
disaster strikes, and responders are deployed to the field, 
planning is often delayed or stopped.
    The second is sustainability. Can the agency maintain 
momentum and continue to implement the needed changes, 
particularly in light of the budget and personnel challenges?
    And, finally, staffing: In an environment rife with 
turnover, especially in leadership positions, how can FEMA 
retain experienced staff and also recruit and train new staff 
to build a highly qualified disaster-management workforce?
    Mr. Chairman, this concludes my prepared remarks. I would 
be happy to answer any questions that you or Committee Members 
may have.
    [The information follows:]



[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
                            DISASTER HOUSING

    Mr. Price. Thank you very much. Thanks to all of you.
    Chief Paulison, let me begin with the housing issue. There 
has been a great deal of publicity, a great deal of concern, 
over the trailers and the discovery that there were dangerously 
high levels of formaldehyde in those trailers. I know your 
agency has been moving people out of those trailers. Can you 
report on the progress of that?
    But this morning, I want to put that question into a 
broader context of housing and the ability of people to find 
affordable housing in the Gulf area. There was to be a report, 
by July of 2007, on this issue, and we are distressed that that 
report is not available. I want to give you a chance this 
morning to talk orally and to submit for the record whatever 
you have to report about the successful housing transition that 
people have made or the frustrations in finding good housing.
    We asked, last year, for the best figures that you and the 
Gulf Coast coordinator could provide about the before-and-after 
utilization of various HUD programs. We got some partial data 
in that regard, but we need this report. We need to have some 
precision about this and some understanding about what is going 
on in the housing situation in the Gulf Coast.
    So it is not a plan for a plan's sake; it is a plan so that 
we can work with you in monitoring progress and figuring out 
how the slack is going to be taken up here in the available 
housing.
    This is serious. This is costly. We cannot let it linger. 
So I would like to know what you can tell us about the housing 
situation, as you have monitored it, and I know you are not 
solely responsible for this, but you are the one who has been 
left with these trailers and with this dilemma, and also, of 
course, about the timeframe within which we can expect a more 
systematic report.
    Mr. Paulison. Thank you, Mr. Chair. The questions you are 
asking are right on target and very timely.
    It has been a major issue for FEMA. Right after Katrina, as 
Mr. Jadacki reported, we were challenged that we were not 
providing enough housing. We wanted more and more trailers, 
more and more travel trailers, more and more mobile homes, and 
putting them down as quickly as we could.
    Now that we have them down there, and people are in them, 
now we are finding out that some of the trailers and mobile 
homes we bought have high levels of formaldehyde. A lot of them 
do not, but some of them do.
    The answer is to move people out of those as quickly as 
possible, and we are doing that. Eight hundred to nine hundred 
families a week are being moved out into either, first, hotels 
and motels and then available apartments, as we find them. The 
shortage of apartments is primarily a Mississippi issue. We are 
finding more apartments in New Orleans and Louisiana than we 
thought we would find. However, there is still a shortage of 
affordable housing for people who were primarily renters before 
Hurricane Katrina hit. That is the population right now that 
seems to be the most vulnerable.
    One of the reasons for the delay in the housing strategy is 
because things have been changing so rapidly: The transitioning 
of our long-term housing from FEMA, where it does not belong, 
into HUD, where it does belong.
    We have a new governor in Louisiana, and they have got a 
different philosophy of how to work with us, and that is 
starting to work extremely well.
    The fact is that now we have the formaldehyde in travel 
trailers and in some of the mobile homes.
    So we are working with a housing strategy, and we should 
have it out fairly soon. I have got some rough drafts, and we 
sent it back a couple of times because I was not quite happy 
with where we were with it. But it is coming, and we should 
have it to you in a short manner.
    The issues that we are dealing with are beyond FEMA's 
control, and that is affordable housing in areas that have been 
hit by this storm. The Louisiana-New Orleans area and 
Mississippi, where the hurricane went through, there simply is 
not enough affordable housing for the people that need them. It 
is not within FEMA's authority, nor within its budget capacity, 
to build affordable housing. That has to fall somewhere else.
    However, we are not turning our backs on it. We are trying 
to put people into housing as quickly as possible. We are 
paying for it, and we are funding it, but we know that some of 
the units we are putting people in, should FEMA walk away, they 
would not be able to stay where they are; they could not afford 
it. It is a long-term issue that requires a joint housing 
authority that we have put together, working with the state, 
working with the local community, working with HUD, and working 
with other people to try to find a solution that, quite 
frankly, there is not a simple answer for.
    So that is kind of where we are. We are committed and are 
moving very quickly to focus on several areas.
    One, people who have health concerns or are at risk: 
elderly, people very young, or people who have complained about 
effects of formaldehyde in the trailers, or just the fact of 
living in the trailers. Those are being moved out first.
    The second group is the people who are in the group sites. 
Those are the most vulnerable. Those are the ones who, almost 
100 percent, were renters before. They cannot either move back 
into their apartment that they had before because it has not 
been rebuilt, or, in a lot of cases, they have been rebuilt, 
but the monthly cost of that unit has raised so much, they can 
no longer afford it.
    Then, in the third group, is people who were renters but 
are in mobile homes or travel trailers on private property.
    And then the last group is going to be those who literally 
have a travel trailer or mobile home backed up into the 
driveway and are in the process of rebuilding their homes. That 
group is going to be very difficult to move out. They are not 
going to want to move. They are not going to leave their homes.
    So that is the priority we have, and we are on track and 
have a very rapid removal of people out of those trailers, 
again, into hotels and motels first, and then they are there a 
few weeks or so until we can find an apartment for them.
    That is where we are. It is what it is. I think one of the 
things that I have not said too much in the past but, I think, 
needs to be said publicly: We bought travel trailers and mobile 
homes in good faith from manufacturers. A lot of them, 
particularly the mobile homes, were bought right off the lots. 
The mobile home issue is larger than Katrina. There are some 
eight million families living in these across the country, and 
they are not any different than the ones FEMA has purchased.
    So that is another issue that we are going to have to look 
at, again, outside of FEMA's purview, but this whole process of 
having travel trailers, finding a formaldehyde issue, finding 
them in mobile homes is going to be a long-term issue that we 
are going to have to look at as the federal government and as 
the state government.
    I am happy to tell you that we are now testing every mobile 
home. We are no longer using travel trailers. We are testing 
every mobile home before we give it out to states. The last 
group that we just tested for the State of Oregon came in very, 
very low on the formaldehyde level, so that is a good sign.
    So, I think the manufacturers are recognizing that they 
have an issue that they have to deal with also, but they need 
to be partners with us. This is not something that should fall 
in FEMA's lap alone.

  AUTHORITY TO PROVIDE FOR THE REPAIR AND IMPROVEMENT OF MULTIFAMILY 
                           RENTAL PROPERTIES

    Mr. Price. On the issue of the authority which FEMA has, 
there is a provision in the Post-Katrina Reform Act, which 
expires at the end of this calendar year, that does allow you 
to provide for the repair and improvement of multifamily rental 
properties in disaster areas to increase the rental stock. Is 
that an authority that you have utilized?
    Mr. Paulison. No, sir, not yet. We have not done any of the 
rebuilding itself. We feel like that is primarily a HUD issue. 
We are working with them so that, as we transition people out 
of these travel trailers into apartments, then we can 
transition them into a HUD program to provide for rental 
assistance, but we have not done any rebuilding of apartments.
    Mr. Price. That was a grant of authority, though, with a 
purpose. I think we would agree with you that the provision of 
long-term, affordable-housing alternatives is a HUD 
responsibility, but this is not an ordinary situation, and the 
Congress has looked at it and has provided this authority 
temporarily to FEMA. So it is puzzling that you would just 
totally fail to act. I do not think it is just a negative grant 
of authority. There is implied here a positive responsibility.
    Mr. Paulison. It is my understanding that this authority 
was not retroactive but a pilot program to start for future 
disasters. I will look into that, Mr. Chair. If I am wrong with 
that, then we will go back and look at that very carefully.

                         GULF COAST COORDINATION

    Mr. Price. That is not our understanding, so we have----
    Mr. Paulison. Again, that is my understanding now, and I 
will go back and look at that. I am not adamant about it. That 
is just what is my understanding now. I will look at that very 
carefully.
    Mr. Price. Can you be more precise about when we might 
expect this report?
    Mr. Paulison. I am sorry, sir.
    Mr. Price. This report. You said you would get it moved 
along.
    Mr. Paulison. We are working on it very carefully. Again, 
there have been several things, events, that have happened 
along the way that have caused us to go back and relook at that 
report as we are working on it.
    I do not want to tell you two weeks or 30 days because I 
want to make sure we get it right, but it will be coming out 
shortly. I do have it in draft already, and I am making changes 
to it as we move along and as we get new information.
    But it should be out. It should not have been as long as it 
is, but there have been reasons for that, not excuses, but some 
reasons, and we will get that out as quickly as possible.
    Mr. Price. We understand that the report is not just about 
FEMA activity, but it requires some tracking of people and 
families and some accounting of how other agencies have 
performed and where these people have found housing where they 
have transitioned, and to what extent the array of HUD programs 
have been restored to their pre-Katrina levels.
    So it is a cooperative venture, and, along those lines, I 
know you are aware that the Gulf Coast coordinator has 
resigned, and the budget for his office is a mere $291,000 for 
Fiscal Year 2009. I wonder what that request means for the Gulf 
Coast.
    If you will remember, at last year's hearings, we had the 
coordinator in here, and we talked a good deal about the 
challenge of coordinating with your agency and other federal 
agencies. Of course, that was a major part of the coordinator's 
job. How does his departure affect that prospect of 
coordination, and what are the implications for FEMA's future 
role when it comes to such issues as the transition to non-FEMA 
housing?
    Mr. Paulison. Well, losing Gil Jamison is, obviously, a 
loss for all of us. He did an outstanding job there. You are 
talking about----
    Mr. Price. I am sorry. I agree with you that the loss of 
Gil Jamison is to be regretted. He did great work. But I am 
talking about Donald Powell, the Gulf Coast coordinator.
    Mr. Paulison. I am sorry. Yes. Chairman Powell was an asset 
for us while he was down there. He is leaving, and I am 
assuming they will replace him with someone. We have gotten 
some very clear direction. We have a great relationship with 
the governor and with the governor's staff. I do not see his 
leaving as having an impact on us moving forward with what we 
are going to do. His staff is still there. We work with them 
very closely, and I do not see that having a major impact.
    Mr. Price. Well, the office is basically being phased out. 
The office was specifically charged with the kind of 
interagency/interdepartmental coordination that we are talking 
about here. That coordination still appears to be falling far 
short, so it does appear to me, just on the face of it, that 
the obligations falling on you are going to be even greater.
    Mr. Paulison. The dynamics have changed in Louisiana. I had 
a great relationship with Governor Blanco, but there is a new 
staff there, a new philosophy of working together, a new 
philosophy of cooperation, particularly with the parish 
presidents, and we have better cooperation now, better working 
together, and more meetings than we have ever had before.
    I can predict that, in this next year, you are going to see 
a lot more things fall in place faster than you have seen in 
the past, particularly with the project worksheets, 
particularly with some of the appeals processes, and how we can 
make those move much quicker.
    Mr. Price. Well, I want, in the second round, to continue 
on this, particularly looking at the post-disaster mitigation 
and the way that program is interacting with Road Home and 
other efforts, but let me turn now to Mr. Rogers.

                 ROLE OF FEMA AND STATE AND LOCAL ROLES

    Mr. Rogers. I think there is a big misunderstanding amongst 
the public at large about the role of FEMA and the role of 
state, city, and local governments, that Katrina exacerbated. 
Tell us what is the role of--first, when a disaster occurs, 
first what is the role of the city or the county or parish and 
the state versus the federal FEMA relationship. How does that 
work?
    Mr. Paulison. All response is local and my fellow people 
sitting here will tell you that our job, the state's job, and 
the Federal Government's job is to make sure that they have the 
things they need to do their job. The system that we used in 
the past, for the last 30 years, of waiting for a local 
community to become overwhelmed before the state steps in and 
waiting for the state to become overwhelmed before the Federal 
Government steps in does not work. We saw it at its worst 
during Katrina. What we have to do and what we are doing now 
and what FEMA's new philosophy is, the new culture is, is we 
are going in as partners. And if you talk to the state, the 
governors, the state emergency managers that have had disasters 
these past 18 months or two years, they will tell you that FEMA 
is there by their side, oftentimes even before the storm hits. 
And if it is a tornado or--if it is not noticed, then shortly 
thereafter, before they get a declaration.
    We have better visibility of what the needs are going to 
be. We have better communication than we have ever had. Our----
    Mr. Rogers. You misunderstood my question. I want a simple 
explanation of what it is that cities, counties, state, and 
then federal, what is each of their responsibility when a 
disaster occurs? Katrina was different. It overwhelmed 
everybody at the outset. But for the normal disaster----
    Mr. Paulison. The normal disaster, it is the local 
responsibility to handle that disaster. If they become 
overwhelmed, the state is there to supply resources and 
personnel to help them and then the next step is for the 
Federal Government to provide what they need that they do not 
have, whether it is money, whether it is communication's 
equipment, whether it is any type--food, water, those type of 
things. But, it all boils down to the local community managing 
that disaster.
    Mr. Rogers. Then we have the Katrina type of disaster, the 
one that overwhelms the local and state at the outset. How does 
your role differ in that kind of a disaster?
    Mr. Paulison. The role, itself, does not differ. Our level 
of participation does differ. We still do not go in and take 
over. We do not take over a local community and we do not take 
over for the state. We work with them to--again, the needs are 
going to be much, much greater than they were if it is just a 
local disaster. But, if it is a big event, it is going to be 
bringing in the military. It is going to be bringing in some of 
our big contracts that we have, that we will talk about later I 
am sure, ambulance contracts, bus contracts, airframe contracts 
to transport people that they do not have the resources to do. 
But, the roles stay the same and that is why it was so 
important, as Matt Jadacki pointed out, that the response 
framework get out, so that people understand how that fits 
together and how we work together. And my two colleagues can 
correct me, if they do not agree with me, but still it is the 
responsibility of that local government to manage those 
resources and for the state and us to make sure they have what 
they need to do it.
    Mr. Rogers. Well, that is where all the manpower is. The 
local police, the local fire departments, the local first 
responders of all sorts, the state police, the national guard 
that the governors control, all of that massive amount of 
manpower is local. You do not control those people.
    Mr. Paulison. That is correct, sir.
    Mr. Rogers. In fact, you have relatively few people, if you 
want to count it in that regard, do you?
    Mr. Paulison. We have the ability to bring people in to 
assist them through mission assignments, the EMAC system, as 
you heard them talk about, where they get assistance from other 
states. All of that rolls in, but it primarily goes to support 
that local government.

                               LOGISTICS

    Mr. Rogers. Well, perhaps the biggest thing that you can 
add to the help that a community needs is logistics, supplying 
of material, food stuff, and recovery material. In fact, one of 
the areas that FEMA was most criticized out of Katrina was 
logistics management or the lack of it. As reported by the GAO, 
FEMA could not maintain visibility over relief supplies from 
order through delivery. They were unable to accurately 
identify, dispatch, track, and record available critical 
resources.
    But, you have made a lot of headway, I think, in that 
regard. Tell us what is going with I think probably your main 
mission and that is logistics help for a local community.
    Mr. Paulison. I think, first of all, the GAO report was 
right on target and what you just said is accurate, also. We 
have made significant changes in what we are doing with 
logistics. We are bringing logistics into the twenty-first 
century. We have a loaned executive from UPS working with us. 
We work with people at Wal-Mart and others on how they do 
logistics. So, it is a combination of having our own supplies, 
having contracts in place, and having what we call 3PL, third-
party logistics, and also bringing in experts. Eric Smith, we 
stole from the Defense Logistics Agency to run our logistics 
division. I took logistics and raised it from a branch to a 
division where it reports directly to me, to make it more 
important and more visible in the organization, because, Mr. 
Rogers, what you are saying is right on target. That is a big 
key on how FEMA is going to be perceived to perform by the 
locals and by the states and how it actually performs. Are we 
going to have a modern logistics system that operates in a 
business-like manner? That is what we are doing.
    Mr. Rogers. Well, you have partnered with the Defense 
Logistics Agency. What is that?
    Mr. Paulison. We do partner with them to----
    Mr. Rogers. What is that?
    Mr. Paulison. Defense Logistics Agency is the agency that 
does all logistics for the military and they are the experts in 
the world on moving stuff from here to there.
    Mr. Rogers. So, you have formed a partnership with DLA?
    Mr. Paulison. Yes, sir.
    Mr. Rogers. Defense Department. You created a logistics 
directorate. What is that?
    Mr. Paulison. The logistics was inside of operations, 
buried down in the organization. I created an entire division 
that reports directly to me, to raise the visibility of that in 
the organization and raise the importance of it in the 
organization. I turned around and hired one of the top experts 
in the country to come in to run it and he, in turn, is 
bringing in experts from around the country to run it, not only 
here, but also out in the regions, to make sure that we have a 
professional organization that is filled with people, who have 
years of experience of dealing with logistics in a modern 
society.

                DEPARTMENT OF TRANSPORTATION PARTNERSHIP

    Mr. Rogers. In your work, you apparently have partnered 
with the Department of Transportation to improve emergency 
transportation services and evacuations. Tell us about that.
    Mr. Paulison. There are several mission assignment 
capabilities we have and prescripted missions assignments with 
the Department of Transportation, with the military, to provide 
airframe service, ground transportation, and we have all of 
those contracts in place ahead of time, instead of waiting for 
a disaster to happen and then trying to put them in place, 
where we end up with contracts like we had with Katrina, where 
it was not well thought out. We did not have time to sit down 
and negotiate with them. You just paid whatever they asked, and 
we saw what came out of that. So, FEMA has those prescripted 
mission assignments with, I think, 27 different federal 
agencies. FEMA had, I think, four or five prescripted mission 
assignments. We now have over 100 with all these different 
private and public and federal agencies to provide those types 
of services that you are talking about.
    Mr. Rogers. Well, now, you have had several disasters since 
Katrina, of course. Have you utilized these new procedures and 
partnerships that you formed, have you utilized those in any of 
these disasters since then?
    Mr. Paulison. Yes, sir, almost every one of them. The one 
we probably used it for the most was when hurricane Dean, a 
category five storm, was predicted to come into Texas. There is 
a group of people along the Texas border called colonists, and 
pretty much they are squatters--Mr. Carter knows what they 
are--it is 400,000 of them along the border and there was a 
potential to have to evacuate 150,000. We used those 
prescripted mission assignments prior to a presidential 
declaration to amass hundreds of buses, hundreds of ambulances, 
six urban search and rescue teams, supplies. We set up the 
military with airframe to help transport these people and 
people with medical needs, like nursing homes. All those were 
in place prior to the storm hitting. Now, lucky for us, the 
storm turned and went into Mexico. But, those things were in 
place and all of those prescripted mission assignments that you 
just mentioned allowed us to do that. We did not have the 
capability of doing that prior to Katrina.
    Mr. Rogers. Now, you maintain that states and localities 
are responsible for being relatively self-sufficient for the 
first 72 hours after an onset of a disaster. Is that accurate? 
Is that correct?
    Mr. Paulison. Yes, sir, that is correct.

                           LOGISTICS SUPPLIES

    Mr. Rogers. Now, do you stockpile supplies or do you make 
arrangements for them to be supplied by contract?
    Mr. Paulison. We do both. We have logistic supplies around 
the country strategically located. We, also, have contracts in 
place with people like the Defense Logistics Agency, which has 
three million MREs they hold for us and other companies across, 
private and public, to provide the supplies. So, we do both. We 
can either use our supplies, if they are close, or we can use 
somebody else's.
    Mr. Rogers. So, you have emergency supplies stockpiled 
today?
    Mr. Paulison. Yes, sir.
    Mr. Rogers. In places where you anticipate disasters?
    Mr. Paulison. That is correct.
    Mr. Rogers. Like where?
    Mr. Paulison. We have them in Texas. We have them in New 
York. We have them in California. I think there are probably 15 
supply depots around here. How many?
    Male Voice. Sir, we have eight total.
    Mr. Paulison. Eight total, I am sorry, eight total around 
the country.
    Mr. Rogers. And those are stockpiled right now?
    Mr. Paulison. Yes, sir.
    Mr. Rogers. They are ready to be delivered immediately?
    Mr. Paulison. Yes, sir.
    Mr. Rogers. Now what should local communities do for this 
72 hours that you are saying to them, you are on your own until 
we can get there? What should they be stockpiling or doing in 
preparation?
    Mr. Paulison. They should have enough items in place--there 
are two things and I am sorry that I answer longer--sometimes I 
give you a longer answer than you want. One is make sure that 
the public takes personal responsibility for having--be able to 
take care of themselves and their family for three days and 
they should have supplies, also, in place, in case we cannot 
get there if something happens. But what we have done in these 
last two years is changed the philosophy of how FEMA is going 
to respond. We are moving in quickly and it has been very 
subtle and it has been 72 hours. In several instances, we have 
moved supplies and equipment and people into the state prior to 
presidential declaration. We started moving them early. So when 
the governor asks for those supplies, most of the time in the 
last 18 months, particularly, they have been there waiting for 
them. We did that in Kansas City, with Greensburg, Kansas. We 
did it in the California wildfires. We did it in Texas. We just 
did it recently with the tornados we had in the Gulf Coast. 
But, it is the locals and the states that both need to take 
care--have supplies in place to take care of themselves for a 
few days, in case we cannot move quickly.
    Mr. Rogers. So, they need to stockpile meals ready to eat, 
water, basic medical supplies for themselves?
    Mr. Paulison. That would be my recommendation, yes, sir.
    Mr. Rogers. But, now, I understand that your regulations 
prohibit states and municipalities from allocating federal 
Homeland Security grant monies to procure those stockpile 
provisions. Is that correct?
    Mr. Paulison. Yes, sir.
    Mr. Rogers. How come?
    Mr. Paulison. That is just the way the regulation is 
written.
    Mr. Rogers. Yes, I understand that. But why are they 
written that way?
    Mr. Paulison. I do not have an answer for you right now, 
sir.
    Mr. Rogers. Well, we are looking for an answer.
    Mr. Paulison. Yes, sir. I will get you one.
    Mr. Rogers. You are the man.
    Mr. Paulison. I know.
    Mr. Rogers. Well, we need to know why we are balancing that 
72-hour critical period of time against when you can get there 
and why they cannot use the grant monies they receive to buy 
supplies to stockpile for that emergency.
    Mr. Paulison. My grant manager just told me that the way 
the grants are written is those grants are for protection and 
prevention, not for response and recovery.
    Mr. Rogers. Well, that is something we need to look at.
    Mr. Paulison. Yes, sir.
    Mr. Rogers. Thank you. Mrs. Lowey.

                             FEMA PROGRESS

    Mrs. Lowey. Thank you, Mr. Chairman, and thank you again 
for your presentation. And before I get to my questions, I want 
to give my answer from Westchester community to the topic of 
the hearing. Last April, my district was devastated by 
widespread flooding following a nor'easter, and Director 
Paulison toured the affected area with Senator Clinton and 
myself and a disaster declaration was issued. So, while this is 
an example of successful response, I do agree that there are 
problems that do remain. However, my view is the view of the 
first responders in my district, is that while there is much 
that remains to be accomplished, FEMA certainly is in better 
shape today than it was on Director Paulison's first day of the 
job and I, personally, want to thank you.

         INTERIM FINAL RULE MODIFYING ADMINISTRATIVE ALLOWANCE

    I do want to bring an important issue to our attention. In 
November, FEMA published an interim final rule, which modified 
the distribution of the administrative allowance. John Gibb, 
the director of New York State Emergency Management Office 
estimates that this would cost New York six million dollars in 
state management administrative costs per disaster declaration. 
Last year, there were four presidentially declared disasters in 
New York, meaning that the change could cost the state 24 
million dollars each year, and this is happening at the same 
time that FEMA is proposing to cut the emergency management 
performance grant by 100 million dollars. I think we all agree 
that we want as many dollars as possible to go to the recovery 
programs. But, it is crucial that states have the ability to 
properly manage the funds and further limitation would 
eliminate management staff, leave the state, local governments, 
and non-for-profits without the necessary support to manage the 
disaster declaration requirements and responsibilities. So, I 
am recommending that our subcommittee examine this issue and 
consider taking action.
    Director Paulison, could you tell me why FEMA published the 
interim final rule, given that this idea was proposed in 2002 
and then withdrawn after it was widely criticized at the time? 
And, Mr. Miller or Mr. Gispert, will the rule have a harmful 
effect on the ability of state and local governments to respond 
to disasters? Mr. Paulison.
    Mr. Paulison. I will give you the short answer. We feel 
like the rule is going to cover the management costs that are 
needed. We feel like the dollars would be the same. However, 
the rule is out for review and we are open to comments from 
state and local governments on how this would have an impact on 
them. Craig Fugate, the state emergency manager for Florida, 
headed up that committee and we heard him say very clearly that 
state emergency management, you have to tell us and show us if 
this is going to cost you money, so we can submit comments. So, 
we are--it is out for comment. We are waiting for those 
comments to come in. I think they had 90 days. I am not sure 
where we are in that process right now. But, we are open to 
that.
    Mrs. Lowey. I appreciate that you are open and after Mr. 
Miller and Mr. Gispert comment, I am just curious after all the 
criticism why you did it again. Is there additional information 
that proves otherwise?
    Mr. Paulison. Again, we feel like the interim rule we put 
out is fair. It gives certain percentages for management costs. 
It is right around three-and-a-half percent. There are a couple 
of different variables in there. And for the public assistance, 
it is over four percent. We feel like that is enough of a 
percentage to cover the cost of managing the disasters. Again, 
it is open for comment.
    Mrs. Lowey. Mr. Miller. Thank you.
    Mr. Miller. Thank you, ma'am. When we discussed this as 
NEMA, I think a couple of things have come to bear. We felt 
that the rulemaking process was stale. There was an action a 
number of years ago when the rule first came out to interact 
with NEMA and members of NEMA and I sat on one of those 
committees to study what management cost should be, to try to 
collect the data about how disasters were managed and submit 
that and share that information with FEMA and establish an 
adequate rate. Many of us feel that the current rate is not 
adequate to manage disasters. It will impair our ability to do 
so. We felt that even that data that we gathered a number of 
years ago has become stale in the new environment of FEMA. It 
is something that we want to re-engage and we encourage the 
rescinding of the current rule and, frankly, going through a 
new rulemaking process that allows us to gather the data and 
information to support a firm decision on what true management 
cost should be.
    Mrs. Lowey. Thank you. Mr. Gispert.
    Mr. Gispert. We stand in support with our friends at the 
state. It does cost money to manage these things. It is hard to 
put an exact costing on it. We are often putting local monies 
up against in salaries and time spent. We want a fair return 
for the fact that it took us time, effort, and manpower to 
manage the disasters and the disaster funds. And we, also, 
support that wipe the rule out, redo it, and let us see what it 
actually costs and then put it into effect and get the actual 
transactions going.

                EMERGENCY MANAGEMENT PERFORMANCE GRANTS

    Mrs. Lowey. Mr. Miller and Mr. Gispert both mentioned 
problems with the fiscal year 2008 EMPG grant guidance and the 
statements, particularly the requirement that 25 percent of an 
award must be used for planning purposes. I understand the 
importance of having thorough plans, but in many areas, these 
plans already exist. And I recently sent a survey to first 
responder chiefs in my district, nearly all responded that they 
felt confident that the department, municipality, county, and 
state had good plans in place, but the vast majority said that 
they needed additional resources to exercise those plans. So, I 
support the ability of the department to focus on certain 
priorities, but local emergency managers are the only ones who 
know their needs. So, Director Paulison, why is the planning 
requirement in the fiscal year 2008 EMPG guidance?
    Mr. Paulison. When we did our GAP analysis of the hurricane 
prone states last year, it became apparent that--and we are now 
in the process of putting this across the rest of the states--
it became apparent that there is a significant lack of planning 
across this country. So, we put that guidance in there, because 
people kept saying they did not have the money for planning. 
So, now we have made it available to them.
    However, this is a state-wide requirement. If there is a 
particular community that has a good set of plans in place, 
they do not have to spend that 25 percent, as long as it is 
spent 25 percent state-wide. And we are giving the regional 
director, who approves this planning process, a lot of leeway 
in determining what is actually planning. So, we are trying to 
keep it as flexible as possible, but at the same time making it 
very clear that one of our priorities is making sure the state 
and local communities have rock solid plans in place.
    The GAP analysis we are using came out of New York for Joe 
Bruno, working with him to put this GAP analysis system in 
place. And it raised a lot of issues, as we went from state to 
state, to talk about do you have evacuation plans in place, do 
you have shelter plans in place, what are you going to do with 
pets, where are you going to house people if you lose a lot of 
housing, what about the food supplies, what are you going to do 
with people in nursing homes? So, there is a lot of things out 
there that people do not necessarily think about unless they 
literally sit down and do a very thorough planning process with 
the guidelines that we are giving them. So, that is why we did 
that.
    Mrs. Lowey. Mr. Miller. Mr. Gispert.
    Mr. Price. Just very quickly. The time for----
    Mrs. Lowey. Oh, okay.
    Mr. Price [continuing]. The gentlewoman has expired. But, 
please respond quickly.
    Mr. Gispert. Congresswoman Lowey, we do planning at the 
local level all the time. What the chief was talking about, 
primarily, we are focusing in on catastrophic planning. When 
they were talking about evacuation, they were talking about 
evacuating the entire citizens of an entire county. We kept 
coming back to them and saying we do not contemplate ever 
having to do that. In other words, my county is 1.2 million 
people. Unless I know that there is going to be a comet that is 
going to hit Tampa Bay, I am not ever going to evacuate totally 
1.2 million people.
    The reason that we balked at the 25 percent was the EMPG 
works because the original guidance from the framework was very 
broad. It gave you some very broad categories. Use this money 
and this will increase the capacity. We like to keep that 
guidance as broad as possible. But by the way, every year we 
get EMPG, we do not get it for free. Our state partners come 
down and say here is a scope of work. You will do this item, 
this item, this item, that item for the grant monies and there 
is always planning issues in there. Special needs may be one. 
Pet evacuation may be the other. So, we are doing the planning. 
We just do not want it wired into a certain percentage, because 
it takes away the flexibility.
    Mr. Miller. We concur with Larry. The issue is frankly not 
always the 25 percent. As Larry said, many of us are engaged in 
planning on a daily basis. We see it as a process. It is 
something that we continue to invest in. It is something we 
emphasize to local governments and work with our state partners 
on. The question is one about the flexibility of the use of 
limited funds. And what we feel is that begins to stovepipe 
those funds and disallow states and local governments the 
flexibility they need to target those resources on what their 
highest priorities are.
    Mr. Price. Thank you. Mr. Carter.
    Mr. Carter. Thank you, Mr. Chairman, and I think they just 
called a vote, so I will move as fast as I can.
    Mr. Price. I believe with reasonable restraint, we can get 
you and the vote both in.

                         FEMA STAFFING TURNOVER

    Mr. Carter. Well, I heard something that bothered me and I 
would like to know from Mr. Jadacki, when you mentioned 
staffing, you said in a turnover rife environment. I would like 
to know what that turnover rife environment is and why it is a 
turnover rife environment. The CFO is leaving. I am reading an 
article about multiple people leaving, Tina Burnett, the Office 
of Management and Acquisition, Tony Cira, Deidre Lee. And as we 
have heard testimony from this department, it just seems like 
the door opens, one walks in, and then before you know it they 
are slamming the door and walking out. What is the turnover 
rife environment and why is it--or, in your opinion, how is it 
created?
    Mr. Jadacki. Well, I think it is a couple of things. One is 
that the number of senior folks in FEMA are starting to age 
now, so there is a natural attrition because of retirement and 
better opportunities on the outside. But what is troubling is 
the fact that we have seen a number of people either announcing 
or leaving in the last couple of months in senior level 
positions. And I continue to harp on the fact that you have all 
of these great plans, you have these programmatic reviews and 
all that stuff, but the behind-the-scenes people are people 
that have to do the work. They have to get the acquisitions in 
place. They have to do the accounting, the financial 
management, those types of things, human resources. Those are 
the types of people that hold--they are the glue that holds the 
whole organization together.
    So, when I see a lot of those folks leaving, in some cases, 
over a short period of time, it does become problematic. So, 
there are a number of reasons like that. It is a very difficult 
environment. I have worked for a number of years at FEMA, both 
on the Inspector General side and for a stint at the Chief 
Financial Officer side. It is a very difficult environment. 
Overall, I find the people that work there are very dedicated 
and loyal and they know the work real well. But, on the other 
hand, it is a very troubling environment sometimes, especially 
when there are major disasters and a lot of uncertainties, 
reorganizations, and those types of things that have been going 
on over the past couple of years since Katrina.
    Mr. Paulison. Mr. Carter, we have no senior career people 
positions that are open. They are all filled. And, in fact, we 
just had a Region VIII director leave, which is a political, 
and even with only nine months left, I was able to fill that 
with a rock solid person, or it is in the process of being 
filled. We have not announced it yet. So, we do have people 
that are retiring. I cannot stop them from doing that and I 
cannot stop people from taking much more lucrative jobs 
sometimes, like Tony Cira, who was highly sought after in the 
private sector, moving to California. I think he went to work 
for Lockheed. But, I cannot stop that from happening. But what 
I can tell you is all of our senior career positions are filled 
and as soon as people left, I filled them right away. We have 
more people in FEMA than we have ever had in the history of the 
organization. We reached like--as Mr. Price said, we reached 
almost 97 percent of our fill rate and now that we have new 
positions, I feel like I have proven I can fill those 
positions. And this committee had enough faith in me to give 
them to me and we will get them filled.
    Mr. Carter. And I agree with you, you have filled the 
positions. But, you will agree with me that as we have sat in 
these hearings, we have heard just about a whole lot of people 
that are leaving FEMA all the time. And I was wondering if 
there is something that we are doing or somebody else is doing 
that is creating such a stressful environment that someone like 
Deidre would come in, in 2006, and be gone in 2008, come in 
highly touted. And I do not know the lady from the backside of 
the moon. But, I am just saying that is what they reported in 
this article, that she was hard to replace, but yet she came in 
2006, left in 2008. We used to draft people in the army for 
longer than that. So, it kind of makes you concerned about 
whether the operations--there is something we are creating in 
that environment. And if there is, we need to fix it. That was 
my only issue.
    Mr. Paulison. And I do not think so. I know Mr. Price is 
ready to go, but I see--the morale inside my staff is very 
high. We work hard, put in long hours, and Deidre Lee was 
putting in a lot of long hours and she was eligible for 
retirement and she took that.
    Mr. Carter. Well, you have a tough job. Thank you, Mr. 
Chairman.
    Mr. Price. Thank you. Ms. Roybal-Allard.

                              FORMALDEHYDE

    Ms. Roybal-Allard. Mr. Paulison, I would like to go back to 
the formaldehyde trailer crisis. On February 14, two-and-a-half 
years after the first trailer occupants began reporting 
breathing difficulties, headaches, nosebleeds, and almost two 
years after the Sierra Club began warning about formaldehyde 
levels in trailers, you issued this statement, ``I think we 
have moved very quickly based on what we knew. We did the best 
we could do with the information we had.'' Given the 
seriousness of the problem, why did it take two-and-a-half 
years from the first report to address this public health 
problem? In other words, what were the obstacles that you faced 
that made a two-and-a-half year delay ``the best that you could 
do''?
    Mr. Paulison. I do not think we made it two-and-a-half 
years to do anything. But, there were several obstacles in 
place and, I mean, I am glad you asked that question. One, we 
were getting trickling reports in. Again, if you look at things 
in the rearview mirror, there is a pattern there, there is no 
question about it. But, at the time, just getting trickling 
reports in of people complaining about certain things, we did 
not recognize we had a major problem. If you look back now, 
obviously, it is very clear.
    But just getting someone to tell me what is a safe level, 
is it zero or is it one part per million, you know, we still do 
not have a standard for that. I am testing trailers or mobile 
homes now, new ones that we are going to put in place, and all 
I can do is tell the state what the levels are. There is no 
standard out there that I can tell that state that this is 
guaranteed a safe mobile for you to move in. Now, they did test 
very low, much lower than we actually thought they were going 
to test. So, I am comfortable that they are.
    But, scientifically, I cannot do that. We brought in CDC. 
We brought in HUD. We brought in everyone we could think of to 
help us with this issue. We immediately started moving people 
out. We have been very aggressive with that, regardless of what 
the tests were. Even before we had CDC testing, my goal was to 
get people out of those group sites. Nobody in their wildest 
imagination thought that people were going to be in these 
travel trailers as long as they have been there. Those are not 
good places to stay for a long period of time. We know that. 
The people living there know that. I have been in them with 
them. So, we have been moving very aggressively to get those 
people out of there. So, regardless of whether we have 
formaldehyde or not, we have been moving to do that. So, we 
have not stopped trying to get people into some better housing 
than what we have been providing to them.

           DEPARTMENT OF HOMELAND SECURITY AND PUBLIC HEALTH

    Ms. Roybal-Allard. Let me ask, is this, in part, a problem 
that you are facing because FEMA--does not have a public health 
focus, that it is more constrained now since it has been placed 
under Homeland Security? Because, I understand what you are 
saying, but at least based on the reports that I have seen, 
that it took a federal judge to order FEMA to have CDC to do 
this testing. It was not something that you responded to on 
your own. I am not trying to put you on the spot on this, I am 
simply trying to understand if having FEMA under Homeland 
Security `which has a different focus' has taken the focus away 
from responding to the health issues that are raised many times 
by disasters and is that something that we, as a committee, 
have to look at?
    Mr. Paulison. And I do not think so. I know we get a lot of 
questions about being inside of Homeland Security. But the fact 
that Homeland Security does have a health office now, with Dr. 
Runge, has helped me tremendously and one with his contacts in 
the CDC and knowing the people there, that has really been an 
assist for me, to be able to understand the whole formaldehyde 
issue, what is it, what are the causes. I mean----
    Ms. Roybal-Allard. But why did it take a federal judge, 
then, to order FEMA----
    Mr. Paulison. We were not waiting for a federal judge to do 
testing. We were waiting--what we were doing was setting up 
what are we going to test to. I mean, what does a test mean 
once we get it and that is why we brought in CDC to do that. We 
did not need a federal judge to tell us to do that. He may have 
preempted us, but----
    Ms. Roybal-Allard. My understanding of the testing that you 
did make initially was on unoccupied trailers, trailers that 
had been aired for some time. The testing was not done on 
trailers that had an environment where people were living. 
That, in itself, is questionable and the logical thing would 
have been to immediately ask CDC, which has that 
responsibility, to do the testing. So, it is concerning that 
CDC did not come into play until a federal judge actually 
ordered you to have them do the test.
    Mr. Paulison. And, again, I am not aware of any federal 
order for us to do the testing that we did. I do not think we 
are under any order to do testing.
    Ms. Roybal-Allard. That was in the report and I would be 
happy to get any information that you have.
    Mr. Paulison. And even CDC testified at a meeting a week 
before last that they should have moved much more quickly. They 
did not understand the issue either and they had a lot of other 
things on their plate. Again, in hindsight, this is--yes, 
maybe--no maybe, we could have, should have moved much faster 
than what we did.
    Ms. Roybal-Allard. Like I said, I am not trying to put you 
on the spot. I am just trying to identify----
    Mr. Paulison. I know you are not.
    Ms. Roybal-Allard [continuing]. Where the breakdown was, 
whether FEMA, CDC, so that we can fix it, so that we do not put 
people in danger. That is all I am trying to find out, where 
was the breakdown and what needs to be fixed, so this does not 
happen again.
    Mr. Paulison. I think the--and, again, I am not sure--I 
think we just did not recognize early on that we had a wide 
scale problem. You know, we had onesies and twosies and things 
like that and when people complained, we moved them out. We are 
not recognizing we had such a huge issue as we did. And even 
when CDC tested the first 500 hundred trailers last month, most 
of them came in fairly low. It was only a handful that came in 
high. But, regardless of that, we are not making any 
distinctions. We are moving everybody out as quickly as 
possible. And I am not being defensive. I know you are not 
putting me on the spot. There are issues that we--I think this 
whole process with the formaldehyde is going to create 
something we have not had in this country before and that is a 
standard air quality standard in our homes, that we have to 
go--because we simply have not had that before.
    Mr. Price. I am going to have to call a recess because of 
the votes on the floor. We will return as quickly as we can.
    [Whereupon, a brief recess was taken.]
    Mr. Price. Subcommittee will resume. We apologize for the 
disruption, but Mr. Rogers and I will have a final round of 
questions. Mr. Paulison and all of you, thank you for your 
indulgence.

                        POST-DISASTER MITIGATION

    Mr. Paulison, I want to turn to you again and, as promised, 
raise the issue of post-disaster mitigation. This is a program 
of FEMA that I have had a good deal of personal experience with 
in my home state and it is one that I believe is very sound and 
one that needs to be applied and not be folded into other 
programs, but that it be implemented in a way that it was 
intended. That is not to say it has worked very well on the 
Gulf Coast, although I hope there is some progress to report 
today. In the fiscal 2008 House report, we noted that FEMA had 
only obligated 42 million of the 1.9 billion dollars available 
to the states of Louisiana and Mississippi for post-disaster 
mitigation. I wonder what kind of progress you have made since 
then.
    We did require another report on this and the report was 
due 30 days after the enactment of the omnibus bill. And so 
there, too, we are wondering when that information will be 
available. It should not be a very complicated report. We did 
ask for a couple of things, though. We asked for an update on 
the obligation of these funds. But, we, also, asked for your 
candid assessment of why this had been an apparently difficult 
program to implement in the post-Katrina environment. Plus, it 
has been underutilized. I do not think we can dispute that. 
And, yet, this is critical assistance. This is very sound, I 
think, to give communities after a disaster a strong incentive 
to build back in a more sensible way.
    It, also, is a program that covers neighborhoods. It covers 
whole areas. So, it gives assurance to individuals that they 
are not just on their own out there. But, if they are thinking 
of buying or renovating or repairing a home, it gives them some 
assurance that the surrounding neighborhood will be restored.
    So, we did ask you for this report. I wonder what you have 
to offer us today. But, we do look for a more formal report and 
would like to know when that will be coming. I want to ask you, 
though, how much has been obligated to date. I want to know 
what you have to say about the integration of the Hazard 
Mitigation program, the post-disaster mitigation program, with 
the Road Home program in Louisiana. Some suggested at certain 
points that we just throw all the money in one pot. We resisted 
that, as you know, because we thought that the kind of 
standards to which dwellings would be built, the kind of 
planning that post-disaster mitigation encourages, that that 
was something that should not be sacrificed. But, clearly, 
there has been some confusion and efforts should be 
complementary have not always been that way. So, I would like 
your evaluation of that. And then I do understand you have 
changed policies to some degree, to allow payment for 
mitigation activities already begun by homeowners. So, I would 
like to have you comment on that, as well, and where that 
partly accounts for whatever progress you have made in 
obligating these funds.
    Mr. Paulison. Thank you. I was not aware we were behind in 
that report. So, I will follow-up on that as soon as I get back 
to the office today, make sure you get that. It should not be a 
difficult report to give you those numbers and I will make sure 
you get those.
    Mr. Price. We are, however, looking for the kind of 
assessment that I mentioned, as well as the numbers.
    Mr. Paulison. Yes, sir.
    Mr. Price. But, I still think it should be fairly 
straightforward.
    Mr. Paulison. It should be, that is correct, yes, sir. 
Tying the post-disaster hazard mitigation funds to the Road 
Home program created some obstacles for us, as far as getting 
those monies out the door. We were very firm in supporting what 
you just said, what those dollars are to be used for. And with 
the initial proposal with the Road Home program, we did not 
have assurances that that was going to happen. The new 
governor, my understanding, after having a conversation with 
him, says that they are going to separate those back out. We 
expect those dollars to start flowing much more rapidly now 
than we have seen in the past. And I do not have those numbers 
in front of me. We will get those to you very quickly.
    So, we feel like this is going to move much smoother. It is 
going to be much more quickly. There was a different philosophy 
between the two governors on the things that they wanted to put 
in place, as far as accountability. The new governor still 
holds people accountable, but they are not holding things up, 
as much as it was in the past. So, we think we are going to 
move much faster, much smoother. We are excited about the new 
philosophy. We think this is going to work. Again, get those 
dollars out the door. And I will get those numbers to you. I 
just do not have them in front of me, sir.
    [The information follows:]

    Specific funding numbers relating to post-disaster hazard 
mitigation funds and the Road Home program, including how the funds are 
``flowing'' i.e. disbursed:
    The total amount of HMGP funds available to the State of Louisiana 
as a result of Hurricane Katrina and Rita is $1.47 billion. As of April 
1, 2008 FEMA had obligated approximately $104 million in federal funds 
(DR1603--$68,547,308, DR1607--$35,273,366). The current deadline for 
the State to submit applications for all HMGP funds is September 1, 
2008.
    In October of 2007, FEMA approved the State's initial application 
to use HMGP funds to elevate residential structures as a complement to 
the State's Road Home program. Since that time FEMA and the State have 
been working closely together to develop a streamlined and efficient 
process to implement this project. Although the State is re-evaluating 
the budget for this project, currently $1.1 billion in HMGP funds is 
set aside for this purpose. FEMA anticipates significant progress in 
the coming weeks.

    Mr. Price. All right. We do want to track this carefully--
--
    Mr. Paulison. Yes, sir.
    Mr. Price [continuing]. Because it is a program we believe 
in and one that we think has a great deal to offer still to the 
Gulf Coast area and one that has been seriously, seriously 
underutilized.

                       PRE-POSITIONING EQUIPMENT

    Mr. Paulison. We are on the same page with you. These are 
important dollars that can have a significant impact on the 
future of that whole community.
    Mr. Price. Now, let me move ahead to the question of how 
FEMA leans forward before disasters. There has been much 
discussion, some fanfare from FEMA about the pre-positioning of 
equipment or the leaning forward of FEMA prior to disasters. 
This policy, of course, was in part a reaction to Katrina, what 
we saw there. The agency has tried to make the necessary 
corrections. I guess my question is have you over corrected or 
is there some danger of over correcting the problem?
    There are unsubstantiated reports that as much as 200 
million dollar was spent on Hurricane Dean, a hurricane that 
never landed on U.S. soil. Staff has asked how much Hurricane 
Dean cost and has been unable to find out from your agency. So, 
I wonder if you would give us a definite figure today, 
hopefully. If not today, then for the record, on how much FEMA 
spent on leaning forward for Dean. And I want to know whether 
FEMA employs a cost benefit process to determine how much 
investment in leaning forward is reasonable. Can you describe 
that process and can you give us an assessment of whether we 
have reached the kind of balance that we need to reach, in 
terms of a reasonable pre-positioning, reasonable policy of 
leaning forward, as opposed to redundant efforts or efforts 
that just are not cost-effective?
    Mr. Paulison. Thank you. Those are some of the same issues 
that we are looking at. I think we have reached a balance. We 
did spend a lot of money on Hurricane Dean. But considering the 
threat to loss of life, we made Katrina pale, compared to what 
the threat really was. Had a hurricane five storm, that Dean 
was at that time, moved into that area, right along the Rio 
Grande in the Brownsville area, it would have been significant.
    So we did spend a lot of money. It was not $200 million. I 
think we are in the range of around $50 million. But I will get 
you the exact numbers, and there is no reason you should not 
have those.
    We did spend a lot of money on pre-positioning buses with 
drivers. We spent money putting ambulances down there. We spent 
money having airplanes to move people who are invalid out of 
nursing homes. We pre-positioned urban search and rescue teams.
    At that particular point, the hurricane center was fairly 
confident that this was going to go into that Southeast Texas 
area. So we did take a lot of precautions. I was not going to 
let another Katrina happen on my watch.
    However, the leaning forward that we have been doing since 
then has been a little more modest. In moving people into the 
state emergency management centers, we have very good 
visibility on what their needs are; holding the video 
conferences with sometimes 50 to 60 people on there, giving us 
an update on exactly what is happening on the ground, what the 
needs are; moving those supplies in early; moving things in 
early.
    I believe it was in Missouri. I believe we moved generators 
in before the Governor asked for them, because we knew they 
were going to be needed. There were not many people without 
power.
    We moved communications equipment in. We moved that in 
early. When the Governor did ask for declaration, those things 
were already there.
    I am going to continue to do that. It does cost money to do 
that. But I firmly believe that going in as a partnership, with 
the local and the state community is much more effective, it 
protects more property. It protects more lives than if we wait 
for that sequential failure that I talked about earlier.
    So it is a new culture for us. It is the new paradigm 
shift, if you will, on how I think this agency should respond 
to state and local governments. We are going to spend more 
money than we did in the past. But we are not going to have 
another Katrina, either.
    Mr. Price. Mr. Jadacki, have you looked at this issue at 
all?
    Mr. Jadacki. We are in the process of reviewing some of the 
activity in the Disaster Relief Fund right now, and we are 
collecting the information.
    You know, over the years, FEMA has had the ability, and 
they have done it using what they call their surge account. 
When disasters are imminent or ready to strike, and you know 
there is going to be some sort of a declaration, either 
emergency or Presidential declaration, then those costs are 
usually covered by that.
    The concern I have though, from being involved in FEMA for 
a number of years in oversight, is that different states 
varied; and Mr. Paulison talked about that before, using the 
GAAP analysis for Hurricanes and those types of things.
    You know, to blanketly provide all those resources to every 
single state as if they are all even, may be a different story. 
Some states maybe have a robust emergency management system, 
where they have contracts in place and those types of things 
ready to go, and you hate to see the Government come in and 
sort of take over those contractual agreements and upset some 
of the vendors that they have had on standby.
    So the concern I have is that if we are treating every 
single state the same way, that would be an issue. But to get 
back to your question as far as what these pre-deployments or 
these leaning forward things are costing, we are in the process 
of looking at that right now.
    Mr. Paulison. I just got a note from my financial manager. 
It said we spent $40 million on Hurricane Dean.
    Mr. Price. $40 million--that is considerably a variance 
from estimates others have made.
    Mr. Paulison. Yes.
    Mr. Price. So maybe for the record you could help us 
reconcile.
    Mr. Paulison. Yes, sir, I will say for the record, we spent 
$40 million.
    Mr. Price. All right; Mr. Rogers.

                              FEMA VISION

    Mr. Rogers. The 2009 budget request, Chief, includes an 
increase of $64.5 million for what is called the FEMA Vision 
Initiative. Including the 2009 request, a total of $187.4 
million is devoted to the FEMA Vision Initiative over the last 
couple or three years.
    It is unclear to me just what that means, and what the 
specific goals of what you are asking the money for. It is 
unclear to me where the FEMA Vision Initiative meets clearly 
defined steady-state capability, consistent with the 
requirements of the post-Katrina Act. Can you help us out with 
that?
    Mr. Paulison. Yes, sir, I can; and I can give you a list of 
everything we are spending for our FEMA Vision.
    There has been a consistent theme with the Government 
Accountability Office and the IG's Office on things that are 
broken at FEMA. The reports that come out really just codify 
what I see, as far as what I can get out of FEMA's systems and 
what I cannot get out of FEMA's systems.
    Our financial accountability system, our procedures, the IT 
system, are terribly broken. They have got to be re-built. Our 
facilities, we are way behind in upgrading our facilities and 
also providing space for the new people we are hiring.
    Our disaster operations, the National Response 
Communications Center, is being set up to operate 24/7, so I 
can have better visibility of what is happening around this 
country.
    The regional offices are being set up 24/7. Our incident 
management teams that were put into place are ones that will 
give us a defined workforce that responds to disasters, instead 
of pulling people out of offices and shutting down FEMA while 
we respond to disasters.
    Our logistics that we have talked about--bringing in 
professionals, having the right amount of people in there, 
having operational planners to work in there; our disaster 
assistance program, where we can provide a better way of 
providing and individual assistance; our Chief Financial 
Officer, giving them the tools so that when we have a GAO audit 
again next year, we will not have these deficiencies that you 
saw, and the deficiencies that the GAO pointed out are right on 
target. They are absolutely correct. But we need to fix those, 
and I cannot fix those without the dollars. A couple of the 
General Counsel management positions, bringing in better people 
into management, so we have oversight of what we are doing. 
Those are the items for the FEMA vision, and I will give you a 
list of those in the questions for the record, if you would 
like.
    We are very clear on where we are going. We have a good 
plan in place. This 2009 budget, I feel, will really put this 
organization on the right track, as we transition into the next 
administration and give it the leg up that it needs, so it will 
continue on.
    What I do not want to do is to have the things that we have 
put in place to fall by the wayside; and I feel like this 2009 
budget that we have put in front of you will help us do that.

                                  IMAT

    Mr. Rogers. Now last year, you told us that you were 
building a 24/7 incident management capability. Tell us how far 
you have come with that.
    Mr. Paulison. This year, we have one national incident 
management team and one regional incident management. By the 
end of this year, we will have four regional teams and two 
national teams that respond. Those will be operating 24/7.
    Again, our communications center, which is the hub of FEMA, 
is already operating 24/7; and we are setting up regional 
office centers to operate 24/7 also.
    Mr. Rogers. What are those teams?
    Mr. Paulison. The incident management teams are teams that 
will respond out to disasters. They will be trained to do that. 
They will be trained in incident command. They will be trained 
in all of our FEMA programs to work with the state and local 
communities to help them set up a system of how we are going to 
work with them to manage that disaster.
    They will move quickly. It will have to move within four 
hours, and be on the ground within 12 hours, anywhere in the 
Continental United States.
    Mr. Rogers. How large are those teams?
    Mr. Paulison. Again, help me out, guys. I think the 
regional teams are 15 and the national team is 23.

               NATIONAL INCIDENT MANAGEMENT SYSTEM (NIMS)

    Mr. Rogers. Now you already used the National Incident 
Management System [NIMS], which was developed so responders 
from different jurisdictions and disciplines can work together 
in responding to natural disasters and emergencies, including 
acts of terrorism. How has NIMS benefitted FEMA?
    Mr. Paulison. It is remarkable; not just for FEMA, but for 
the entire Federal Government. The local communities and the 
states have used the National Incident Management System, the 
ICS system, for a long period of time. The fire service has 
probably used it for 25 years.
    When I came into FEMA as a fire administrator, one of my 
goals was to get the Federal Government to adopt that. We put a 
plan together to put that in place.
    We made a presentation to the President's Cabinet, and the 
President signed off on this. This would be the system we 
operate under. It allows all of us here to work together under 
the same system. We understand it. We understand what the roles 
are, and we understand who is going to do what. That, tied in 
with the national framework, we do have the best emergency 
management system in place now that this country has ever had.
    Mr. Rogers. Well, thank you, Chief; and thanks to all of 
you for your work and your sacrifice for this country.
    Mr. Paulison. These guys have a lot to play in that. They 
were really instrumental in us pushing that through for all of 
us to use.
    Mr. Rogers. Good; thank you.

                        PRESIDENTIAL DECLARATION

    Mr. Farr [presiding]. Thank you, Mr. Rogers.
    I want to follow up on some of these questions. First of 
all, I heard you say that FEMA now does not have to wait for a 
disaster declaration. You can respond without that.
    Mr. Paulison. Yes, sir, we do have the authority to deploy 
people. We cannot employ some of these things until we get a 
declaration.
    Mr. Farr. Is that declaration level, do you have problems 
with that? Because I recall, it took several days in order to 
get all the information, and sometimes a week, to trigger a 
declaration.
    Mr. Paulison. Quite frankly, there was an issue with the 
timeliness of getting the declaration. We have cut that time 
down significantly.
    In the case of Greensburg, Kansas, it was less than 24 
hours. In some of the other storms we have had, it was a matter 
of just three hours to get the President to sign the 
declaration. So for those that are no-brainers, those big 
events that have a major impact, we can move right away.
    Mr. Farr. That is just sort of budgetary authority, right?
    Mr. Paulison. Yes, that is correct.
    Mr. Farr. You can still respond with what resources and 
manpower you have?
    Mr. Paulison. And what we have been doing in the past also 
is moving things in, and the state can use those if there is an 
agreement that they reimburse us, replace that, if they do not 
get a declaration.
    We did that, I believe it was in New York, where they 
wanted MREs and water. We had tractor trailer loads sitting 
outside their offices. The lawyers were saying, well, they 
cannot use it because there is no declaration.
    So what we did was, here, you just take it and you use it, 
and if you do not get a declaration, just replace it. That 
system has worked out pretty darn well.
    Mr. Farr. Well, Mr. Rogers's question is about this team 
that you have. As I understand the incident command system, 
whoever is there first manages the incident, as long as they 
have qualifications to manage it for whatever, as in fire 
levels, that it goes up.
    You have local folks that have been trained now to have the 
qualifications to handle major incidents. If your team comes in 
there, they are not replacing that incident command system.
    Mr. Paulison. No, sir, not at all--they are not replacing 
them at all. They are to augment them; to coordinate our 
Federal response and how we are going to set up.
    We have several teams now that respond. We have our first 
teams that give us the on-ground visibility. We have emergency 
response teams that move in to help work with the state. They 
are the ones that would set up the joint field offices. These 
incident management teams will eventually replace both of 
those.
    Mr. Farr. Do you see FEMA moving to a point where you 
almost work yourself out of a job, because the first responders 
can handle it?
    Mr. Paulison. I would hope so. I do not see that happening 
any time soon though, sir. I think there is always going to be 
a need for Federal assistance in major operations.
    Mr. Farr. So the point of that Federal assistance is that, 
you know, for our military, we have 400 operating bases; and we 
have the personnel and the equipment there. We do not have to 
fly all that stuff from Washington.
    It seems to me that what has happened with Homeland 
Security is, essentially it has this knowing, and everybody 
comes in here and says the locals are going to be the first to 
respond to anything: terrorist incident, disaster, accidents, 
anything. The idea of setting up this Homeland Security was to 
allow the entire country to be able to be capable first 
responders. So a lot of money was set up and this whole agency 
was set up.
    But it seems to me there is an awful lot of sort of 
bureaucracy building in Washington, in all aspects of Homeland 
Security; and we have had all kinds of problems with the law 
enforcement being able to get intelligence information, because 
there is bureaucracy with that.
    I mean, Ms. Roybal-Allard and I were talking that we are 
very proud to be in a state that because of natural disasters 
has learned a lot--California. The Incident Command System came 
out of a California fire.
    I think that a great example of where you had that 
capability at the local level is the difference between the 
fires in Los Angeles and the response to Katrina. I think the 
fire response was essentially mostly all locally handled and 
locally managed. Wherever the resources came in, they were 
additional, too.
    But the bulk of that whole system was locally done. I do 
not think you would have a more professional group of people 
who could respond to those things than the people that are in 
California now.
    What I see FEMA's role is that all these local and state 
governments are required to have disaster plans. Those plans 
are supposed to be reviewed. In our zoning process in 
California, every community has to create an element to their 
general plan. It is a disaster plan. They have to know what all 
kinds of disasters might happen; whether they have earthquake 
faults or flood zones or wildland fires or toxics or whatever 
it may be.
    Out of that, those plans are reviewed by the State Office 
of Emergency Services. They are kind of looking at these 
counties and say, oh, you know all the problems. But then the 
question is, do you have the resources to respond to them?
    It seems to me, that is FEMA's role. Where I am really 
critical of FEMA in Louisiana is, it was essentially your 
responsibility, FEMA's responsibility, to know that those plans 
were not going to work. Because the brains of being able to 
tell whether they had the capability of responding to them were 
here, and that is the role.
    I am really concerned that in doing that, we do not follow 
up then with the implementation, which is what I think Mr. 
Gispert was talking about; that we have got these plans, but we 
do not have the resources--training resources, equipment 
resources, inter-operability capabilities. That is the missing 
gap that is still trying to be met.
    I would hope that you would be much more involved in 
responding to those needs at the local level, because as you 
said, your opening statement is that all response is local. So 
is all politics in this Congress, and I think the frustration 
we have is why are our locals not better equipped to handle the 
problem?
    Mr. Gispert. Mr. Farr, may I jump in please? They are 
ready, and I want to challenge you to come down and visit us in 
Tampa, and look at our Emergency Management Response System 
down there.
    Our whole purpose in life is that FEMA never has to come to 
Tampa. We are going to get on it right away. We are going to 
jump on it, we are going to handle it, and we are going to do 
the best we can.
    My whole task in life is to bring every resource within 50 
miles to bear against the problem. If I do that in a timely and 
efficient manner, almost every major event becomes minor. There 
will be an occasion that an event will be so grand and so 
large, that I cannot handle it with local resources. That is 
when the State of Florida comes in, and brings the resources of 
the other 66 counties.
    Now if we get beyond that, we are talking about a big deal, 
and that is when Chief Paulison and his people come in. But 
once again, 99.9 percent of those little problems should be 
handled at the local level, and you should never hear them. The 
EMPG money that you are spending, and the SHSGAP and the UASI 
and all those other Federal acronyms for grant monies, that is 
what that capacity is being bought at. We have equipment, we 
are training on it, we are talking the language, which is 
called NIMS, and we are just doing everything we can.
    Florida has put together a logistics center. We are 
stockpiling capabilities for Florida. So we are trying the best 
we can. You know, the problem that we have is, not every 
community in the United States has taken it as serious.
    Many communities never see any natural disasters. I might 
want to go live there one day. But many of them do not. So we, 
in Florida, take it very, very serious, because every summer, 
we are challenged by Mother Nature.
    Mr. Farr. Well, they are all suffering from global warming. 
You cannot escape that. One of the tests, and I am trying to 
find it here, indicated that we do not adequately fund the pre-
litigation.
    Mr. Gispert. That is the smart money, yes.
    Mr. Farr. Do you feel you get enough money out of that?
    Mr. Gispert. No, sir; that is a program that has been 
laying fallow. It is very, very bureaucratic. It takes a long 
time to get, and a lot of people have been discouraged and no 
longer apply for it, because of the length of time.
    But it is built strong now. So when Mother Nature blows, it 
will not blow your roof off. There are ways to build. That is 
what pre-disaster mitigation is all about.
    Mr. Farr. Does FEMA overlook the planning requirements of 
these disaster-prone areas, to see whether their building codes 
are meeting disaster standards?
    Mr. Paulison. We do not set building codes. That is a local 
and state responsibility.
    Mr. Farr. I know that.
    Mr. Paulison. But we do look at their disaster plans. The 
GAP analysis that we did last year on the hurricane-prone 
states is now being used across the country. Like Mr. Jadacki 
said, one size does not fit all. So by doing this GAP analysis, 
we will know what the strengths and the needs are in each 
particular state. So we do not have to respond to everything in 
the same manner.
    I do not have to work with the State of Florida on 
evacuation planning, because they have got it down pat. They 
know how to do that. I do have to work with other states like 
Louisiana on evacuation planning, because they did not have it 
down pat. So we can tailor our response needs to what the needs 
of the state are.
    Mr. Farr. The last request here before I adjourn is that we 
put language in your bill last year that reads, ``On any given 
night, there are 200,000 homeless veterans in the United 
States. The Committee is aware that there are unused surplus 
trailers. The committee directs FEMA to work with the 
Department of Veterans Affairs and other relevant Federal 
agencies on a feasibility study to determine how these unused 
surplus FEMA trailers can be used to house homeless veterans. 
FEMA shall report its findings to Congress within six months 
after the enactment of this act.'' Do we have that report?
    Mr. Paulison. No, sir, I do not think we have that report 
ready.
    Mr. Farr. Do you know when we will have it?
    Mr. Paulison. I will find out and get back to you. I will 
find out where it is.
    [The information follows:]

    The status on a report relating to FEMA's efforts to work with the 
VA and other Federal agencies on the use of surplus FEMA trailers for 
homeless veterans:
    On July 31, 2007, the disposal of FEMA's excess mobile homes, 
travel trailers, and park model housing units was temporarily suspended 
to test for formaldehyde before releasing any units. Under normal 
circumstances, FEMA disposes of its excess and surplus property via the 
General Services Administration's (GSA) Office of Personal Property 
Management pursuant to 40 USC Sec. 525(b)(2) and 41 CFR parts 102-35 
thru 102-38. Prior to the suspension, FEMA reported available excess 
and surplus property from our inventory for disposition through various 
GSA disposition programs, including GSA's Utilization and Donation 
Program (U&D), GSA Exchange Sales, and GSA Surplus Sales. Under the U&D 
program, GSA notifies all Federal agencies (``utilization'') and State 
agencies (``donations'') of the availability of units from FEMA. 
Agencies that house homeless people, including veterans, generally fall 
under the ``donations'' category, i.e., donations to State Agencies for 
Surplus Property (SASPs). The SASPs in turn would donate to state and 
local housing agencies when appropriate. Each receiving agency 
determines the utility of the units received, in accordance with 
Federal and state property management regulations. In addition, 
auctions/sales are advertised on GSA's online auctions Web site.
    FEMA is also authorized to use ``direct transfer'' authority to 
transfer units to other Federal agencies if the requesting agency 
submits a letter of interest.
    When the suspension is lifted, the agency can resume the disposal 
of excess units, but only after a unit has been tested for levels of 
formaldehyde. The FEMA Assistant Administrator, Logistics Management 
Directorate has made contact with the VA's Senior Policy representative 
to the U.S. Interagency Council and will work through GSA to help 
determine the process for meeting the VA's potential requirements.

    Mr. Farr. All right.
    Mr. Paulison. I know we have contacted Veterans Affairs, 
and talked to them about housing issues.
    Mr. Farr. And for the committee, could you respond to those 
requests that Mr. Gispert put in his testimony of the unmet 
needs.
    Mr. Paulison. Do you mean, in writing or now?
    Mr. Farr. No, in writing.
    Mr. Paulison. Okay, I will be glad to do that; yes, sir.
    Mr. Farr. Thank you very much.
    Mr. Paulison. Thank you.
    Mr. Farr. With that, the committee is adjourned.



[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                           Tuesday, March 11, 2008.

   HOMELAND SECURITY GRANTS: SUPPORTING A NATIONAL PREPAREDNESS AND 
                            RESPONSE SYSTEM

                               WITNESSES

R. DAVID PAULISON, ADMINISTRATOR, FEDERAL EMERGENCY MANAGEMENT AGENCY, 
    DEPARTMENT OF HOMELAND SECURITY
RAYMOND C. SCHEPPACH, EXECUTIVE DIRECTOR, THE NATIONAL GOVERNORS 
    ASSOCIATION
WILLIAM O. JENKINS, DIRECTOR, HOMELAND SECURITY AND SOCIAL JUSTICE 
    ISSUES, THE GOVERNMENT ACCOUNTABILITY OFFICE

                  Opening Statement of Chairman Price

    Mr. Price. The Subcommittee will come to order. We are 
happy to hear this afternoon from Mr. Paulison and his 
colleagues about Homeland Security Grants.
    We will have testifying today David Paulison, the Federal 
Emergency Management Agency administrator; Mr. Raymond 
Scheppach, the executive director of the National Governors 
Association; and Mr. William Jenkins, the director of Homeland 
Security and Justice Issues at the Government Accountability 
Office.
    Gentlemen, we welcome all of you. I look forward to 
discussing the Fiscal Year 2009 Homeland Security Grants 
Budget--that will be our focus today, the grants programs--and 
the implications of that budget for state and local governments 
to prepare for and respond to disasters.
    Administrator Paulison, I want to start out by thanking you 
and the FEMA personnel who work under you for your service to 
the country. You and they have responsibilities that are among 
the most important and most difficult in the federal 
government. A great deal depends on FEMA's ability to help the 
nation both prepare for and respond to disasters of every kind.
    The failures associated with Hurricane Katrina made the 
importance of your mission as clear as it could be, and we know 
those failures went beyond FEMA and would likely have 
overwhelmed FEMA even on its best day. That event did define a 
low point in the agency that we must never allow to be 
repeated.
    While FEMA still faces many challenges, the agency has made 
encouraging progress in a number of areas. This Subcommittee 
intends to be supportive of FEMA's attempts to build on that 
progress.
    Unfortunately, the administration's proposed Fiscal Year 
2009 budget would again offer no progress when it comes to the 
request for state and local grant funding. In fact, the budget 
before us would reduce grants and training programs by $2.2 
billion, or 46 percent, from the Fiscal Year 2008 enacted 
levels.
    I believe this budget sends the wrong signals to our state 
and local governments about the federal government's level of 
commitment to the partnership with them, and I just have to 
wonder how accurately these request levels reflect your own 
unmediated assessment of state and local needs.
    The budget request before us today is largely a repeat of 
the Fiscal Year 2008 request that Congress flatly rejected and, 
I must say, in the bipartisan history of this Committee, of 
which we are now in Year 6. There has been a pattern each year 
of not just criticizing but rejecting the grants budget offered 
by the administration.
    There is not much new about what we are seeing this year. 
The same programs have been repeatedly targeted for significant 
cuts or even elimination. Two hundred million dollars is 
requested for Emergency Management Performance Grants. That is 
a cut of $100 million.
    When I talk to emergency management professionals, they 
continually cite this as perhaps the most important grant 
program because it is focused on coordinating an all-hazards 
approach to preparedness and response at the state and local 
level.
    SAFER Grants are completely zeroed out of the president's 
budget while FIRE Grants are slashed by 60 percent, from $750 
million to $300 million. According to the second needs 
assessment done by the U.S. Fire Administration, roughly 17,300 
fire stations--that is 36 percent of the total number--are 
estimated to be at least 40 years old, and roughly 26,000 fire 
stations have no backup power. The needs in this area are well 
known to you.
    The Metropolitan Medical Response System program is also 
zeroed out of the president's budget. Now, this program allows 
local governments to purchase equipment and supplies, such as 
local stockpiles of medical countermeasures, and it requires 
the development of plans showing how different government 
entities will coordinate responses to events.
    Now, I am not simply saying here ``more is better.'' More 
grant funding for its own sake is not the answer to the 
challenges that we face. But the truth is that the state and 
local governments do continue to have significant unmet 
preparedness and response needs, and these grants are critical 
to helping them play the strong role the nation needs them to 
play. They are, after all, on our front lines of Homeland 
Security.
    The grant-funding equation depends on several variables, 
including our ability to measure and reduce risk and on how the 
requirements we place on our state and local partners are 
defined.
    So one thing I would like to explore today is whether the 
federal government has given a clear message to the states and 
local governments about their role in the nation's Homeland 
Security mission.
    The federal government must clearly articulate the minimum 
capabilities and requirements expected of them and the first 
responders, and the grant funding we provide must be related to 
help them meet these capabilities and requirements.
    During last year's hearing, Mr. Paulison, FEMA was 
preparing to officially become responsible for the Department's 
preparedness mission. This Subcommittee worked with FEMA to 
help facilitate that transition by approving last year's 
reprogramming to hire federal preparedness coordinators and 
grants management officials to work in the regions.
    We also used the Fiscal Year 2008 bill to direct the 
National Academy of Sciences to review the integration of 
preparedness and response programs, a study that is intended to 
give FEMA and the Subcommittee constructive feedback about how 
things are going and how they need to go.
    We look forward to hearing from you this afternoon about 
agency's progress in integrating this preparedness mission.
    In a moment, we will start with Administrator Paulison, 
followed by Mr. Jenkins and Mr. Scheppach. Because we have 
limited time, I am going to asked each of you to try to keep 
your oral statements to five minutes. Your full testimony will 
be printed in the record, but that will give us time for 
exploring a number of issues in an exchange.
    First, let me yield to Mr. Rogers for any statement he 
wishes to make.

               Opening Statement of Ranking Member Rogers

    Mr. Rogers. Mr. Chairman, thank you very much, and welcome 
to Chief Paulison and your assistants.
    As we continue to debate how much is the right amount to 
spend on Homeland Security, a debate, by the way, that started 
well before we created DHS, even ongoing today, the appropriate 
funding level for First Responder Grant programs finds itself 
at the center of that argument. Just by looking at the Fiscal 
Year 2009 budget request and its proposal to basically cut 
grant funding in half, it is certainly fair to say that there 
is a considerable difference of opinion on the subject.
    But before we can talk about overall funding levels for 
First Responder Grants, I believe we need to discuss two 
overarching issues.
    First, how much more prepared is the nation, given the 
$23.7 billion we have appropriated for First Responder Grants 
since 2002? Considering the size of this investment, we ought 
to know how much we have improved the capability of the 
nation's first responders or not and how much vulnerability we 
have reduced, but, unfortunately, we do not know.
    Secondly, the unexpended balance of First Responder Grants 
is growing. It now stands at over $7 billion. I realize this is 
somewhat of a tired argument and that the bulk of funds we have 
appropriated are, indeed, obligated, but nothing changes the 
fact that the money is not getting spent and is languishing in 
the coffers.
    So no matter how much we appropriate on top of these 
stagnant funds, we have billions of dollars worth of unrealized 
capability stuck in government accounts, dollars that are not 
supporting our public safety agencies across the nation.
    I recognize that the only way we are going to achieve a 
higher state of preparedness is by fully supporting the state 
and local officials who serve on the front lines of every 
response across the country. Whether it is firefighters, police 
officers, or paramedics, all first responders play an 
unquestionably vital role in our Homeland Security.
    I fully support funding a portion of their work that, in 
fact, supports federal Homeland Security efforts. But in every 
major investment across the Department, and I certainly view 
billions of dollars in first responder capabilities as an 
investment, we require plans, strategic plans, expenditure 
plans, implementation plans. You name it, and this bill 
requires it because major funding requires major planning.
    Why should grant programs be any different? I firmly 
believe in the old adage: ``Plan your work, work your plan.''
    So, Chief Paulison, what I want to know today is pretty 
simple. I want to know your plan. As I see it, it is time for 
us to figure out a plan for determining the return on our grant 
investments. As I have said before, it is time to plan your 
work and work your plan.
    We certainly have target capability lists, but with the 
$23.7 billion we have appropriated, how close are we to meeting 
those targets? We have a national response framework, but how 
does this $23.7 billion, to date, as well as the 2009 budget 
request of $2.2 billion in grants, how does that support the 
structure of this framework? Difficult questions, I know, the 
questions FEMA must answer as the steward of these grant 
programs.
    The way I see it, First Responder Grant programs are but 
one very important element of the nation's overall 
preparedness, and that is something that should certainly 
improve with each yearly installment of appropriations.
    The American people expect us to be getting more prepared, 
more ready, to handle all hazards and all threats. Today, I 
hope we can discuss this issue and understand your plan for 
measuring the contribution of First Responder Grant funding to 
our nation's overall Homeland Security. Thank you, Mr. 
Chairman.
    Mr. Price. Thank you. Mr. Paulison, we will begin with you.

   Statement of R. David Paulison, Administrator, Federal Emergency 
                           Management Agency

    Mr. Paulison. Thank you, Chairman Price and Ranking Member 
Rogers. It is an honor to be here, and I appreciate the 
opportunity to speak in front of you.
    When I was asked to lead FEMA, my mission was clear: 
rebuild and strengthen FEMA's ability to plan, prepare, and 
respond to disasters in light of the natural and man-made 
disasters that struck our country. The new leadership at FEMA 
brought in experts to conduct assessments and incorporated 
these lessons learned into a new vision for the agency. The 
President, Secretary Chertoff, and, quite frankly, you in 
Congress have supported this effort and provided resources and 
other tools to help us make these improvements.
    In my first appearance before this Committee, together we 
began repairing the damage to what was, quite frankly, a 
challenged agency. Last year, we implemented a New FEMA with 
its Vision Initiative, and you provided the tools we needed to 
get back on our feet, use the lessons learned to set a new 
course. We began that journey together.
    Today, I am here to tell you that with the President's and 
the Secretary's backing and your continued support, we are 
laying the groundwork for a better tomorrow. Our goal is to 
leave FEMA stronger than we found it. It is for this reason 
that my testimony today is entitled ``The Way Forward.''
    This is not the FEMA of two years ago, as our response to 
recent disasters has demonstrated. We have made major changes 
over the past year as we integrated the National Preparedness 
and Grants Programs Directorates into the FEMA fold and added 
their capabilities and strength to our existing preparedness 
and assistance programs. With this new structure, we will get 
better return on investments and be able to leverage our 
resources that you provide so they will have a bigger impact.
    Since 2003, as Mr. Rogers said, the Department of Homeland 
Security has invested over $23.7 billion in critical funding 
for our nation's first responder community. These grant 
programs have increased our nation's capability to prevent and, 
if necessary, to respond to acts of terrorism. This could not 
have been achieved without strong ties to our state and local 
partners.
    This year's budget, as in Fiscal Year 2008, requests $2.2 
billion to support FEMA's state and local programs and 
assistance to firefighters grants. These important grant 
programs help prepare the state and local governments to 
prevent or respond to instances of terrorism and other 
catastrophic events.
    The budget supports the existing Homeland Security Grant 
program, Port and Rail Security Grants, Emergency Management 
Performance Grants, and also proposes a new discretionary grant 
program targeted towards high-priority security initiatives, 
including the REAL ID implementation.
    The budget also mirrors the Fiscal Year 2008 request for 
$200 million for State Homeland Security Grants and increases 
funding for the Urban Security Area Initiative to $825 million.
    The $300 million funding request for the fire grants is 
identical to the President's Fiscal Year 2008 budget request, 
and, by the way, brings that total to over $5 billion that we 
have given to the firefighters over the last few years.
    With these grants now administered by FEMA, we have 
transitioned the former Office of Grants and Training into FEMA 
and augmented grants staff with additional grants experts from 
FEMA's legacy programs. The new Grants Program Directorate is 
working with a greater emergency-management framework to make 
sure that we are getting the best value for investment. We are 
truly leveraging funds to improve their effectiveness.
    The establishment of FEMA's Grants Program Directorate will 
provide a one-stop shop for grants. The new office will help us 
to enhance fiduciary management as we standardize grants 
management policies, procedures, our processes of reporting, 
and accountability across all FEMA grant programs.
    We are releasing grant guidance earlier to allow applicants 
more time to plan and apply for funding so we can award those 
funds sooner. We are continuing to emphasize customer service 
and interaction throughout the process, including providing a 
new mid-term review.
    Funds are being directed to enhance specific outcomes in 
areas such as strengthening preparedness planning and 
improvised explosive devices deterrence, prevention, and 
protection capabilities.
    Based on the Post-Katrina Emergency Management Reform Act, 
the Department's regional offices will have an enhanced role in 
administering grant programs. This year alone we have 
transitioned the grants management function of three key 
programs to the regions. We have also set up our Grants 
Management Branch in all 10 of our FEMA regional offices.
    As we move into 2009, grants management functions across 
more of our programs will transition to the 10 FEMA regions, 
where they belong.
    When Congress passed the Post-Katrina Emergency Management 
Reform Act, together we set a vision of what FEMA could become, 
but as the author and innovator, Joel Baker, said, ``Vision 
without action is merely a dream. Action without vision just 
passes time. Vision with action can change the world.''
    The budget we have proposed shows that President Bush, 
Secretary Chertoff, and I are committed to vision with action, 
and I know you are committed, too. You have proven that.
    I look forward to working with you as we make the vision of 
a new FEMA a reality. Thank you.
    [The information follows:]




[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

  Statement of Raymond C. Scheppach, Executive Director, The National 
                         Governors Association

    Mr. Price. Thank you. Mr. Scheppach, let us hear from you 
next.
    Mr. Scheppach. Mr. Chairman, I appreciate the opportunity 
to appear before you today on behalf of the nation's governors. 
I have submitted my written testimony, and I will take three or 
four minutes to summarize it very quickly.
    I would like to, this afternoon, touch on four issues: The 
need for federal resources, the REAL ID, the so-called 
``pipeline question,'' and state and local Homeland Security 
priorities.
    With respect to the need for federal resources, in order 
for states to officially spend Homeland Security funds, it 
needs to be stable, predictable, and certain. Each state should 
receive a base allotment to ensure that all jurisdictions 
maintain a base capacity. Federal funding for state and local 
governments must increase as federal requirements increase 
through various initiatives, such as the National Preparedness 
Goals, the National Incident Management System, and the 
National Response Plan.
    Above a base allocation, Federal Homeland Security funding 
should be distributed based on comprehensive statements or 
analysis of risk which should be developed in close 
coordination with states. Risk assessments must be fully 
disclosed to governors and their designated representatives and 
should be updated regularly. States should have maximum 
flexibility in how these homeland funds are spent, as long as 
funds are used to mitigate risks and enhance the level of 
preparedness.
    One of the primary sources of funds to offset federal 
mandates is through the State Homeland Security Grant program. 
Unfortunately, funding for this program has decreased from its 
original level of $1.1 billion in 2005 to $550 million in 
Fiscal Year 2006, down to $515 million in 2007, and the 
president has asked for only $250 million for the program in 
2008 before Congress increased the funding. The 
administration's Fiscal Year 2009 budget again calls for a mere 
$200 million.
    To meet the ever-increasing demands placed on states, 
governors called for the Congress to restore funding to the 
initial 2005 level of $1.1 billion.
    With respect to REAL ID, we want to thank the Subcommittee 
and you, in particular, Mr. Chairman, for the amount that you 
have appropriated, the $90 million for REAL ID. The 
administration did not request any funds for REAL ID in Fiscal 
Year 2008, and its Fiscal Year 2009 budget does propose a $110 
million competitive grant program for states, in part, to 
assist with REAL ID, and $50 million for DHS to develop 
verification capabilities.
    I want to publicly acknowledge the fact that the Department 
of Homeland Security did listen to the comments on the draft 
regulations from the state motor vehicle people and the state 
legislators, and NGA. They made major changes in the 
regulations and lowered the cost from $11 billion, our original 
estimate, to $4 billion, by their estimate, and we are in the 
process of now trying to verify that.
    It is also true that this moved the REAL ID implementation 
from the category of impossible to perhaps the possible over 
the next several years. However, governors feel strongly that 
the Congress should provide an additional billion to cover the 
up-front cost of the REAL ID this year and additional funds to 
cover the out-year costs.
    With respect to the pipeline question, unfortunately, there 
is a lot of misinformation on the budget issues that surround 
state grants. On the one hand, many local officials are 
critical of states for not accelerating the rate of funds to be 
spent. On the other hand, others argue that there are 
sufficient unspent funds in the so-called ``pipeline.''
    It is interesting that this term ``pipeline'' is used to 
indicate that states do not need additional funding. For 
example, the secretary of DHS testified, on February 14th, that 
there is essentially $13 billion in the pipeline for state and 
local Homeland Security needs. I would argue that neither local 
officials' nor the secretary's interpretation is correct. With 
respect to the federal budget, it is really budget authority 
outlays and obligations which are the appropriate concepts, not 
pipeline.
    The pipeline actually combines obligated and unobligated 
funds, as well as some unappropriated funds against nine 
different programs. The state grants are essentially a very 
unique program. They include capital, and they include 
operating components in an 80-percent pass-through to local 
governments.
    When you look across other particular programs, 
particularly in the capital area, you will find that they often 
pay out four, five, six, and some even for seven years. Most of 
the funds appropriated have been obligated, although not yet 
outlined. It seems that the key here is to keep your eye on the 
efficiency of increasing Homeland Security, not on how fast the 
money can be spent--it is not a jobs program--nor on how much 
is in the so-called ``pipeline.''
    With respect to state and local Homeland Security needs, 
the NGA actually organizes the governors' Homeland Security 
people, and we bring them into Washington to meet a couple of 
times a year, and we are, in fact, in close connection with 
them on their priorities.
    Last year, we surveyed them, and essentially what they felt 
was that they emphasized the need for all hazards approach and 
planning and using federal grants. The whole question of public 
safety interoperability communications topped the list of other 
priorities. The other areas that were mentioned essentially 
were coordinating state and local efforts protecting critical 
infrastructure, developing state fusion centers, and 
strengthening citizen preparedness.
    Mr. Chairman, I look forward to working with you as you 
develop your final budget.
    Mr. Price. Thank you very much. Mr. Jenkins.
    [The information follows:]



[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
Statement of William O. Jenkins, Director, Homeland Security and Social 
            Justice Issues, Government Accountability Office

    Mr. Jenkins. Chairman Price, Ranking Member Rogers, 
Representative Serrano, I appreciate the opportunity to be here 
today to discuss the Department of Homeland Security's grant 
programs.
    This afternoon, I would like to briefly touch on DHS's risk 
methodology for grant allocation, grant expenditure reporting, 
and performance measures for emergency preparedness and 
response.
    Both by statute and presidential directive, DHS is charged 
with developing and implementing methodologies for assessing 
and managing risk across a broad spectrum of programs and 
assets. DHS's grant-risk methodology is continually evolving 
and has focused on risks from international terrorism and 
includes both a risk assessment and an effectiveness 
assessment.
    Because we cannot protect against all risks, trade-offs are 
necessary. Risk management is a structured means of assessing 
risks, evaluating and choosing investments to reduce risk, and 
assessing the results of those investments, all under 
conditions of uncertainty and change.
    Risk is not a static concept but evolves with changes in 
threats and implementation of actions that reduce 
vulnerabilities and consequences. Risk assessments, of 
necessity, are based on data of varying certainty and 
reliability. Thus, professional judgment is an inherent part of 
risk management. However, the basis for those judgments should 
be clear and carefully analyzed.
    With regard to grant reporting, there has been considerable 
discussion on the Hill and DHS and in the press about 
management of DHS grants at all levels, including the ability 
to use the funds quickly and to demonstrate the results 
achieved with grant funds.
    From Fiscal Years 2002 through 2007, DHS distributed more 
than $19 billion in grants, of which about $7 billion was 
unexpended as of January 2008. Not surprisingly, the highest 
balances are for the two most recent fiscal years.
    In 2005, we reported that the ability of states and 
localities to spend grant funds quickly was slowed by the need 
to fulfill state and local legal and procurement requirements. 
Because of inconsistencies in DHS's reporting of grant 
expenditures over time, we are unable to analyze expenditure 
trends by grant and fiscal year to determine how funds are 
being spent and if they are being spent more quickly for some 
purposes than others. Nor is it possible to compare DHS grants 
with preparedness grants from other federal agencies.
    As directed by Homeland Security Presidential Directive 8, 
since 2005, DHS has produced an annual report on preparedness 
funding that includes non-DHS grants. But because the reporting 
agencies use different definitions of ``obligation,'' 
``expenditure status,'' and ``use of funds,'' the report is of 
very limited use for comparative analysis.
    Although management of the grant dollars is important, 
success is not measured by dollars spent, how quickly they are 
spent, or even what is purchased. Ultimately, the goal of the 
grants is to enable state and local governments to prepare for 
and respond to disasters of any size, type, or cause with well-
planned, well-coordinated and effective actions that save 
lives, reduce property loss, and set the stage for a quick 
recovery.
    DHS has not developed performance measures that enable it 
or state and local governments to assess whether they have 
achieved this goal. According to FEMA officials, this is a 
high-priority issue for DHS, and we realize that developing 
useful performance measures is not easy but is essential to 
have recognized benchmarks for measuring effective preparedness 
and response.
    Last March, we testified before this Subcommittee that a 
comprehensive and in-depth oversight agenda requires, one, 
assessing state and local capabilities against established 
performance goals; and, two, determining how federal grants 
have been used to build the capabilities to meet those goals.
    In other words, we need to have a means of consistently, 
reliably, and validly measuring our ability to achieve and 
sustain success in emergency management.
    The Post-Katrina Reform Act requires an annual preparedness 
report from all states. After an extension of the original 
deadline, the first reports are due at the end of this month. 
Also under the act, the FEMA administrator, in conjunction with 
the National Advisory Council and the National Council on 
Disability, must establish a comprehensive assessment system 
for overall preparedness, including operational readiness. This 
was to include clear and qualifiable performance metrics, 
measures, and outcomes. To date, this has not been completed.
    The task of developing and sustaining first responder 
capabilities to meet specific performance goals is a complex 
and daunting one. As the principal federal agency now 
responsible for preparedness and response, FEMA has a unique 
opportunity and responsibility to evaluate how it can 
effectively target and integrate the grants into its overall 
strategy to develop an effective, all-hazards preparedness and 
response system, and this can best be done, in our view, by 
viewing the grants collectively rather than individually in a 
stovepipe fashion.
    We look forward to working with Congress, FEMA, and others 
to build an effective national emergency preparedness and 
response system that we all want and the nation deserves.
    That concludes my statement, Mr. Chairman, and I would be 
pleased to respond to any questions you or other Members of the 
Committee may have.
    [The information follows:]



[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                         REAL ID GRANT FUNDING

    Mr. Price. Thank you, Mr. Jenkins. Thanks to all of you. We 
will proceed with questions, and I will begin with Mr. Paulison 
and a question about the REAL ID grant funding.
    Mr. Scheppach made the case in his testimony for more REAL 
ID grant funding for the states. What he did not say, but what 
I know to be true from talking to leaders in my state and in 
other states is that there is not perfect agreement among the 
states on the merits of this program and on the parameters of 
the program as they have been enacted.
    I have shared this. I voted myself against the version of 
the REAL ID Act that we had before us in early 2005 because I 
had significant concerns about its costs and about how it was 
going to be implemented and the protection of privacy and other 
matters.
    So these are still live concerns among us and in the 
states. But what I think there is no disagreement whatsoever 
about among the states, and this is reflected, I believe, Mr. 
Scheppach, in action taken two weeks ago. What there is no 
disagreement at all about is that if this is going to be a 
requirement the states have to meet, that they should have 
federal financial support for their efforts, some serious cost 
sharing.
    Now, to date, $90 million has been appropriated 
specifically to help states comply with the unfunded mandates 
of the REAL ID Act, and that was provided, I must say, only as 
a result of leadership by this Committee.
    I know that does not even approach meeting the needs of the 
states, but I remind you that it is 100-percent more than was 
ever requested by this administration for REAL ID.
    Now, Secretary Chertoff has said that ``there will be 
another $150 million in grants that will be potentially 
available to states for REAL ID in Fiscal Year 2009.'' Now, 
where does that come from?
    Well, for one thing, he is assuming that states will use a 
good portion of their State Homeland Security Grants for REAL 
ID, and I remind you that the administration has proposed that 
these grants be reduced by 79 percent. Are we asking states to 
divert funding away from other priorities to pay for REAL ID, 
particularly when their state grants are going to be decimated 
to begin with?
    Then there is this matter of an amalgamated program. The 
2009 budget proposes to fund a joint REAL ID, Buffer Zone, 
Other grant program at $110 million. REAL ID, Buffer Zone, 
Other, $110 million. I guess that is where the Secretary 
assumes the balance of this funding will come from. I am not 
sure what assumption he is making about the allocation within 
this new program among REAL ID and Buffer Zone and Other, but I 
have some questions about it, Chief Paulison.
    First of all, is this amalgamated grant program authorized?
    Secondly, can you explain why you are proposing to group 
buffer zone protection with REAL ID grants? I just cannot 
imagine what the rationale is, and then what is this ``other'' 
all about? What are you thinking is going to be in the picture 
here, and what kind of funding allocation do you envision? Why 
is there no dedicated source of funding for REAL ID at a level 
that would accurately reflect the implementation costs to the 
states?

           NATIONAL SECURITY AND TERRORISM PREVENTION GRANTS

    Mr. Paulison. Thank you, Mr. Chair. Those are very good 
questions.
    The National Security and Terrorism Prevention program is a 
category that the Secretary has created to put funding to 
States for those emerging priorities as the Secretary 
determines them. REAL ID falls in these priorities. They do not 
have to be grants that necessarily go together. The buffer zone 
is in there and also the REAL ID Grants for the states to use 
as they apply for those grants.
    Also, 20 percent of the State Homeland Security Grants 
program can be used for REAL ID, which would take that number 
to the $150 million that the Secretary committed to fund for 
that program.
    On top of that, there is $50 million that is put in the 
2009 CIS budget to assist with the formation of the hub. What 
the Secretary is asking the states to do is to put the program 
together on how they are going to share information with each 
other. The Secretary has committed that there will not be a 
national ID.
    There will not be a place where we gather all of that 
information. It will be kept with each state, just like it is 
now, with the regular driver's license, and, to do that, they 
want the states to own the hub, but the Secretary did put $50 
million into CIS because of their relationship with the DMVs 
around the country to put in that particular department. So 
that is why that is there.
    As far as this grouping of grants, this last year, on 
February 1st, we announced the grants. We put them out in time 
within the 25 days that you have mandated we do that. That is 
the first time that we have been able to accomplish that, and 
we did that, put it together, did a good job. We made some 
mistakes in some of those grants; some we fixed within a few 
hours.
    What we are trying to do is to put that down into three 
major categories.
    One, it will make it a lot easier for us to get that out 
within the 25 days but also make it a lot easier for the 
states. The states will not have to review and depend on 16 
different grant guidances to provide their grants. There will 
only be three or four of those in these three major categories 
right here. We think this is going to simplify the grant 
process for us getting those out the doors quickly but also 
make it much simpler for the states. When they start applying 
for these grants, there will be a lot of consistency as they 
pick and choose in those categories of what they want to apply 
for.
    I hope I answered your question. If I missed anything, I 
will go back and get it.
    Mr. Price. We did raise the issue of this proposed hub at 
CIS with Dr. Gonzales this morning, rather inconclusively, I 
would say. That is not a very well-fleshed-out proposal. But 
even if you add that to the mix, we are talking about a very 
small fraction of the estimated state needs to begin to 
implement this program. You are not suggesting that this 
amalgamated program is actually authorized in law.
    Mr. Paulison. I am missing what you are asking. As far as 
what we have done? All we have done is move those into 
different categories. We have not really changed any of the 
grants. They are all the same. They are still there, just like 
they were. We just grouped them in groups to help us to, one, 
make it a lot simpler to put these out, make them more 
accurate, and get them out faster, but also make it easier for 
the states.
    These same grants that are in 2008 are in 2009, just in 
different groupings.
    Mr. Price. You do not have an estimate of how much of that 
total would likely go for the REAL ID function.
    Mr. Paulison. Right now, for the REAL ID, what is available 
is $150 million that is in this particular budget, and then the 
$50 million that is in CIS for 2009.
    Mr. Price. All right. But the 150 does assume that the 
states are going to use up to 20 percent of their State 
Homeland Security Grants for REAL ID.
    Mr. Paulison. That is correct, sir.
    Mr. Price. That assumes that of this $110 million for this 
new, what you call the Emerging Priorities program; how much of 
that goes for REAL ID?
    Mr. Paulison. The entire $110 million could go for that. 
The states could apply for those dollars off of REAL ID, or if 
they had buffer zone issues, they could apply for that also.
    Mr. Price. Whose decision is it?
    Mr. Paulison. That would be up to the state to apply for 
that.
    Mr. Price. Up to the state to apply, but let us say, as 
usually happens, the states apply for both and more. What is 
the decision rule in terms of how that 110 would be allocated?
    Mr. Paulison. That particular category is a competitive 
process, and the Secretary will make those choices based on who 
has the best proposal and what has the biggest impact.
    Mr. Price. It would essentially be at the Secretary's 
discretion.
    Mr. Paulison. Yes, sir.
    Mr. Price. Mr. Scheppach, you have already expressed your 
view on this from the states' perspective. Is there anything 
you would like to add?
    Mr. Scheppach. My understanding is, of the $80 million that 
was appropriated over the last couple of years, about $10 
million of that has been spent on pilot projects and other 
things, which gives you about $70 million residual. Our sense 
is that the Secretary really wants to use that $70 million to 
do this portal that is necessary for states to talk to states 
and exchange information but also to interact with the five 
federal databases.
    I think where the governors are is, although that is a high 
priority, there is no money here that is really allocated 
across two states to offset some of the cost of implementation. 
All of it so far is for special needs, which are competitive 
bids, which a lot of it is on what I would consider federal 
responsibility. To me, to allow states to talk to one another 
and exchange information is an interstate component which 
should be funded by the federal government, not out of an 
unnecessary pot that would go to states.
    So I think you are right that the governors met a couple of 
weeks ago and were very upset, essentially, that this is going 
to cost states $4 billion or so to implement, and there is no 
money yet that is being allocated across states to, in fact, 
help offset that. Most of the money that has been appropriated 
so far is for this portal or other special needs.
    Mr. Price. Thank you. Mr. Rogers.

                     MINIMUM ESSENTIAL REQUIREMENTS

    Mr. Rogers. Thank you, Mr. Chairman. A few years ago, we 
were trying to come up with what we called at that time the 
``minimum essential requirements.'' That is to say, we wanted 
every fire department, every police department, every first 
responder unit, and there are thousands of these across the 
country, of course--every one of them needed at least a minimum 
of training and equipment to prepare them to respond to the 
minimum problems that had a federal connection to them.
    That concept has been massaged over the years. I do not 
know where that stands now. Maybe you could help me with that.
    Then, in addition to those communities that require a 
minimum of training and equipment to respond to a federal piece 
of some problem that they might have locally, there were 
communities, obviously, that needed a bit more than that. Those 
whose jurisdiction included a nuclear power plant needed more 
preparation. One with a dam there maybe needed some more 
different types of training and equipment, until we get to the 
very large cities, like New York, L.A., and so on, which, 
obviously, need a lot more of perhaps different types of 
training and equipment.
    I have never seen the results of that thinking. The bottom 
line is I do not know that there is a plan out there that 
allocates these grants based on some logical scheme. Prove me 
wrong, Chief.
    Mr. Paulison. I am assuming you are talking about the 
Assistance to Firefighters Grant program.
    Mr. Rogers. And many of the other programs.
    Mr. Paulison. And some of the other programs, too. I think 
there is a logical plan in place, and what we have already 
started doing is we inherited these grants 12 months ago last 
year, and this was really our first grant cycle. We recognized 
very clearly that there was no mechanism to measure this $23.7 
billion that we have given out, is it having an impact, and 
where is it having an impact?
    So we have put a program in place to start to do that, and 
Ross Ashley, who is sitting behind me, is going to be briefing 
your staff over the next couple of weeks to put this thing in 
place and have some tangible results by August or September of 
this year, so that is one piece of it.
    The other piece is tying all of these grants together, and 
that is what we have been looking at, and one of the reasons we 
tried to group these together was to do just what you are 
talking about.
    The Assistance to Firefighters Grants, if the 2009 budget 
is passed, as the President submitted it, will be a little bit 
over $5 billion that we put into fire service. Now, the range 
has been all over the place, from buying fire trucks to buying 
turnout gear, self-contained breathing apparatus, building 
training facilities, a lot of different things like that. It is 
having an impact on the fire service. When I go around and talk 
to people and talk to fire departments, I see pretty much every 
department that I have been in, they have gotten something out 
of these grants.
    I think what we really have to do now is step back, and we 
are going to need your assistance in it because a lot of the 
guidelines we follow come out of Congress. We decided we had 
better focus the grants on some of the other issues, like 
preparing for terrorism, and maybe focus on some issue, Mr. 
Rogers, you talked about, where those departments have 
particular problems, particularly nuclear power plants or have 
large chemical plants or any other major critical 
infrastructures to get training on.
    Our training program that we have is bigger than just the 
grants. There are exercises we have inside of Homeland 
Security. The grants are just one piece of that.
    So there is a plan in place, and what we are doing is 
putting all of these together to make sure they mesh, and we 
are not having stovepipes of things to do as separate things. 
That is really starting to work.
    The 9/11 Bill helped us really focus on the risk assessment 
on grants. It is much clearer now than it was a year ago, two 
years ago. It will be much more visible to the governors as we 
continue to improve this process. We want it as transparent as 
possible.
    So, yes, there is a plan in place of how we are going to do 
this. The National Response Framework is going to help us do 
that also, and all of that fits together--Mr. Price, you 
mentioned in your opening statement--how does it all fit in 
with the national framework? And it does. Every piece is 
falling in line to make sure we have a very comprehensive 
emergency management system in this country that, quite 
frankly, we did not have.
    Mr. Rogers. Well, if it exists, I have not seen it. We have 
been asking for it now for--what is it?--six years, seven 
years. Six years. We always get an answer just like you gave, 
which I did not fathom. But we have not been able to fathom any 
of your predecessors on that as well.
    You know, with the numbers we are talking about, the dollar 
figures plus the numbers of units out there, you have got to 
have some sensible, logical plan, if it is going to be fair at 
all, or forfeit your authority over it and let the Congress 
decide where those funds go. I do not think that is a smart 
idea.
    Mr. Paulison. Understood. I understand, and we will do 
that. I think the assessment that we are going to be doing to 
find out what impact we have is going to help us get more in 
line with what you want; the fact that out of the EMPG dollars, 
the states have set aside 25 percent of that for planning. The 
gap analysis planning we are doing, we have done with all of 
the coastal states, and now we are going to move into the rest 
of the country. It is going to help us put together, I think, 
really what you want and to work on that over this next year.
    Mr. Rogers. Well, we will see.
    Mr. Paulison. Yes, sir.
    Mr. Rogers. You know, there are 53,000 state and local 
public safety agencies and federal agencies, 53,000 of them; 
32,000 fire and ambulance units, and there are 1,185 cities 
with over 30,000 population. We are talking about a huge 
universe here of needy fire departments, police departments, 
all whose budgets are not adequate from the city council, and 
they are looking for free dollars somewhere, and guess who they 
like to look at, ``Uncle Sucker,'' because we can write a 
check, regardless of the balance in the bank, which they cannot 
do. We are a real juicy target up here.
    So we have got to have some sensible plan by which fairness 
can be meted out to these 53,000 jurisdictions.
    Mr. Paulison. Yes, sir.
    Mr. Rogers. We catch the heat. We try to pass it on, but it 
bounces off.
    Mr. Paulison. I do not know. I think I get quite a bit of 
heat.

                             GRANT GUIDANCE

    Mr. Rogers. Well, I guess you do. But, nevertheless, on 
this subject, it is something that has been bugging me now for 
six years, that we cannot get a sensible plan in place.
    However, I want to compliment you on one thing especially, 
and that is improving your process for issuing grant guidance 
to state and local governments. In fact, the 2008 bill that we 
enacted on December 26th, by the end of January, the Grant 
Programs Directorate was briefing the Subcommittee staff and 
disseminating grant guidance and applications, which is a great 
improvement over previous years, where FEMA simply dragged its 
feet, did not effectively nor promptly communicate with state 
and local governments about the availability of funds.
    Mr. Scheppach may want to comment on this or not. But we 
cannot allow those funds to just languish there due to slow 
communications or nonmanagement of the system. Tell me how you 
developed your grant guidance and if the state and local 
emergency management professionals provided suitable input into 
those guidances.
    Mr. Paulison. One, it is very important what you just 
mentioned. We do get a lot of guidance from state and local 
governments in making sure that the grants are going where they 
need to go. I meet quarterly with the National Emergency 
Managers Association. I meet quarterly with the International 
Emergency Managers, which are the local communities, and others 
to make sure that we are getting input.
    I have a law enforcement advisor brought on board to make 
sure that those law enforcement grants that we are putting out 
are doing what they need to do, and we use that information we 
get from the governors and others to tweak that guidance every 
year.
    Just for the record, this is the first year that FEMA has 
really had the grant guidance from Day One to move out, and I 
think that is why it is out on time. But, yes, we are doing 
that, and we are working very hard. Like I said, this is the 
first year, I think, that grant guidance met your 25-day 
threshold from Day One to get those grant guidances out the 
door, and we did that.
    Mr. Price. Thank you. Mr. Serrano.

                     PROTECTION OF CIVIL LIBERTIES

    Mr. Serrano. Thank you, Mr. Chairman. Let me just preface 
my comments by saying that some of the things that Mr. Rogers 
has stated are the same frustrations I have had for the time I 
have been on this Committee, which is since the beginning, and 
that is that this whole Homeland Security setup, and there is 
no other way to discuss it, has gotten so much money allocated 
to it, and I do not know what is the bigger issue: Trying to 
have Members of Congress understand this whole setup or finding 
out why, on so many occasions, we seem to get answers that 
indicate that somehow tomorrow we are going to get the answer 
we are looking for, and these budgets keep growing and growing 
and growing.
    Let me mention one of my favorite issues, the whole issue 
of civil liberties. Fusion centers, shortly after 9/11, began 
to pop up in every state to improve information sharing between 
state and federal authorities. Now it seems that many of these 
centers are focusing not only on counterterrorism but on all 
crimes instead of just the one that we thought they were 
supposed to go after.
    I am afraid that this expansion leads to the accumulation 
of a lot of data which we misused and abused, and some folks 
are beginning to complain about that. Do we have a formal and 
systematic means of auditing whether each center is 
appropriately protecting civil liberties or using federally 
funded intelligence analysts in a manner that is consistent 
with national goals and objectives for the fusion centers?
    Let me just finish up by saying that the whole issue of 
Homeland Security and its predecessor, the Patriot Act, still 
leaves many of us very nervous about what our country and our 
civil liberties are going to look like 20 years from now. So 
any chance we have to curtail abuse, I think, is important. 
What can you tell me about this now new role that the fusion 
centers are taking?
    Mr. Paulison. Congressman, I can tell you very clearly that 
the Secretary is very protective of civil liberties. He is very 
concerned about this, and he is making sure that we do not 
abuse that. We want to protect this country. We have to protect 
this country, and we know we have bad people that want to do 
bad things.
    So we are going to gather information, but, at the same 
time, we are going to protect the civil liberties of the 
citizens of this country.
    Mr. Serrano. How you do that, when you are gathering 
information that is not related to the initial mission? What 
would be the purpose of that?
    Let me say that we always hear this phrase, which is 
correct, ``there are bad people who want to hurt this 
country.'' I hope, at the end of the day, 20 years from now, it 
does not turn out that it was some of us who hurt the 
Constitution, and, in the process, let the terrorists win. 
There is more than one way of winning. One is attacking us and 
hurting us and winning that way; the other one is scaring us 
into a point where we throw away the Constitution.
    Certainly, they have hurt us badly in the fact that we have 
to spend so much money now on protecting ourselves, but at what 
point do we say that we do not want to give them that victory 
of throwing away our rights? And why would they be gathering 
all of this information that has nothing to do with these 
particular crimes?
    Mr. Paulison. The fusion centers are following the privacy 
guidelines that are set forth on 28 CFR for criminal 
intelligence and the FOIA for criminal records, and they are 
following those guidelines.
    The fine line you talk about is a concern of everyone, and 
I know for sure that the Secretary is very aware of that and 
very cognizant of that. He is not going to cross that line.
    Mr. Serrano. I always get that answer, with all due 
respect, and answers are very short, and they do not go into 
any elaboration because that is considered top-secret stuff, 
but I know we are hurting ourselves here.

                HOMELAND SECURITY GRANTS FUNDING LEVELS

    Just one quick question. We have cuts to the grants that go 
to the states. New York City, which remains the number one 
target of terrorists, depends heavily on Homeland Security 
Grants, yet this budget wants to cut these grants by $2 
billion. Is this a statement that the way these dollars are 
being used has not been proper?
    Mr. Paulison. No, not at all. We think the budget has been 
spent wisely. The President's budget is the same as what it was 
last year. During the 2008 grants, New York City received more 
money than anybody else, obviously, and more money than it got 
in 2007.
    Mr. Serrano. Thank you, Mr. Chairman.

           CATEGORIES OF GRANTS AND NUMBER OF GRANT PROGRAMS

    Mr. Price. All right. Thank you. Mr. Farr, we hope to get 
your questions in before the vote.
    Mr. Farr. I will be quick. First of all, if you do not know 
the answer, get it for me. How many grants are given in the 
whole Department of Homeland Security for all of the 
subagencies?
    The other thing that I would like you to do is the 
governors submitted their testimony and, Mr. Scheppach, with 
three key principles. I wonder if you would respond in writing 
because those are essentially the general policy issues that we 
would be asking questions on, of how you are going to implement 
those four principles--excuse me--six principles, as stated 
here.
    In this grant funding, what we heard last year was that 
America ought to approach its management of terrorist and 
natural disasters from a risk-management standpoint and use 
FEMA as the basis because we had the responder network 
traditional with FEMA. It does not seem like we use these 
languages, and it is even used in your testimony, and the 
governors used it, but there is no sense of prioritizing what 
those risks are. When it gets down to you saying, well, we have 
three or four grant categories, in your own testimony, I got 
lost after about 12.
    You have got subcategories of Homeland Security Grants. 
There are four different grant programs of that. You have Ports 
and Rail Security Grants, and I do not know how many there are 
within that. You have the Emergency Management Performance 
Grants. You have Response and Recovery programs. You have got 
core grants for different kinds.
    The list goes on and on, and I think that is the 
frustration of this Committee, is that everybody is upset 
because they are not getting funding, but you have got so damn 
many grant programs, and maybe they are going to the wrong 
door.
    Where is that kind of one stop based on risk management of 
how we are going to try to implement the training in an ongoing 
infrastructure development? I would really love to have you 
respond to that. I do not think we have time because we have to 
go for a vote, but maybe we could put some of that in writing.
    Mr. Paulison. We can do that. We put these into three 
categories to try to simplify it to make it easier.
    [The information follows:]


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Farr. But then you do not because simplifying is 
essentially one stop. What you are saying to somebody is, 
``Well, you have got to fit into these three our four 
categories, and then within each of them there is a dozen or 
so.'' So you have not really eliminated any grant programs; you 
have just wrapped them in different packages.
    Mr. Paulison. We have not eliminated any grant program. 
That is correct. But we did try to put them into categories 
that would give the states much more flexibility, and we did 
put a very comprehensive risk program in place, and I think the 
GAO did comment on that, that it is much clearer, much more 
visible than it has been, and we are going to continue to make 
it much more transparent so that the states know exactly what 
the risk we are looking for is so they can apply for----
    Mr. Farr. Just within your department, how many grant 
programs are there, total?
    Mr. Paulison. I would have to give you that in writing, go 
back and count them.
    Mr. Farr. You do not even know, there are so many, and 
then, within Homeland Security----
    Mr. Paulison. There are three basic chapters of grants, 
and----
    Mr. Farr. No, not chapters, just total grant programs 
because each one of them gets administered differently.
    Mr. Paulison. But the three chapters stop them from being 
administered differently. It puts them into categories where it 
makes it easier for the states to apply. Last year, we did 16 
grants, and there were 16 different grant guidances.
    [The information follows:]


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Farr. So how many jobs did you eliminate when you put 
them all in these neat little packages?
    Mr. Paulison. With the same amount of money and the same 
amount of work, it does not really eliminate jobs.
    Mr. Farr. There is less money to go to the states because 
there is still the bureaucracy here in Washington. That is what 
I am getting at. Thank you, Mr. Chairman.
    Mr. Price. Thank you. We will adjourn briefly. We have 
Members coming back momentarily from the vote, so we will try 
to minimize the break. Thank you.

                      HIGH-THREAT HIGH-RISK AREAS

    Mrs. Lowey [presiding]. Okay. Good afternoon, gentlemen. 
Before I begin my questions, I would like to say that I think 
Director Paulison has implemented several positive reforms at 
FEMA. We all know a great deal remains to be done, but your 
experience and your leadership have really helped this agency, 
which had so many problems before you took over. So I am very 
grateful.
    Mr. Paulison. Thank you.
    Mrs. Lowey. However, the White House does not provide 
adequate support, which is really disappointing. November's 
lead pass-back budget document from OMB highlights the efforts 
of some in the administration to dismantle local grant 
programs, and while DHS, and, presumably, you, had requested to 
either level fund or increase funding in many areas, OMB sought 
to eliminate nearly every existing grant program and, despite 
the rhetoric, providing support for first responders has never 
been a priority of the White House.
    I know that you and I truly agree that supporting the first 
responders is absolutely critical. So, hopefully, we will be 
able to do better in this Committee.
    At the Subcommittee's first hearing on management issues, 
Ranking Member Rogers expressed dismay over the inability of 
DHS to track First Responder Grants to determine our 
capabilities and match those against our preparedness and 
response objectives, and I strongly agree.
    As Mr. Rogers stated, many First Responder Grants are used 
for purposes that do not directly contribute to national 
security. However, I do not think this is the fault of 
Congress. This is a failure of the administration, which has 
consistently failed to allocate grants in a manner that 
improves our national security.
    First, every bill that this Subcommittee has passed has 
said that funding for the Urban Areas Security Initiative is 
for high-threat, high-population-density urban regions, yet the 
Department repeatedly awards funds to places like Toledo and 
Omaha, cities that, lucky for them, are neither high threat nor 
high risk.
    Second, the Department needlessly dilutes funds for likely 
targets by increasing the number of UIC areas. When the program 
began, there were seven cities receiving funds. In Fiscal Year 
2008, that number will likely balloon to 60. There is nothing 
in current law that specifies a floor for the number of areas 
that can receive funds, but the Department has taken it upon 
itself to fund boondoggles in areas that terrorists could not 
find on a map instead of providing adequate support to vital 
programs in New York.
    Third, for the second consecutive year, the Department has 
placed a cap on funds for the most at-risk areas. You safeguard 
45 percent of the funds for areas not in the top risk tier, and 
that means that New York and Washington, D.C., compete against 
one another while nearly half is held back for areas that face 
less risk.
    The Department's failures have very real consequences. In 
New York, Mayor Bloomberg spends $200 million a year on 1,000 
counterterrorism and intelligence officers. Your Fiscal Year 
2008 grant guidance runs contrary to previous years and H.R. 1 
by stating cities cannot use funds for intelligence personnel 
other than for newly hired analysts, and this does not make any 
sense to me. Police Commissioner Kelly is not going to rely on 
green officers to do this critical task, which includes 
undercover work, intelligence gathering.
    This program clearly benefits national security, but the 
Department's grant guidance hampers it.
    So, Director Paulison, to all the compliments I gave you, 
why does DHS consistently ignore congressional mandate and 
award UIC funds to areas that are not high-threat, high-
population-dense cities, and why are you increasing, instead of 
decreasing, the number of UIC areas, and why do you prevent the 
most likely targets of a terrorist attack from competing for 
all of the funds in the one program dedicated to high-risk 
areas?
    By the way, my colleagues who represent these other 
wonderful places should get funding for those wonderful places, 
but just not out of a fund that is clearly for high-risk areas. 
I would love you to respond.
    Mr. Paulison. Thank you, Madam Chair. There are a couple of 
things. A couple of the grant programs that you talked about 
earlier--the EMPG and the Firefighter Grants--are not really 
authorized as terrorist grants, so I need to take those out of 
that particular category.
    The minimum standards for the states are really set by 
Congress. In UIC, the number of 60 is consistent with 2007, 
based on the fact that the metropolitan statistical areas 
changed, and that allowed us to add more cities to the thing.
    Mrs. Lowey. They are all high risk, those 60 cities?
    Mr. Paulison. They are all part of the UASI cities and part 
of that MSA grouping.
    Mrs. Lowey. But you would classify them as high risk, in 
the same category as New York and Washington, D.C.
    Mr. Paulison. They are not all in the same categories. 
There are different tiers. Obviously, to cities like New York, 
that group did not change. The second tier changed. We added 
more into the second tier, but the top tier did not, and I 
know, last year, New York City not only received more money 
than anybody else but received more money than it did in 2007.
    Mrs. Lowey. That is a good thing.
    Mr. Paulison. That is a good thing because it is a high-
risk city. We also have to remember that the Oklahoma City 
bombing was a terrorist attack, and that was not necessarily a 
city like New York. So we have to do the best we can to spread 
the money out as fairly as we can to provide those other large 
cities, although they are not the New Yorks, not the L.A.'s, 
not the Houstons, not the Washington, D.C.s, but they still 
need some level of assistance also, based on the threat that we 
have.
    The terrorists would obviously love to go to New York City. 
We saw that, and I lost 341 of my friends there. And they would 
love to go into L.A. or Houston or Washington, D.C., but those 
other cities are vulnerable also.
    So what the Secretary is trying to do with our risk-based 
approach is to, yes, hit those big cities but also provide 
dollars to the other ones. There is only so much to go around, 
and I know that, and this Secretary is really trying to be as 
fair as he can, covering the cities that we think we need to 
cover and give those that are most at risk some dollars to 
protect themselves.
    Mrs. Lowey. I just want to make my position clear. I 
understand that some of those cities which I have referenced 
should get money, and they certainly should. They need a strong 
fire department, a strong police department, EMS, et cetera, 
and the first responders have to be prepared, but it should not 
come from a high-risk program. What is the name of this 
program?
    Mr. Paulison. Urban Areas Security Initiative.
    Mrs. Lowey. Is it not defined as a high-risk area?
    Mr. Paulison. Yes.
    Mrs. Lowey. Okay. That is all I am saying. The others 
should get money, but they should not get it from a program 
that is specifically defined as high risk.
    Mr. Paulison. Understood.
    Mrs. Lowey. I am glad you understand. So what can we do 
about it now before I turn the chair back over to my good 
friend.
    Mr. Paulison. Thank goodness you came back.
    Mrs. Lowey. Go right ahead, Mr. Price.
    Mr. Price [presiding]. You probably need somebody from a 
nonurban area here, too, to bring a little balance to this 
hearing. All right.
    Has your time expired, or do you want to continue?
    Mrs. Lowey. I think so.
    Mr. Paulison. Thank you. The Secretary is committed to work 
with Congress, and he understands some of these issues that you 
have.
    Mrs. Lowey. There is no problem with them getting the 
money, but----
    Mr. Paulison. Understood.
    Mr. Price. Thank you, Ms. Lowey. Mr. Carter.

                         FEMA GRANTS MANAGEMENT

    Mr. Carter. Thank you, Mr. Chairman. I am trying to get a 
handle on grant management and spending.
    DHS, at the department level, in 2009, is requesting $3.4 
million plus 10 FTEs, half of the new grant programs are 
managing over CDs covering all of the grants in DHS, but in 
FEMA there are many reforms and initiatives that are underway, 
but no specific funding has been requested for Fiscal Year 
2009. It is unclear whether FEMA is actually staffed [off mike] 
to effectively manage [off mike].
    It is important, and we are concerned about whether or not 
there is going to be staffing to have the oversight and 
management of these grants. This is something that is a high 
priority, I think, with the American people as it is with this 
Committee. So I would like to know if those systems are in 
place, and, if not, why we are not asking for the resources to 
put them in place?
    Mr. Paulison. Yes, sir. They are in place. The money that 
we use--we take a percentage of the grants. We are allowed to 
take up to three percent--we do not usually do that--to staff 
FEMA. The staffing at DHS headquarters that 10 people are 
asking for; we had to set up an oversight group over all of the 
grants in DHS. All of them are not only FEMA; there are some 
others out there.
    Actually, it is going to help me, having somebody looking 
over my shoulder to make sure that we are doing what we are 
supposed to do, so I really do not have a problem with a small 
oversight group like that to watch us with the grants, work 
with us, and make sure that we are managing the way we should 
be managing them.
    Mr. Carter. So if I understand you correctly, then a piece 
of each grant is set aside for people that are going to be 
overseeing or managing these programs.
    Mr. Paulison. Yes, sir. That is correct.
    Mr. Carter. Now, what I want to know, is that going to be 
sufficient, or are we going to be reading about this in the 
newspaper this time next year?
    Mr. Paulison. No, sir. I surely hope not. I try to stay out 
of newspapers as much as possible. I have not been very good at 
it, have I?
    Yes, it has been sufficient, and if it gets to a point 
where something is not sufficient, I will come to this 
Committee and let you know that.
    Mr. Carter. That was the number-one reason for my concern--
--
    Mr. Paulison. Yes, sir.
    Mr. Carter [continuing]. Is making sure this Committee, 
under this Chairman, has set out a goal of oversight across the 
board. I support the activities of oversight of this Committee, 
and I think we are willing to fund it, make sure it is there. 
You are telling me it is sufficient. That is the answer I want 
to hear, and that is the answer I am going to hold you to.
    Mr. Paulison. Sir, this Committee has been very supportive 
of us, and it has been much appreciated, and I do feel like we 
have done a partnership.

                           GRANT OBLIGATIONS

    Mr. Price. Thank you. Mr. Paulison, I want to try to shed a 
little further light, if we can, on this grant pipeline 
question about what has been obligated, what has been expended, 
and what kind of funding is required, in addition to what may 
be in the pipeline.
    I would like to ask Mr. Scheppach, who has, I know, 
thoughts on this and expressed some of them in his statement, 
and also, Mr. Jenkins, if you have thoughts, I hope you will 
chime in.
    I am seeking clarity here, but it is clarity with a 
purpose. I think, when we have the Secretary seeming to 
minimize the need for any new grant funding and to justify that 
in terms of what is ``in the pipeline,'' then we need to look 
pretty carefully at what he is talking about. It is central to 
the justification of the budget numbers before us.
    Here is what the Secretary said when he was asked about the 
decrease in grants funding proposed for 2009. He said, I quote, 
``Over a six-year period, from Fiscal Year 2002 through Fiscal 
Year 2007, grant recipients have drawn down $12.7 billion of 
the $19.8 billion made available since the Department's 
inception. On February 1, 2008, the Department announced an 
additional $3 billion in grants to be provided this year, 
including congressional approval of the Fiscal Year 2009 
request, and a total of $13 billion would be in the pipeline 
for state and local Homeland Security needs.''
    Now, maybe some of this will need to be clarified for the 
record, but I want to see what we can do here in the time 
available to us today.
    The Department is pointing to these funds as if there is a 
pool of untapped funds just ready and waiting to be used, and 
the implication is that state and local governments have not 
figured out a way to use the money, or, in any case, they 
certainly do not need more money.
    That argument seems to me to be steeped in flaws, and I 
think it implies unfairly a blame that is, by and large, not 
deserved by state and local governments.
    For example, let us look at the Public Safety Interoperable 
Communications Grant program. The Department points to that $1 
billion program as funding obligated but yet to be spent. But 
it is the Department, as I understand it, that has not allowed 
the states to spend that money. According to FEMA's own budget 
documents, the release of these funds will not begin until this 
month. I am not sure why, but I do know that that is no fault 
of the recipient agencies. I do not believe it is. If it is, I 
would like to know about it.
    Also, we have heard that, in the Transit Grant program 
funds, that they have been obligated, but projects will not be 
approved by DHS until a year later.
    So, at least in those two instances, it looks like the 
projects are being stalled by the Department, not by the states 
and localities.
    So, I am just looking for some explanation of what is going 
on here. What is the point of obligating funding that truly is 
not yet available for states and localities to use, and then 
what validity to these in-the-pipeline numbers have when we are 
looking at 2009 appropriations needs?
    Mr. Paulison. Thank you, Mr. Chair. First of all, I do not 
think that is what the Secretary stated at all. I do not think 
he meant that they were sitting on the money and not spending 
it. I think they are actively moving the dollars as quickly as 
they can. Some of the dollars take longer to spend than others. 
I think what he was saying is, as Mr. Rogers said, there are 
unrealized capabilities out there.
    So I think it is a combination of dollars that are there to 
be available, dollars that we are trying to move out the door. 
There was $50 million in Interoperable Communication Grants 
that we received in 2007 that we are just now putting the grant 
guidance out for that of the $1 billion that you talked about. 
So there is a lot of money out there.
    What the Secretary, and I do not want to second-guess what 
he was saying or try to interpret what I believe he said 
because I was standing alongside of him when he said it, was 
that there is a lot of money out there in the pipeline, and it 
did not make a lot of sense to dump more money out there that 
could not be spent this year if we can now put it back in the 
2010 budget. If we are not going to spend it all this year, why 
put it out there if it is not going to be spent?
    So that was the thought process that I got through that. So 
I do not think he was blaming the states at all. I do not think 
he was saying that the states were sitting on the dollars. I 
think that what he was saying was that some of these dollars 
are more difficult to spend. Some projects take longer to 
complete. I will ask Mr. Scheppach if he agrees or disagrees 
with me, but that was my interpretation of the Secretary's 
comments.
    [The information follows:]


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Mr. Price. Well, if the states and localities are not 
sitting on the funds, who is sitting on the funds? Are we just 
talking about a kind of inherent difficulty here, or is there a 
process that can be made more efficient and more responsive?
    If you want to reference these two programs where the 
problems seem especially acute, I would be happy to have you do 
so: the Public Safety Interoperable Communications Grant 
program, where the states have not been allowed to spend the 
money until this month, and this Transit Grant program, where 
there is a kind of formal obligation that has taken place, but 
the projects have not been approved.
    Does this look like, if not stalling, then delays that need 
to be improved upon to you? What would you say about that? It 
certainly does confuse the funding picture. I will grant that, 
but there is something, I think, strange about using these 
delays. Assuming the Department is working on expediting the 
release and the productive expenditure of these funds, there is 
something strange about using these delays as a justification 
for an extraordinarily low budget request for 2009.
    Mr. Paulison. Once again, the request that was made is 
consistent with what the President has asked for for the last 
couple of years. So the President has been consistent with 
that.
    Secondly, I do not think there are any purposeful delays. I 
do not think there are any bureaucratic delays. I think that 
some projects just take longer than others to move out the 
door. The $1 billion that we talked about with the 
Interoperable Communications Grant is working extremely well 
with the Department of Commerce. We have a great partnership 
there. That is a competitive grant that is going to go out. It 
takes a while to process those grants and get those 
applications out, and get the states to move back in and make 
sure that we evaluate those properly.
    Again, there was no indication from the Secretary that he 
was casting any aspersions on the states at all. I think that 
just some projects take longer. He was saying there is a lot of 
money out there ready to be spent that has not been spent yet, 
and it takes a while to go through that process.
    Mr. Price. If I am hearing you correctly, you seem to be 
arguing it both ways, by which I mean, you are saying, on the 
one hand, that these appropriations requests for 2009 are very 
much in line with what the administration requested for a 
number of past years, and there clearly is some truth in that. 
On the other hand, the secretary seems to be saying that there 
is some extraordinary backing up of funds in the pipeline here 
which justifies the lower request.
    Now, which is it? Is it a matter of simply not believing 
these kinds of expenditures are warranted, that they are not, 
as Mr. Rogers perhaps was suggesting, there is simply not an 
appropriate federal role, or is it a matter of a pipeline 
problem that, once it is resolved, will lead to more robust 
requests?
    Mr. Paulison. I do not think there was any inconsistency 
with what I was saying. The President recommended the same 
amount of monies as he did last year and the year before that 
because there is plenty of money there. There was no reason to 
come out with the amount of money that was appropriated last 
year. We keep talking about a cut that, for the Firefighters 
Grants, for instance, $300 million was recommended. That is 
less than was appropriated last year, but the same amount was 
recommended.
    So what I am saying is that the recommendation was 
consistent because that seems to be the amount of money that 
will flow through the system at any one time.
    Mr. Price. Mr. Scheppach, do you have anything to add?
    Mr. Scheppach. My sense is that the $13 billion is not a 
realistic number. Again, it combines obligated with unobligated 
and, as I remember, it even included the 2009 number, which is 
not appropriated yet, so it is a very, very large number.
    A couple of years ago, we actually looked, in a fair amount 
of detail, at the State Grant program and what was the problem 
with respect to expenditures flowing, and when you get into 
some of the details, you realize that it often takes the agency 
60 days to, in fact, release the money until its appropriation. 
There is a requirement that 80 percent of that go to local 
governments.
    States are reluctant, I think, and rightfully so, to have 
local government obligate until a state plan is, in fact, in 
place so that it is a fully integrated plan, and then each 
level of government has to essentially follow their own 
competitive-bid rules, so that, in fact, takes time.
    So a lot of this is capital types of things, and you are 
not going to outlay those perhaps for a couple of years until 
the goods are, in fact, available.
    So there are a number of issues and steps along the way, 
and I think that what we want, again, is the most efficient 
operation. We do not really want to push money out there.
    So I do not think we should look at the so-called 
``pipeline'' type of thing. You would have to focus on any 
unobligated balances, but those are not particularly large at 
this point in time.
    Mr. Price. Mr. Jenkins, is this something the GAO has 
looked at or would want to look at more carefully?
    Mr. Jenkins. Yes. I may be able to shed a little bit of 
light on the interoperable communications issue.
    Every state was required to have submitted a state-wide 
interoperability plan by December of 2007. Those plans are 
currently being reviewed in DHS. Their goal is to have those 
plans reviewed by the end of this month, and the monies that 
the states are using for interoperable communications are to be 
spent in compliance with those plans.
    In addition to that, the new Office of Emergency 
Communications is supposed to have, by July, a National 
Emergency Communications Plan for the nation.
    So our view would be to look at why the money has not been 
spent. In some cases, in our view, for example, not having 
spent the interoperable communications money, at this point, is 
actually a good deal, not a bad deal. In other words, they 
should be spent after you have done the appropriate planning.
    You know what the requirements are, how they are going to 
fit, and so forth, so that is not necessarily a bad thing. It 
does not indicate that either the states or DHS has not been 
spending the monies appropriately. They should be spent 
according to clear plans about how you are going to do it and 
how you are going to fit the puzzle together.
    I think the problem that the states also then worry about 
is the fact that these grants have a finite life and that they 
are concerned that if they do not get them in a certain amount 
of time, it gives them a very short period of time in which to 
spend them.
    It is also, as my colleague from the Governors Association 
said, the type of expenditure rules how fast they are being 
spent out. It is usually a little bit easier to spend it for 
training or those kinds of things than it is if you are buying 
capital equipment. There are very few manufacturers of these 
large, mobile, interoperable communications trucks, mobile 
communications centers, so that a lot of that kind of stuff is 
in the pipeline, whereas, as indicated, it has been obligated, 
but it has not been expended yet because it just takes time for 
delivery. There is a backup for those kinds of things.
    That is why, when I said earlier in my statement, what we 
think is important is to look at what is being spent for what 
purpose and where it is, and then you have some sense of 
whether or not this a problem, or it is not a problem.
    Mr. Price. Has that been looked at systemically by your 
office or any other?
    Mr. Jenkins. No. We have not looked at that systematically, 
and, as I said in the statement, the oral statement, it is 
difficult to look at it because if you are trying to look at it 
over time, the reports are not consistent over time in terms of 
how they categorize the data. In some cases, three or four 
grants are collapsed and reported in one year, and, in another 
year they are separated out.
    So if you want to take, say, 2003 or 2004 money and say how 
much of it was obligated in 2004 for what purposes, and how 
much of it was obligated in 2005, it is difficult to do that, 
the way the monies are reported.
    Mr. Price. I am sure you are correct in suggesting, as Mr. 
Paulison did as well, that sometimes there are very good 
reasons for a deliberative process that proceeds at a slow pace 
relative to other programs.
    On the other hand, there are some pressures that we are 
feeling on this Committee, and I am sure the agency is feeling, 
for money that is needed and that is going to be legitimately 
applied to Homeland Security purposes, preparedness purposes, 
for that money to be available and expended in a timely way.
    Another aspect of this is raised when the Secretary of the 
Department uses the pipeline as a rationale for what seemed to 
us to be inadequate budget requests, if it is being used as a 
rationale or a rationalization for that.
    So that is why it is important, I think, to make some 
distinctions here and understand what may or may not have a 
sound justification in terms of the way this process is going 
and what is inordinately and what is not.
    So it may be that we want to call on your services to help 
us sort that out, as we often do. We certainly need to look at 
this. I am convinced of that.
    Mr. Carter, do you have some more questions?
    Mr. Carter. Yes, Mr. Chairman. I would like to continue 
[off mike]--thank you for turning it on.
    You know, we have to deal with the local communities, and 
we have to work with the local communities. In fact, my county, 
which is one of the fastest-growing counties in the nation, 
Williamson County in Texas, decided that they would make an 
application for a county-wide interoperability to tie in with 
what was done county-wide in Basrup county-wide and Travis 
county-wide and Burnett county-wide and Hays County, which are 
all counties that all surround us, to put our greater 
metropolitan area under interoperability, and they did not get 
the grant.
    Of course, the first thing they said to us was, Well, there 
is $7 billion sitting there that nobody is using, and we do not 
understand why we were told to do it this way. We did it this 
way, and we did not get the grant, and the Austin firefighters 
are screaming bloody murder at us because we are not 
interoperable with them.
    Now, I have to answer that question, and that is, I think, 
why the Chairman is raising this issue. We have got a lot of 
issues, in addition to it is good management policy as to how 
you use your money as you make requests for further money. But 
the public knows there is $7 billion sitting out there, and 
they see all that money sitting out there, and they see that 
people are hoarding it, or they are playing games, or whatever.
    That is why I think something has to make this clarified. 
As the Chairman is raising the issue here today, I would like 
to join him in raising that issue. I want to point out a local 
issue and how that can affect life back home, so I throw it out 
to you for discussion.

                    OBLIGATED VERSUS EXPENDED FUNDS

    Mr. Jenkins. Well, I think that you are right. There is the 
issue between the difference between whether the money has been 
obligated and whether or not it has been expended. In other 
words, you have received the goods and services, and you have 
to pay for them.
    So I do not have the data on how much has been obligated, 
but I suspect a fair chunk, or a very substantial chunk, of the 
money is actually obligated. In other words, for example, in 
your case, had you gotten the grant, it would have been very 
likely that you would have that money obligated to buy those 
radios or do whatever you need, but it may take a while to get 
the equipment, and, therefore, it is unexpended during that 
period of time because you are not going to pay the contractor 
until you get----
    Mr. Carter. I do not want to make this personal to me. I 
would also point out that we have got a Member of this 
Committee that wants to get money to the border sheriffs. Every 
time he hears about a nickel of any money anywhere, he is over 
bending the arms and breaking the backs of our Chairman, 
saying, I happen to know that there is $7 billion out there 
that you can give to the border sheriffs. I think the Chairman 
is well aware of whom I speak.
    So if that is obligated money, then it needs to be clear, 
for someone seeking to look for it, that that is obligated 
money, and if it is not clear, then there is something wrong 
with the system, and I think that is probably the way I would 
view this discussion here. If it is obligated, then it ought to 
say there is $7 billion out there, but $6 billion of it is 
obligated. Then we have a clear picture of what it is, and if 
we have questions, then we ask, how long is this obligation, 
and where is the obligation going? That is kind of what I would 
like as my follow-up to what the Chairman is saying.
    Mr. Jenkins. I think it would be two things that I would 
say.
    One, I think it is important to know whether or not it is 
obligated or not. I think the other thing is to know what it 
has been obligated for because some of it is going to spend out 
more quickly than others, so I think, as well, to understand 
what it has been obligated for, not just the fact that it has 
been obligated, and where that obligation is. The way the 
reports that we look at or have is that it is considered 
obligated when it is at the federal level when it is sent down 
to the states. That does not mean it has actually been used.
    So you really need, then, information on what the state has 
obligated versus what the localities have obligated, and that 
is the data that we do not have.
    Mr. Carter. I think we need to get accumulated somewhere so 
that we can get a clear picture of what is there so we can at 
least have a decent argument when we are talking to people 
about this stuff.
    Plus when you are talking about this communications 
interoperability, as I recall, right after the buildings fell, 
the first thing we started talking about in this Committee was 
communications interoperability, and that filtered down very 
quickly to the local level at every level, and everybody knew, 
and most people knew, that they did not have interoperability 
in their communications. So I think everybody jumped on that 
bandwagon that I know of; at least in my part of the country, 
they did.
    So that clearly is something that everybody is interested 
in, and if they look at those funds as that is what they were 
there for, then they are going to want to know why they cannot 
get their hands on it because it is a crisis for us in our part 
of the country.
    Mr. Jenkins. I do understand that. I think one of the 
things I would say is--I will not mention the state, but the 
reason we are big on the planning for the use of the money is 
there is one particular state that we looked at that spent $14 
million on interoperable communications, and they did not work, 
and they had to go back to ground zero because it was not 
thought out as to how they were going to use it.
    In your case, for the example you gave, you are just trying 
to get yourself into compliance so that you can talk to 
everybody that is around you that is already in the system, and 
you are just the odd man out at the moment.
    Mr. Carter. I am not trying to make this personal. Part of 
my story is not that I expect you to go run back and write me a 
check. The point of this story is that people back home know 
about $7 billion in funds, and that makes it an issue. I want 
to make it very clear, I am not looking at it the other way 
around.
    Mr. Jenkins. And they just do not know what the $7 billion 
actually represents.
    Mr. Carter. Exactly.
    Mr. Jenkins. Got you.

                    STATE HOMELAND SECURITY PLANNING

    Mr. Scheppach. I might make one comment. Having the money, 
when it goes to states, to enforce the planning is a very 
powerful tool because, a lot of times, if there is not money 
behind it, it is hard to bring all locals to the table and 
agree on a particular plan, whether it is interoperability or 
something else.
    So I think what states do is that they are unwilling to 
allow local government to obligate until they have developed a 
fully integrated plan. I think that is a very important part of 
it because, even in your case, if several counties got 
together, and later you find out it is inconsistent with where 
the state is going, and you cannot link to everybody else, it 
is money poorly used.
    Mr. Carter. I do not think that is the case, since I am 
talking about the state capital.

                ASSISTANCE TO FIREFIGHTER GRANT GUIDANCE

    Mr. Price. All right. Thank you. I have just a couple of 
quick questions to wrap up here, one following up on the fire 
grant discussion; the other having to do with the Emergency 
Food and Shelter program.
    Administrator Paulison, during last year's hearings, you 
probably remember we discussed fire grants at some length, and 
part of that discussion revolved around concerns that FEMA had 
not peer reviewed close to half of the grants that met 
eligibility requirements.
    So, for Fiscal Year 2008, the Committee required FEMA to 
peer review all applications that meet criteria established by 
FEMA and the Fire Service and required those criteria to be 
clearly articulated in the grant application package. 
Applicants whose grant applications are not reviewed must 
receive an official notification detailing why the application 
did not meet that threshold criterion for review.
    Now, I note that the grant guidance was recently issued and 
that the criteria for peer review is included. You can maybe 
characterize that briefly. We might want to put into the 
record, at this point, the information that was sent out to the 
applicants.
    How restrictive are these criteria, would you say, relative 
to the number of applications you have been getting in recent 
years, and what kind of results do you anticipate? Let us hope 
you will get applications that are more clearly articulated in 
terms of the eligibility criteria.
    What would you say about the way this process is going to 
be implemented going forward?
    Mr. Paulison. The fire grant application process is one of 
the most mature and sophisticated that we have. In fact, what 
we are doing is transitioning a lot of our grant processes that 
we inherited to the same type of system we use with the fire 
grants.
    We expect a lot of good applications. We do workshops out 
there. We hold seminars. We put information online. I try to 
walk them through exactly what the criteria is every year, if 
it changes the least little bit, to make sure they know what 
the priorities are.
    Now, some people will apply for things that they know are 
not a priority because that is what they need. They may need a 
fire boat, and that is not necessarily a priority over somebody 
getting a self-contained breathing apparatus, which is the most 
important. So they may not make the cut because, although it is 
something that they really need, it is not one of the 
priorities that we set down, and they will do that consistently 
from year to year.
    But we have been getting better and better applications. 
All of the eligible applicants will be peer reviewed, as you 
requested last year. I just signed the Federal Register notice 
yesterday, so that should be available either tomorrow or 
Thursday, for sure, for them to look at to see exactly what the 
guidelines are.
    So that is going out. We are getting that out early. The 
application has already gone out. The grant guidance has 
already gone out so they know what is out there, and we will 
start our workshop fairly soon. We do that in every state. We 
do a couple in every state. We have got grants people out in 
every region now that we did not have before to make sure that 
we reach as many people as possible to actually literally walk 
them through the process and show them how to fill out those 
grant applications, tell them what the priorities are so their 
grants can be eligible.
    [The information follows:]



[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


   ASSISTANCE TO FIREFIGHTER GRANTS CRITERIA AND NATIONAL PRIORITIES

    Mr. Price. We probably do not have perfect agreement on 
this Committee as to what the appropriate federal role is here, 
but I think the question Mr. Rogers asked earlier is a fair 
question as to what kind of overall national priorities are 
reflected in these criteria, the kind of selectivity you are 
going to exercise with respect to these grants.
    This question also comes up, for me, in the context of your 
budget request, which is a substantial cut. I do not know if 
the suggestion is that whatever these priorities are, they have 
largely been addressed by previous years' appropriations. Given 
the level of need out there, I doubt that that case could be 
made, but are you, in this exercise, trying to delineate, maybe 
for the first time, a federal role as opposed to what kind of 
support the fire departments might seek from other sources?
    Mr. Paulison. All response is local, and the responsibility 
of local fire service falls on that local government. However, 
since 2001, the Federal government has been helping, unlike 
most other grants, strictly with helping a local community 
build their fire department, provide the equipment that it 
needs to provide day-to-day response, aside from terrorism or 
anything else. That has been a good thing.
    Again, if this budget is passed with the President's 
recommendation, it will be $5 billion that is going to local 
fire departments. It does not go through the state. It does not 
go through the city. It goes right to the fire department, and 
that has been hitting volunteer fire departments, it has been 
hitting paid fire departments, union fire departments, pretty 
much across the board.
    We have put more money into the fire service in this last 
eight years than we have ever in the history of the government, 
right to the local community. So it has had a big impact.
    We see people with turnout gear, self-contained breathing 
apparatus, training programs, fire trucks, safety equipment 
that they have never had before, nor where they had the ability 
to ever get. So it has been an extremely successful program.
    The President's submission request this year of $300 
million is consistent with what he has asked for in the last 
several years. We feel that that is a sufficient amount of 
money to put into the system, considering we have put $5 
billion, or $4.7 billion, out there already. Congress, every 
year, has raised those dollars, as it has the authority to do, 
and the President has submitted what he thinks are his 
priorities, which he has the right to do.
    So that is how the budget works, and I am sort of telling 
you something I should not be telling you; you already know 
that. I spoke to the firefighters yesterday, and we talked 
about some of these issues and walked out of it with a standing 
ovation. They know that we are supporting the fire service in 
ways that it has never been supported before, and not just with 
the fire grants. All of the First Responder Grants that are 
going out there, the training we are putting out there, the 
exercises.
    The TOP OFF Exercise involved the Portland Fire Department, 
and they were heavily involved in that, and they got a lot of 
money that we dumped into that department, helping us with that 
exercise.
    So all of these things blend together. It is not one 
particular thing. It is not just the fire grants; it is helping 
the local first responders. It is all of them tied together.
    Mr. Price. It clearly is all of them tied together, and I 
am happy to hear you were well received by the firefighters, 
and you personally deserve that for the conscientious way you 
have administered this program. We will look with interest on 
these further guidelines.
    I will not ask you to comment on this, but my own view, 
unsurprisingly, is that the budget requests do not really back 
up what you are saying. The kinds of successes we have enjoyed 
have been largely because Congress has come in and increased 
each year these budget numbers so that we have been able to 
serve more communities.
    As you well know, we are looking at a zeroing out of the 
SAFER program. We are looking at a cut for the fire 
administration. We are looking at some problematic budget 
numbers, which, as you acknowledge, we will just have to deal 
with.

                   EMERGENCY FOOD AND SHELTER PROGRAM

    All right. Quickly, on Emergency Food and Shelter; this is 
one of the smallest programs in your portfolio. It probably has 
the largest relative impact on its recipients. The budget 
requests $100 million for this program. That is a reduction of 
$53 million, or a 35 percent cut from the current fiscal year.
    This program allocates funding to counties and cities based 
on the number of unemployed and the poverty rate. Program funds 
are used for food, shelter, rent, mortgage, utility assistance 
programs for people with nondisaster-related emergencies.
    Administrator Paulison, in announcing the Fiscal Year 2008 
awards, you noted that, and I am quoting, ``the program has an 
extraordinary history of providing food and shelter for 
families over the past 25 years, but there is now an 
unprecedented demand on our shelters for the newest population 
in need: the working poor. I am grateful a program like this 
exists for families struggling to make ends meet, even after 
the paycheck runs out.''
    I think those are eloquent words, and I would agree with 
that description of this program. Again, though, I am asking 
you about the connection, the connection with the funding 
request that FEMA is making for the program.
    What precisely is the justification for reducing this 
program?
    Mr. Paulison. We feel that the $100 million that we asked 
for this year will be sufficient to meet our needs for the 
upcoming year. It has been a successful program, and working 
with the other agencies, like United Way and Red Cross and 
other volunteer agencies, FEMA is getting more and more 
involved than it has in the past and getting them more involved 
in some of the things that we do. We feel that the $100 million 
is sufficient for this year.
    Mr. Price. What kind of mortgage assistance are we talking 
about in this program, just apropos, the current challenge we 
face?
    Mr. Paulison. Under this program--I have figures from 2000 
to 2006--we provided 248,000 families with either assistance 
with rent or mortgage payments or utility payments. That is 
outside of the disaster relief. We are not talking about any 
hurricanes or tornadoes. This is strictly for, primarily 
through the United Way, reaching out to families who are in 
need. I served on the United Way board in Alameda County, and 
it does reach out. That is what this money primarily goes 
through, agencies like that to assist families that are in 
need.
    Mr. Price. And, no doubt, you are experiencing a much 
greater demand in that area now for rental and mortgage 
support.
    Mr. Paulison. I cannot say that. I do not have those 
numbers in front of me right now.
    Mr. Price. It would be a miracle if you were not, given the 
situation in the country.
    Mr. Paulison. We have had a lot of disasters, too, so we 
are providing a lot of that stuff through the Disaster Relief 
Fund, particularly in Louisiana, Mississippi, and some of the 
other states who have had disasters. So maybe, again, some of 
those people who would normally be receiving assistance through 
the United Way could be getting assistance through the Disaster 
Relief Fund. That is anecdotal.
    Mr. Price. All right. Well, I do not believe what you have 
said adds up to a justification for this reduction; we will, of 
course, look at this carefully. As you started to say?
    Mr. Paulison. So what I will do is I will get with United 
Way and find out what they are showing, as far as their needs, 
and they are the primary agency that we funnel money through in 
this program, along with several others.
    Mr. Price. That would be helpful to furnish that for the 
record, the kind of needs out of the equation here, which, of 
course, is relevant to the amount of funding required.
    [The information follows:]

    Further information on mortgage assistance in conjunction with 
United Way:
    FEMA awards Emergency Food and Shelter Program (EFSP) funds to a 
national board that governs the program and selects jurisdictions for 
funding based on an established formula. The National Board is chaired 
by a representative from FEMA and composed of representatives from 
American Red Cross, Catholic Charities USA, National Council of the 
Churches of Christ in the USA, The Salvation Army, United Jewish 
Communities, and United Way of America. Local Boards are convened in 
those qualifying jurisdictions to determine the highest need and best 
use of funds and to select Local Recipient Organizations (LROs) that 
will provide emergency food and shelter services. Each year, needs are 
to be assessed in an effort to adapt to particular community needs. The 
Secretariat and fiscal agent, selected each year by the National Board, 
is currently the United Way of America.
    For the past three fiscal years Local Boards nationally have funded 
rent/mortgage assistance as noted in the chart below. The units of 
service for fiscal years 2005 and 2006 were reported on LRO Final 
Reports. Fiscal year 2007 units of service are estimates as 2007 Final 
Reports are currently being reviewed. Additionally, bills paid 
partially with EFSP funds are reported by LROs as bills paid, as some 
Local Boards and LROs set caps on the amount of assistance in rent/
mortgage in order to help more individuals/families.

------------------------------------------------------------------------
                                                                No. of
               Fiscal year                 Dollars for R/M    bills paid
------------------------------------------------------------------------
FY 07...................................     $40,424,542.90       84,767
FY 06...................................     $39,774,881.17      109,773
FY 05...................................     $40,057,914.57      154,188
------------------------------------------------------------------------

    While the funding has remained constant for the past three years, 
fewer units of service are being provided. Possible reasons for the 
reduction in units of service might be LROs removing caps or clients 
coming in for assistance on larger mortgages.
    In terms of new needs being identified, Local Boards and LROs have 
noted an increase in the number of new clients utilizing feeding 
programs, food pantries, and food banks to satisfy basic food needs 
while they are attempting to hold onto their homes.

    Mr. Carter, do you have further questions?

                   STATE AND LOCAL TRAINING PROGRAMS

    Mr. Carter. One more question. Thank you, Mr. Chairman.
    This issue of the state and local training programs; over 
the last five years, the requests have reduced state and local 
programs by more than 50 percent from the previous years' 
funding--enacted funding--every year for the last five years, 
and this is, again, proposed this year.
    I come from the world of 254 counties. That is the size of 
my state. Some of those counties have got a whole lot of money, 
and some of those counties do not have any money at all.
    These training programs are important. Is it your position, 
as I see this continuing 50-percent reduction every year, that 
the states and the counties are picking up the slack on these 
training programs and that they are able to get this training 
down to the level that we need it, or is there some other 
reason why they are continuously reduced?
    Mr. Paulison. We have a lot of different training programs 
through the National Fire Academy, through the Center for 
Domestic Preparedness that we have in Aniston, Alabama; the 
Emergency Management Institute in Maryland. We have a lot of 
exercise money that goes out the door. So all of those 
together, we feel like we are doing more training and more 
exercise than we have ever done. So it may be reduced in one 
area, but we are making up for it as a whole.
    If you would like, what I will do for the record is submit 
the entire package of where we are doing training and where we 
are doing exercises and how much we are actually doing at the 
local----
    Mr. Carter. So is your answer basically that this training 
duplicated some other training program that you have, and so 
you are trying to get away from the duplication on training?
    Mr. Paulison. Yes, sir. That is correct.
    Mr. Carter. Okay.
    Mr. Paulison. We will submit that for the record and give 
you all of the documentation on that.
    [The information follows:]



[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Carter. All right. Thank you, Mr. Chairman.
    Mr. Price. Thank you, and, with that, we will conclude our 
hearing. We appreciate all of you being here and the 
substantial contribution each of you has made. We thank you for 
your service, and we look forward to collaborating with you as 
we put the numbers together for next year. The Subcommittee is 
adjourned.




[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                           W I T N E S S E S

                              ----------                              
                                                                   Page
Gispert, L. J....................................................    53
Jadacki, Matt....................................................    53
Jenkins, W. O....................................................   525
Miller, David....................................................    53
Paulison, David.................................................53, 525
Runge, Jow.......................................................     1
Scheppach, R. C..................................................   525





























                               I N D E X

                              ----------                              

       OFFICE OF HEALTH AFFAIRS--DEPARTMENT OF HOMELAND SECURITY

                                                                   Page
Opening Statement of Chairman Price..............................     1
Opening Statement of Ranking Member Rogers.......................     2
Statement of Mr. Jeffrey W. Runge, Assistant Secretary for Health 
  Affairs and Chief Medical Officer, U.S. Department of Homeland 
  Security.......................................................     3
Bio Watch Generation 2.5.........................................     6
Bio Watch Generation 3...........................................     9
Long Term Outlook on BioWatch....................................    10
NAS Study on BioWatch............................................    11
Role of NAS Versus HHS...........................................    12
BioShield Progress...............................................    13
Federal Partners Program.........................................    15
BioWatch Coordination with DOD...................................    15
Biosurveillance..................................................    15
Food, Agriculture and Veterinary Coordination....................    16
Sharing Law Enforcement Sensitive Information....................    17
Participation of Public Health Officials.........................    18
Project BioShield................................................    19
HHS Secretary's Operations Center................................    21
HHS Hospital Preparedness Program................................    21
Hospital Surge Capacity..........................................    22
Pandemic Influenza Continuity of Government......................    23
FEMA Role in a Pandemic..........................................    25
Vaccine Distribution.............................................    25
Vaccine Stockpiles...............................................    26
Indifference to the Territories..................................    27
OHA Support to the Secretary, FEMA, FDA and USDA.................    28
Coordination with Territories....................................    29
Incident Management Planning Teams Coordination..................    30
Exposure Preparedness and Response...............................    32
Questions for the Record Submitted by Chairman Price.............    33
    Emergency Personnel and Disaster Response....................    33
    Bio Watch....................................................    33
    Measuring Medical Readiness..................................    35
    Pandemic Influenza...........................................    35
    National Biodefense Architecture.............................    36
    Management...................................................    36
    Contracts....................................................    39
    Project Bioshield............................................    40
Questions for the Record Submitted by the Honorable Lucille 
  Roybal-Allard..................................................    41
    Coordination with HHS: Pandemic Flu Preparedness.............    41
    Coordination with HHS: General...............................    42
    Biosurveillance and Monitoring...............................    43
    Medical Surge Capacity.......................................    49
Questions for the Record Submitted by Ranking Member Rogers......    51
    BioShield-Countermeasures....................................    51
Questions for the Record Submitted by the Honorable Robert 
  Aderholt.......................................................    52

 FEDERAL EMERGENCY MANAGEMENT AGENCY: IS THE AGENCY ON THE RIGHT TRACK?

Opening Statement of Chairman Price..............................    53
Opening Statement of Ranking Member Rogers.......................    55
Statement of Mr. R. David Paulison, Administrator, Federal 
  Emergency Management Agency....................................    56
Statement of Mr. Larry J. Gispert, President, International 
  Association of Emergency Managers..............................    93
Statement of Mr. David Miller, Legislative Chaired, National 
  Emergency Management Association...............................   104
Statement of Mr. Matt Jadacki, Deputy Inspector General, U.S. 
  Department of Homeland Security................................   115
Disaster Housing.................................................   130
Authority to Provide for the Repair and Improvement of 
  Multifamily Rental Properties..................................   132
Gulf Coast Coordination..........................................   132
Role of FEMA and State and Local Roles...........................   134
Logistics........................................................   135
Department of Transportation Partnership.........................   136
Logistics Supplies...............................................   137
FEMA Progress....................................................   138
Interim Final Rule Modifying Administrative Allowance............   139
Emergency Management Performance Grants..........................   140
FEMA Staffing Turnover...........................................   141
Formaldehyde.....................................................   143
Department of Homeland Security and Public Health................   144
Post-Disaster Mitigation.........................................   145
Pre-Positioning Equipment........................................   147
FEMA Vision......................................................   149
IMAT.............................................................   150
National Incident Management System (NIMS).......................   150
Presidential Declaration.........................................   151
Questions for the Record Submitted by Chairman Price.............   156
    Disaster Relief Fund.........................................   156
    Environmental Issues.........................................   159
    National Flood Insurance Program.............................   160
    Mitigation...................................................   165
    Disaster Housing.............................................   169
    Measuring Preparedness.......................................   170
    Financial Management System..................................   173
    FY 2007 FEMA Material Weakness...............................   173
    Northcom.....................................................   175
    Civil Reserve................................................   177
    U.S. Fire Administration.....................................   177
    Management...................................................   177
    Contracts....................................................   208
    State and Local Liaisons.....................................   477
    Gulf Coast...................................................   478
Questions for the Record Submitted by the Honorable Nita Lowey...   479
    Post-Katrina Emergency Management Reform Act.................   479
Questions for the Record Submitted by the Honorable Lucille 
  Roybal-Allard..................................................   480
    Travel Trailers: Formaldehyde Exposure.......................   480
    FEMA Field Office in Pasadena, California....................   481
Question for the Record Submitted by the Honorable Sam Farr......   482
    EMPG.........................................................   482
    Emergency Management Institute...............................   482
    Higher Education Project.....................................   483
    FEMA Authority from Post Katrina Act.........................   484
    Integrated Planning System...................................   486
    Transfer of Staff as Required by Post Katrina Act............   486
Questions for the Record Submitted by Ranking Member Rogers......   487
    Mission & Role...............................................   487
    FEMA Vision..................................................   488
    Logistics-stockpiling supplies...............................   493
    Logistics Centers............................................   494
Questions for the Record Submitted by the Honorable Robert 
  Aderholt.......................................................   495
    Emergency Warning Systems....................................   495
    NOAA Weather Radios..........................................   495
Questions for the Record Submitted by the Honorable Kay Granger..   497
    ``Regular Hours'' Reimbursement..............................   497
    Stafford Act.................................................   498
    Information Sharing During Disasters.........................   499
Additional Answers to Questions for the Record Provided by the 
  Federal Emergency Management Agency............................   501
    Travel.......................................................   501

   HOMELAND SECURITY GRANTS: SUPPORTING A NATIONAL  PREPAREDNESS AND 
                            RESPONSE SYSTEM 

Opening Statement of Chairman Price..............................   525
Opening Statement of Ranking Member Rogers.......................   527
Statement of Mr. R. David Paulison, Administrator, Federal 
  Emergency Management Agency....................................   528
Statement of Mr. Raymond C. Scheppach, Executive Director, 
  National Governors Association.................................   565
Statement of Mr. William O. Jenkins, Director, Homeland Security 
  and Justice Issues, U.S. Government Accountability Office......  575 
REAL ID Grant Funding............................................   605
National Security and Terrorism Prevention Grants................   606
Minimum Essential Requirements...................................   608
Grant Guidance...................................................   610
Protection of Civil Liberties....................................   610
Homeland Security Grants Funding Levels..........................   612
Categories of Grants and Number of Grant Programs................   612
High-Threat High-Risk Areas......................................   620
FEMA Grants Management...........................................   622
Grant Obligations................................................   623
Obligated Versus Expended Funds..................................   731
State Homeland Security Planning.................................   732
Assistance to Firefighter Grant Guidance.........................   733
Assistance to Firefighter Grants Criteria and National Priorities   806
Emergency Food and Shelter Program...............................   807
State and Local Training Programs................................   809
Questions for the Record Submitted by Chairman Price.............  1252
    Grants.......................................................  1252
Questions for the Record Submitted by the Honorable Nita Lowey...  1370
    UASI.........................................................  1370
Questions for the Record Submitted by the Honorable Lucille 
  Roybal-Allard..................................................  1371
    Assistance to Firefighters Grant Program: Risk-Based Funding.  1371
    Assistance to Firefighters Grant Program: Capital Expensiture 
      Cap........................................................  1371
    Transit Grants...............................................  1372
Questions for the Record Submitted by Ranking Member Rodgers.....  1373
    Grants Management and Measurement............................  1373
Additional Responses to Questions for the Record Provided by the 
  Federal Emergency Management Agency............................  1374
    State and Local Grants.......................................  1374

                                  <all>
</pre></body></html>
